NATIONAL
TELECOMMUNICATIONS
AND INFORMATION
ADMINISTRATION
Fourth Annual Assessment

of the PSIC Grant Program





FINAL REPORT NO. OIG-13-016-A
FEBRUARY 22, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                                  UNITED STATES DEPARTMENT OF COMMERCE
                                                  Office of Inspector General
                                                  Washington , D.C. 20230



February 22, 20 I 3

MEMORANDUM FOR: 	 Lawrence E. Strickling

                  NaQ:l                 rle
                  Assistant Secretary for Communications and Information
                                ommunications and Information Administration


FROM:                         Andrew Katsaros
                              Assistant Inspector General for Audit

SUBJECT: 	                    Fourth Annual Assessment ofthe PSIC Grant Program
                              Final Report No. OIG-13-0 16-A

Attached is our final report detailing the results of our fourth annual assessment of NTIA's
management of the Public Safety Interoperable Communications (PSIC) grant program, as
required by the Implementing Recommendations of the 9/1 I Commission Act of 2007.

We previously reported the results of 9 PSIC financial audits; this report consolidates the
results of 16 additional financial audits conducted in fiscal years 20 I I and 2012. We conducted
fieldwork at I0 PSIC locations and used the work of a contractor, Crowe Horwath LLP, for
fieldwork at 6 locations.

Our objectives were to determine whether (I) costs incurred by recipients receiving PSIC
funds from the Department of Commerce were allowable and in accordance with grant
requirements; (2) recipients met matching share requirements; (3) equipment acquired by
recipients had been tested and certified before deployment, operated effectively, and improved
operability in the state; and (4) recipients were on schedule to complete communication
investments by September 30, 20 I I, or with an approved extension, September 30, 20 12.

We identified a total of $190,3 17 in questioned costs and four common internal control
weaknesses: (I) compliance with reporting requirements, (2) compliance with grant
requirements, (3) subrecipient monitoring, and (4) cost-match monitoring.

On January 25, 20 13, we received NTIA's response to our draft report, which accepted all of
our recommendations. NTIA's response is included here as appendix B. The final report will be
posted on OIG's website pursuant to section 8L of the Inspector General Act of 1978, as
amended.

In accordance with Department Administrative Order 213-5, please provide us with your
detailed action plan within 60 days of the date of this memorandum. We appreciate the
assistance and courtesies extended to us by your staff during the review. If you have any
questions about this report, please contact me at (202) 482-7859 or Ken Stagner, Regional
Inspector General for Audit, at (303) 312-7650.

Attachment
                                              Report In Brief                                 FEBRUARY 22, 2013




Background                                 NATIONAL TELECOMMUNICATIONS AND INFORMATION
The Public Safety Interoperable            ADMINISTRATION
Communications (PSIC) program is a
nearly $1 billion formula-based            Fourth Annual Assessment of the PSIC Grant Program
matching grant program. PSIC ena-
bles public safety agencies to estab-      OIG-13-016-A
lish interoperable emergency com-
munication systems using reallocated       WHAT WE FOUND
radio spectrum.
                                           NTIA Program Management. Overall, NTIA is providing effective oversight of PSIC
NTIA, in consultation with the De-         grants. However, we identified instances where additional communication by
partment of Homeland Security,             NTIA to recipients could have clarified the unique requirements of this grant,
executes PSIC. NTIA awarded PSIC           resulting in greater recipient compliance. In addition, although NTIA faced many
grants to all 50 states, 5 territories,
                                           significant challenges in administering this grant, a higher level of monitoring by
and the District of Columbia in
amounts ranging from $692,000 to           NTIA could have prevented many of the recipient noncompliances we found. In
$94.0 million.                             particular, the number of late report submissions and necessary approvals and
                                           authorizations could have been reduced with improved continuous trend analysis
Why We Did This Review                     monitoring.
The Implementing Recommenda-               PSIC Recipient Audit Results. We identified two common areas of concern: (1)
tions of the 9/11 Commission Act of        unallowable costs and (2) internal control weaknesses in the areas of (a)
2007 require the Office of Inspector       noncompliance with reporting requirements, (b) compliance with grant
General to annually assess NTIA’s          requirements, (c) subrecipient monitoring, and (d) cost-match monitoring.
management of PSIC and to transmit
findings to the House Committee on         WHAT WE RECOMMEND
Energy and Commerce and the Sen-
ate Committee on Commerce, Sci-            We recommend that the Assistant Secretary for Communications and
ence, and Transportation. Also, Con-       Information:
gress specified that 25 financial audits
be conducted on the PSIC program.          1. 	 Pursue the recovery of questioned unallowable costs for each grant recipient
We previously reported the results              and determine the most appropriate process to recover questioned costs in
of 9 PSIC financial audits. This report         the future.
consolidates the results of the re-
maining 16 financial audits.               2. 	 Require recipients to submit all necessary reports in conformance with grant
                                                terms and conditions.
Our audit objectives were to deter-
mine whether (1) costs incurred by         3. 	 Institute a routine follow-up process with recipients, to ensure that grant
recipients of PSIC funds from the               requirements are understood and met.
Department were allowable and in
accordance with grant requirements;        4. 	 Strengthen existing requirements for grant recipients to perform
(2) recipients met matching share               subrecipient monitoring.
requirements; (3) equipment ac-
quired by recipients had been tested       5. 	 Calculate the impact of the unrealized cost match on the PSIC program and
and certified before deployment,                alert those recipients who have not met this match of their responsibilities
operated effectively, and improved              under their grants.
interoperability in the state; and (4)
recipients were on schedule to com-        6. 	 Document the follow-up conducted with PSIC grant recipients on
plete communication investments by              recommendations included in appendices to this report.
September 30, 2011, or with an ap-
proved extension, September 30,
                                           Our recommendations for internal control weaknesses, as well as other state
2012.                                      recommendations, are included in the state appendices to this report.
U.S. DEPARTMENT OF COMMERCE                                                                                         OFFICE OF INSPECTOR GENERAL



Contents

Introduction .......................................................................................................................................................1

Findings and Recommendations ....................................................................................................................3

   NTIA Program Management ......................................................................................................................3

   PSIC Recipient Audit Results .....................................................................................................................3

   Recommendations ........................................................................................................................................6

Summary of Agency Response and OIG Comments ................................................................................8

Appendix A: Objectives, Scope, and Methodology ...................................................................................9

Appendix B: Agency Response ................................................................................................................... 11

Appendix C: PSIC Drawdowns .................................................................................................................. 14

Appendix D: Tennessee Military Department Emergency Management Agency ............................ 16

Appendix E: Georgia Emergency Management Agency ........................................................................ 20

Appendix F: Indiana Department of Homeland Security ...................................................................... 22

Appendix G: Colorado Governor’s Office of Homeland Security ..................................................... 25

Appendix H: Washington, D.C., Homeland Security and Emergency Management Agency ........ 27

Appendix I: Illinois Emergency Management Agency ............................................................................. 30

Appendix J: Maryland Emergency Management Agency........................................................................ 33

Appendix K: Ohio Emergency Management Agency ............................................................................. 35

Appendix L: Iowa Homeland Security and Emergency Management Division ................................. 38

Appendix M: Oklahoma Office of Homeland Security .......................................................................... 40

Appendix N: Arizona Department of Homeland Security ................................................................... 43

Appendix O: Kansas Highway Patrol ........................................................................................................ 57

Appendix P: Kentucky Office of Homeland Security ............................................................................. 70

Appendix Q: South Carolina Law Enforcement Division ..................................................................... 85

Appendix R: Virginia Department of Emergency Management ........................................................... 98

Appendix S: Michigan Emergency Management and Homeland Security Division ........................ 111

Appendix T: Potential Monetary Benefits from This Assessment .................................................... 123

Appendix U: Prior PSIC Reports Issued by OIG .................................................................................. 124



                                                                                                                    COVER: Detail of fisheries pediment,
                                                                                                           U.S. Department of Commerce headquarters,

                                                                                                                   by sculptor James Earle Fraser, 1934





FINAL REPORT NO. OIG-13-016-A
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


Introduction
The Public Safety Interoperable Communications (PSIC) program is a nearly $1 billion formula-
based matching grant program. The goals of the PSIC program, according to the National
Telecommunications and Information Administration’s (NTIA’s) revised PSIC Program Guidance
and Application Kit, 1 are to (1) achieve meaningful and measurable improvements in public safety
and (2) fill interoperability gaps identified in statewide plans.

The Digital Television Transition and Public Safety Act of 2005 authorized the NTIA, in
consultation with the Department of Homeland Security (DHS), to execute the PSIC grant
program. PSIC enables public safety agencies to establish interoperable emergency
communications systems using reallocated radio spectrum. NTIA awarded PSIC grants to all 50
states, 5 territories, and the District of Columbia in amounts ranging from $692,000 to $94.0
million.

The Implementing Recommendations of the 9/11 Commission Act of 2007 require the
Department of Commerce Office of Inspector General (OIG) to annually assess NTIA’s
management of PSIC and to transmit findings to the House Committee on Energy and
Commerce and the Senate Committee on Commerce, Science, and Transportation. The Act
requires the Commerce Inspector General to conduct financial audits, over 4 years, of a
representative sample of at least 25 states or territories receiving PSIC grants. We previously
reported the results of 9 PSIC financial audits; 4 completed fieldwork in 2008, and 5 completed
fieldwork in 2009. 2 This report is the final assessment of NTIA’s management of the PSIC grant
program and consolidates the results of the remaining 16 financial audits conducted in 2011. 3
Our audit objectives were to determine whether (1) costs incurred by recipients of PSIC funds
from the Department of Commerce were allowable and in accordance with grant
requirements; (2) recipients met matching share requirements; (3) equipment acquired by
recipients had been tested and certified before deployment, operated effectively, and improved
interoperability in the state; and (4) recipients were on schedule to complete communication
investments by September 30, 2011, or with an approved extension, September 30, 2012.

The 16 audits identified two areas of concern among most PSIC grant recipients: unallowable
costs and weak internal controls over grant administration. The first part of this report contains
an overview of the two areas of concern and addresses NTIA’s management of the PSIC grant
program. Subsequent parts of the report contain detailed information about the areas of
concern, as well as additional nonsystemic findings, for individual states.

Table 1 shows the status of the 25 states selected for PSIC audits, including the year of OIG
fieldwork, the PSIC grant amount, funds remaining to be drawn down, and percentage of funds
remaining to be spent.
1
  National Telecommunications and Information Administration and Federal Emergency Management Agency,

August 16, 2007. Revised PSIC Program Guidance and Application Kit, 2 [Online].

www.ntia.doc.gov/psic/PSICguidance_081607.pdf (accessed August 3, 2012).

2
  See appendix U: Prior PSIC Reports Issued by OIG.

3
  We used the work of a contractor, Crowe Horwath LLP, for fieldwork at 6 locations: Arizona, Kansas, Kentucky, 

Michigan, South Carolina, and Virginia.



FINAL REPORT NO. OIG-13-016-A                                                                                       1
U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL

        Table 1: Status of States Selected by OIG for PSIC Audits
                                                        Funds Remaining      % of Funds
          Year of OIG                    PSIC Grant       to Be Drawn        Remaining
           Fieldwork            State     Amount             Down           to Be Spent
              2008         Pennsylvania  $34,190,555          $     1,181            0.0
              2008          Louisiana     19,672,287              118,060            0.6
              2008           Arkansas     11,169,402              600,146            5.4
              2008           Nevada       12,042,417              115,294            0.9
              2009             Texas      65,070,452               69,440            0.1
              2009          California    94,034,510              123,387            0.1
              2009            Florida     42,910,692              714,891            1.7
              2009          New York      60,734,783              120,371            0.2
              2009        Massachusetts   21,191,988            1,683,549            8.0
              2011          Colorado      14,336,638                    0            0.0
              2011          Oklahoma      11,684,183                  136            0.0
              2011            Kansas      10,655,125                    0            0.0
              2011              Ohio      29,377,337              157,682            0.5
              2011             Illinois   36,414,263             2,711.99            0.0
              2011          Kentucky      15,405,625                    0            0.0
              2011            Indiana     18,291,735                    0            0.0
              2011           Georgia      25,311,354               58,262            0.2
              2011          Tennessee     17,540,752              267,850            1.5
              2011              Iowa      10,935,974               77,960            0.7
              2011           Arizona      17,713,050               85,207            0.5
                               South
              2011           Carolina     13,499,308               3,980             0.0
              2011           Maryland     22,934,593                   0             0.0
                            District of
              2011          Columbia      11,857,972                  77             0.0
              2011           Michigan     25,039,781             574,791             2.3
              2011           Virginia     25,012,521             324,462             1.3
          Source: NTIA, PSIC Drawdown Report as of 9/30/12




FINAL REPORT NO. OIG-13-016-A                                                                        2
U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
NTIA Program Management

Overall, NTIA is providing effective oversight of PSIC grants. However, using the results of our
financial audits of the 25 PSIC recipients, we have identified specific recommendations that will
further improve oversight procedures for this and future grant programs that NTIA may
administer. Specifically, our audits identified instances where additional communication by NTIA
to recipients could have clarified the unique requirements of this grant program, resulting in
greater recipient compliance. In addition, although NTIA faced many significant challenges in
administering this grant program, a higher level of monitoring by NTIA could have prevented
many of the recipient noncompliances our audits found. In particular, the number of late report
submissions and necessary approvals and authorizations could have been reduced with
improved continuous trend analysis monitoring, which would have identified these problems
early on among the recipients. We recommend that NTIA

    •	 strengthen the federal program officers’ monitoring of subrecipient reporting and
       compliance with grant requirements,

    •	 verify source documentation for its current monitoring efforts,

    •	 strengthen its monitoring tools’ internal control capabilities,

    •	 prepare recipient match documentation guidance for federal program officer use during
       site visits,

    •	 work with recipients at risk of not meeting award progress and completion
       requirements and develop an action plan and alternative strategies for those awards that
       will not satisfy award terms, and

    •	 incorporate continuous trend analysis activities into its award monitoring process.

PSIC Recipient Audit Results

During our audit of the 16 PSIC grant recipients, we identified two common areas of concern:
(1) unallowable costs and (2) internal control weaknesses in the areas of (a) compliance with
reporting requirements, (b) compliance with grant requirements, (c) subrecipient monitoring,
and (d) cost-match monitoring.

Unallowable Costs

Of the transactions selected for testing, we identified $190,317 in questioned costs for items
that did not meet the Public Safety Interoperable Communications Grant Program: Program




FINAL REPORT NO. OIG-13-016-A                                                                     3
U.S. DEPARTMENT OF COMMERCE                                                            OFFICE OF INSPECTOR GENERAL

Management Handbook 4 requirements for 5 of the 16 recipients (see table 2). The PSIC
handbook identifies types of costs that are not eligible for NTIA reimbursement, such as
overhead and supplies. Generally, the recipients recorded costs that were unallowable or were
not eligible for reimbursement because they were unaware of the requirements. Therefore, the
PSIC grant program did not gain the expected benefit from the expenditure of these incurred
costs, as agreed to by NTIA and the recipients in the grant agreement.

    Table 2: Summary of Unallowable Costs by State
                          Recipient                           Questioned                    Appendix
                                                               Amount
           Tennessee Military Department Emergency              $ 13,262                         D
                     Management Agency
         Homeland Security and Emergency Management               39,242                         H
                  Agency, Washington, D.C.
            Illinois Emergency Management Agency                 131,834                         I

           Arizona Department of Homeland Security                4,978a                         N

             Kentucky Office of Homeland Security                 1,001a                         P

                             Total                              $190,317


     aOMB Circular A-133 does not require grant recipients to report questioned costs less than $10,000. Therefore,
     NTIA should determine whether returning these questioned costs is appropriate.

Internal Control Weaknesses

Our audit focused on the following areas: compliance with PSIC grant requirements, including
reporting; financial and programmatic grant monitoring of the subrecipient; cost analysis; and
compliance with state fund-matching requirements. We identified four common areas of
internal control weaknesses: (a) compliance with reporting requirements, (b) compliance with
grant requirements, (c) subrecipient monitoring, and (d) cost-match monitoring. Table 3
contains the control weaknesses identified for each state.

Reporting. Fourteen of the recipients did not submit accurate or timely financial or performance
reports. Eleven recipients filed reports with inaccurate information, and eight recipients did not
submit timely reports. The PSIC handbook and OMB policies require submission of financial
and performance reports at specified times. Failure to submit timely and accurate reports
prevents NTIA from receiving the necessary information to perform its oversight duties.




4
 U.S. Department of Commerce, Telecommunications and Information Administration, and Federal Emergency
Management Agency, October 2009. Public Safety Interoperable Communications Grant Program: Program
Management Handbook. Washington, D.C.: Department of Commerce.


FINAL REPORT NO. OIG-13-016-A                                                                                         4
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

Table 3: Internal Control Weaknesses Identified for Each State
                                Meeting Grant            Subrecipient       Cost-Match
                 Reporting      Requirements              Monitoring        Monitoring
                                                                                                Report
      State       A      B      C     D       E      F       G      H         I         J      Part No.

 Tennessee        X             X     X      X       X       X      X        X                     D

 Georgia          X      X      X                            X                                     E

 Indiana          X      X      X     X                                                 X          F

 Colorado                       X     X                                                            G

 Washington,
 D.C.                    X      X            X                      X        X                     H

 Illinois         X             X     X      X                      X        X                     I

 Maryland         X      X            X                                                            J

 Ohio             X             X     X              X                                  X          K

 Iowa                    X            X              X                                             L

 Oklahoma                X      X     X                      X                                     M

 Arizona                        X            X               X               X          X          N

 Kansas           X             X     X              X       X      X        X                     O

 Kentucky         X      X      X                            X      X        X                     P

 South
 Carolina         X             X            X       X       X      X                              Q

 Virginia         X      X      X                    X       X      X                   X          R

 Michigan         X                   X      X                                                     S

 Legend
 A – inaccurate reporting; B – reports not submitted timely; C – expenditure occurred before National
 Environmental Policy Act approval; D – state did not pass through funds timely; E – other PSIC grant
 requirements not met; F – subrecipient reviews not performed; G – OMB Circular A-133 review not
 adequate; H – other monitoring issues; I – unallowable costs; J – cost matching at risk.




FINAL REPORT NO. OIG-13-016-A                                                                              5
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

Compliance with grant requirements. All sixteen of the audited recipients did not comply with one
or more of the PSIC grant requirements. PSIC grants contain specific requirements as a
condition of grant performance, such as complying with requirements of the National
Environmental Protection Act (NEPA), passing through funds within 60 days of receiving a
signed Investment Justification, or filing timely After Action Reports (AARs). There are many
reasons why the recipients did not perform the necessary actions required by grant
requirements; the most cited causes by recipients were poorly understood guidance and rapidly
changing guidance from government program management.

Subrecipient monitoring. Thirteen of the recipients did not perform adequate subrecipient
monitoring. In accordance with applicable OMB guidance, recipients are responsible for
monitoring the performance of their subrecipients, to include financial and grant condition
compliance. Also, there was little or no on-site monitoring, review of subrecipient OMB A-133
audit reports, or inventory verification of PSIC program equipment. Noncompliant subrecipient
monitoring means the recipients and the NTIA program manager cannot be sure that the PSIC
grant program is accomplishing its objectives in a timely and cost-efficient manner. Additionally,
the lack of adequate inventory controls allows a risk of theft or loss of the equipment
purchased with PSIC funds.

Cost-match monitoring. Eight of the recipients did not comply with cost-match monitoring
requirements. Four recipients were not contributing cost match at a pace consistent with
program spending. In addition, five of the recipients recorded costs, such as supplies or
overhead, that did not meet the PSIC program definition of allowable costs. PSIC grant
requirements require cost matching to meet specific targets, and that only certain types of
costs can be incurred. Many state and territory governments are currently experiencing
budgetary constraints, which may make a large cost-match contribution at the end of the grant
unrealistic. PSIC objectives may not be met completely if cost match is not available to the
program.

Recommendations

We recommend that the Assistant Secretary for Communications and Information:

    1.	 Pursue the return of questioned unallowable costs for each grant recipient and
        determine the most appropriate process to recover questioned costs in the future.

    2.	 Require recipients to submit all necessary reports in conformance with grant terms and
        conditions.

    3.	 Institute a routine follow-up process with recipients, to ensure that grant requirements
        are understood and met.

    4.	 Strengthen existing requirements for grant recipients to perform subrecipient

        monitoring.


    5.	 Calculate the impact of the unrealized cost match on the PSIC program and alert those
        recipients who have not met this match of their responsibilities under their grants.


FINAL REPORT NO. OIG-13-016-A                                                                      6
U.S. DEPARTMENT OF COMMERCE                                      OFFICE OF INSPECTOR GENERAL

    6.	 Document the follow-up conducted with PSIC grant recipients on recommendations
        included in appendices to this report.

Our recommendations for the internal control weaknesses above, as well as other state
recommendations, are included in the state appendices to this report.




FINAL REPORT NO. OIG-13-016-A                                                             7
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
On January 25, 2013, we received NTIA’s response to our draft report, which we include as
appendix B of this report. NTIA did not dispute our findings. In addition, NTIA accepted all
recommendations and had no comments, concerns, or suggestions regarding them.




FINAL REPORT NO. OIG-13-016-A                                                                  8
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
This report details our fourth annual assessment of NTIA’s management of the PSIC program
and audit of selected recipients for the fiscal year ended September 30, 2011. Our audit
objectives were to determine whether (1) costs incurred by recipients receiving PSIC funds
from the Department of Commerce were allowable and in accordance with grant
requirements; (2) recipients were meeting matching share requirements; (3) equipment
acquired by recipients was tested and certified before deployment, operated effectively, and
improved interoperability in the state; and (4) recipients were on schedule to complete
interoperable communications investments by September 30, 2011, or with an approved
extension, by September 30, 2012. We used the audit results to determine whether NTIA
grant program management is effective.

We conducted our fieldwork at 10 PSIC locations: Colorado, the District of Columbia,
Georgia, Illinois, Indiana, Iowa, Maryland, Ohio, Oklahoma, and Tennessee. We used the work
of a contractor, Crowe Horwath LLP, for fieldwork at an additional 6 locations: Arizona,
Kansas, Kentucky, Michigan, South Carolina, and Virginia. We judgmentally selected recipients
that had a high percentage of in-kind match. We elected this method because in-kind match can
be difficult to track and assess, as evidenced by our previous reports.

We also evaluated compliance with federal laws and regulations applicable to PSIC grants,
including

    •	 Section 3006 of the Digital Television Transition and Public Safety Act of 2005, Public
       Law 109-171

    •	 Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110­
       53

    •	 Public Safety Interoperable Communications Grants, Public Law 111-96

    •	 NTIA’s online guide, Revised PSIC Program Guidance and Application Kit, August 16, 2007

    •	 NTIA’s and the Federal Emergency Management Agency’s (FEMA’s) PSIC Program

       Management Handbook, October 2009


We obtained an understanding of the PSIC recipient controls by interviewing PSIC program
officials and examining policies and procedures. To address our objectives, we

    •	 conducted interviews with the State Administrative Agency (SAA) personnel to

       determine how PSIC funds and activities are being monitored,


    •	 reviewed SAA monitoring policies and procedures to determine if they were adequate
       to ensure funds were spent and reported in accordance with program regulations,



FINAL REPORT NO. OIG-13-016-A                                                                    9
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

    •	 reviewed a nonstatistical sample of expenditures to assess whether expenses were
       allowable under the program, and

    •	 determined whether state agencies were monitoring subrecipient control of PSIC assets.

We assessed the validity and reliability of computer-processed data supplied by the PSIC
recipient by directly testing the data against supporting documentation. Based on our tests, we
concluded that the computerized data were reliable for use in meeting our objectives.

We conducted our audits in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We performed this audit under the authority of the Implementing Recommendations of the
9/11 Commission Act of 2007; the Inspector General Act of 1978, as amended; and
Department Organization Order 10-13.

Contracted Audits

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General monitored the work of our contractor for fieldwork at six locations: Arizona, Kansas,
Kentucky, Michigan, South Carolina, and Virginia. We did the following:

    •	 reviewed Crowe Horwath LLP’s approach and planning of the audit;

    •	 evaluated the qualifications and independence of the contract auditors;

    •	 monitored the progress of the audit at key points;

    •	 coordinated periodic meetings with Crowe Horwath concerning audit progress,

       findings, and recommendations;


    •	 reviewed the audit reports prepared by Crowe Horwath to ensure compliance with
       Government Auditing Standards; and

    •	 made minor adjustments to contractor-prepared documents, not affecting results, to
       match the style of this report

Crowe Horwath LLP is responsible for the findings contained in the auditor's reports on the
PSIC recipients it audited and the conclusions. We do not express any opinion on the Crowe
Horwath auditor's reports or on the conclusions expressed therein.




FINAL REPORT NO. OIG-13-016-A                                                                 10
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response





FINAL REPORT NO. OIG-13-016-A                           11
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL



                                  NTIA's AUDIT ACTION PLAN


  AUDIT REPORT TITLE:                   Fourth Annual Assessment of the Public Safety
                                        Interoperable Communications Grant Program

  AUDIT REPORT DATE:                    December 11, 2012

  AUDITED ENTITY:                       National Telecommunications and Information
                                        Administration (NTIA)

  OIG Recommendation: We recommend that the Assistant Secretary for Communications and
  Information pursue the return ofquestioned unallowable costs for each grant recipient and
  determine the most appropriate process to pursue the return ofquestioned costs.

  Actions Taken or Planned: NTIA will work closely with the Federal Emergency Management
  Agency (FEMA) Grant Programs Directorate (GPD) to review the questioned costs in the
  amount of $190,317 that impact five grant recipients. NTIA and FEMA will work with the grant
  recipients to effectuate the return of any unallowable funds.

  OJG Recommendation: We recommend that the Assistant Secretary for Communications and
  Information require recipients submit all necessary reports in conformance with grant terms and
  conditions.

   Actions Taken or Planned: The PSIC Grant Program ended September 30. 2012. and recipients
   are now in the close-out process. NTIA and DHS are satisfied that the PSIC recipients have
  -submitted all necessary reports for the grants. NTIA will continue to administer rigorous
   compliance procedures for our existing and future grant programs.

  OIG Recommendation: We recommend that the Assistant Secretary for Communications and
  Information institute a routine /ollow-up process with recipients to ensure the grant
  requirements are understood and met.

  Actions Taken or Planned: The PSIC Grant Program ended September 30, 2012, and recipients
  are now in the close-out process. NTIA will continue to administer rigorous communications
  and technical assistance plans that address this recommendation for our existing and for future
  grant programs.

  OIG Recommendation: We recommend that the Assistant Secretary for Communications and
  Information strengthen existing requirements for grant recipients to perform subrecipient
  monitoring.

  Actions Taken or Planned: The PSIC Grant Program ended September 30,2012, and recipients
  are now in the close-out process. NTIA will implement this recommendation for future grant
  programs as we have for existing NTIA programs.




FINAL REPORT NO. OIG-13-016-A                                                                       12
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL



 OIG Recommendation: We recommend that the Assistant Secretary for Communications and
 Information calculate the impact of the unrealized cost match on the PSIC program and alert
 those recipients who have not met this match of their responsibilities under their grants.

 Actions Taken or Planned: NTIA will work closely with the FEMA GPO during the grant close­
 out process to ensure that all grant recipients satisfy their minimum cost sharing requirement of
 the award. If any recipients are not able to meet their cost share requirements, we will seek
 recovery of any unmatched federal funds .

 OIG Recommendation: We recommend that the Assistant Secretary for Communications and
 Information document the follow-up conducted with PSIC grant recipients on recommendations
 included in appendices to this report.

 Actions Taken or Planned: NTIA and the FEMA GPD will review each of the 16 individual
 audits included in the report appendices. NTIA will work with the FEMA GPO to address any
 findings relevant to the close-out of each grant. For those findings that are related to grantee
 performance during the period of the award, NTIA and FEMA will take those findings under
 consideration for future grants with these recipients.




 OIG Concurrence:                                            Date:




FINAL REPORT NO. OIG-13-016-A                                                                       13
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


Appendix C: PSIC Drawdowns
Table 4: Recipients Not Requesting Extensions to September 30, 2012
                                                                                 Remaining to Be        Percent
              State                   Amount           Drawdowns to Date
                                                                                  Drawn Down          Drawn Down

  Mississippi                          $ 10,989,345                 $ 10,989,345             $      0         100.00
  South Dakota                             6,549,691                   6,549,691                    0         100.00
  Virgin Islands                              856,907                    856,904                    3         100.00
  Colorado                              14,336,638                   14,336,638                     0        100.00
  Rhode Island                             7,363,879                   7,363,879                    0         100.00
  West Virginia                            8,422,844                   8,422,844                    0         100.00
  Kansas                                10,655,125                   10,655,125                     0        100.00
  Ohio                                  29,377,337                   29,219,655               157,682          99.46
  Louisiana                              19,672,287                   19,554,227              118,060           99.40
  North Dakota                             7,003,994                   7,003,994                    0         100.00
  Indiana                               18,291,735                   18,291,735                     0        100.00
  Delaware                                 8,196,842                   8,196,809                   33           99.99
  American Samoa                              667,844                    667,844                    0         100.00
  Tennessee                             17,540,752                   17,272,902               267,850          98.47
  Northern Mariana Islands                    687,516                    687,516                    0         100.00
   Total                              $160,612,736               $160,069,108                $543,628           99.66
  Source: NTIA; PSIC Drawdown Report as of 9/30/12
  Bold – states audited for this report; italic – states previously audited and reported in other DOC OIG audit
  reports, see appendix U.




FINAL REPORT NO. OIG-13-016-A                                                                                    14
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

Table 5: Recipients Requesting Extensions to September 30, 2012
                                                            Drawdowns to          Remaining to Be       Percent
              State                      Amount
                                                                Date               Drawn Down         Drawn Down

New Mexico                                   $ 8,288,725             $ 8,288,725             $        0        100.00
Alaska                                           7,250,345              7,250,345                     0        100.00
Oklahoma                                      11,684,183              11,684,047                    136        99.99
Pennsylvania                                   34,190,555              34,189,374                 1,181         99.99
Texas                                          65,070,452              65,001,012               69,440          99.89
Hawaii                                           8,069,879              8,069,879                     0        100.00
Illinois                                      36,414,263              36,411,551                 2,712         99.99
Kentucky                                      15,405,625              15,405,625                      0       100.00
Puerto Rico                                      9,590,025              9,590,025                     0        100.00
North Carolina                                 22,130,199              22,078,265                51,934         99.77
Georgia                                       25,311,354              25,252,732                58,622         99.77
California                                     94,034,510              93,911,123              123,387          99.87
Vermont                                          4,476,761              4,476,761                     0        100.00
Idaho                                            7,289,795              7,289,795                     0        100.00
Arkansas                                       11,169,402              10,569,256              600,146          94.63
Iowa                                          10,935,974              10,858,014                77,960         99.29
Maine                                            7,567,579              7,567,579                     0        100.00
Arizona                                       17,713,050              17,627,843                85,207         99.52
South Carolina                                13,499,308              13,495,328                 3,980         99.97
Utah                                           10,353,261              10,216,291              136,970          98.68
Maryland                                      22,934,593              22,934,593                      0       100.00
District of Columbia                          11,857,972              11,857,895                     77        99.99
Oregon                                         12,182,532              12,182,532                     0        100.00
Missouri                                       17,466,074              17,387,337                78,738         99.55
Nevada                                         12,042,417              11,927,123              115,294          99.04
Michigan                                      25,039,781              24,464,990              574,791          97.70
Florida                                    42,910,691.88               42,195,801              714,891          98.33
Minnesota                                      14,262,071              14,255,032                 7,039         99.95
Washington                                     19,180,347              19,142,770                37,577         99.80
Montana                                          6,549,685              6,305,433              244,252          96.27
Alabama                                        13,585,399              13,585,399                     0        100.00
Virginia                                      25,012,521              24,688,059              324,462          98.70
Wisconsin                                      15,367,216              15,366,359                   857         99.99
Guam                                             2,600,678              2,498,655              102,023          96.08
Wyoming                                          5,952,187              5,601,674              350,513          94.11
Nebraska                                         8,582,108              7,790,510              791,598          90.78
New Jersey                                     30,806,646              30,805,138                 1,508         99.99
New York                                       60,734,783              60,614,412              120,371          99.80
Connecticut                                    12,999,879              12,971,183                28,696         99.78
Massachusetts                                  21,191,988              19,508,439            1,683,549          92.06
New Hampshire                                    5,966,760              4,451,929            1,514,831          74.61
  Total                                     $807,671,574            $799,768,833            $7,902,742          99.02
Source: NTIA; PSIC Drawdown Report as of 9/30/12
Bold – states audited for this report; italic – states previously audited and reported in other DOC OIG audit
reports. See appendix U.




FINAL REPORT NO. OIG-13-016-A                                                                                    15
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


Appendix D: Tennessee Military Department
Emergency Management Agency
As part of its responsibility as the SAA the Tennessee Military Department Emergency
Management Agency (TEMA) administers various projects approved in its PSIC grant, as
identified in its Investment Justification (IJ). Table 6 identifies TEMA’s submitted and approved
investments.

     Table 6: TEMA’s Submitted and Approved Investments
                                                                                      Nonfederal
                                                                       PSIC Funds       Match
                        PSIC Investment Justification                   Awarded       (Budgeted)        Total
      1. Tennessee Valley Regional Communication System                $14,000,000     $2,780,000    $16,780,000
      2. LETS Talk Linked Emergency Telecommunication System               412,007         82,402        494,409
      3. Strategic reserve                                               1,480,012        231,700      1,711,712
      4. Obion County                                                      285,600         71,400        357,000
      5. P-25 master switch                                                275,000         55,000        330,000
      6. Portable radio towers and cache of radios                         567,150        112,000        679,150
       State match                                                          –             977,676        977,676
       Statewide planning                                                   26,234         –              26,234
       Management &Administration (M&A)                                    493,788        100,000        593,788
       Total                                                           $17,539,791     $4,410,178    $21,949,969


We analyzed TEMA’s progress toward completing the approved investments within the
remaining grant period. As of September 30, 2012, TEMA had expended a majority of its PSIC
funds. TEMA had $267,850 in PSIC funds remaining and had drawn down 98 percent of its PSIC
grant funds. Table 7 shows the status of TEMA’s PSIC grant as of September 30, 2012.

     Table 7: PSIC Funds Remaining as of September 30, 2012
                                                               Remaining to Be       Percent Drawn
          State         Amount        Drawdowns to Date
                                                                Drawn Down               Down

      Tennessee        $17,540,752             $17,272,902             $267,850                98.47 5
      Source: NTIA

Findings and Recommendations

Unallowable Costs

We reviewed a sample of costs and identified $13,262 of TEMA PSIC funds that were used for
unallowable expenses, including $5,341 of overhead allocation, $5,438 of supply costs, and
$2,483 of indirect costs. The PSIC handbook lists office supplies as unallowable direct and
indirect costs. TEMA explained that the allocation of overhead was in error and had been

5
 The differences in dollar amounts between table 6 and table 7 represent changes that occurred from the time the
budget was identified at the beginning of the program and the actual costs as a result of fund reprogramming as
the grant progressed.


FINAL REPORT NO. OIG-13-016-A                                                                                 16
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL

corrected. However, TEMA was unaware that office supplies were an unallowable cost. TEMA
therefore incorrectly used $13,262 of grant funds. We recommend that TEMA return the funds
to NTIA.

Reporting

TEMA did not include or accurately record all nonfederal matching amounts in its financial
system. As of March 31, 2011, TEMA’s reported expended match was $2,652,389, or 16
percent of federal expenditures. However, if TEMA were to accurately include all matching
amounts, TEMA would have met the required March 31, 2011 matching amount. The match is
required and defined by the Digital Television Transition and Public Safety Act of 2005, Public
Law 109-171, Section 3006; the PSIC Program Guidance and Application Kit; and the special award
conditions. According to FEMA Information Bulletin 268, dated October 22, 2007, the matching
requirement can be identified and allocated at either the investment level or at the total PSIC
grant level; therefore, individual investments can be undermatched or overmatched according
to needs. TEMA did not accurately track its fiscal matching on an ongoing basis, which resulted
in understating match amounts. TEMA is required to provide a 20 percent matching share from
nonfederal sources for acquisition and deployment of communications equipment, as well as
management and administration costs. For example, TEMA excluded an in-kind match of
$1,500,000 from the Department of Correction and another of $54,303 from the city of
Chattanooga. Additionally, TEMA miscoded $55,679 of Chattanooga’s match in the financial
system as federal instead of nonfederal. With these additional amounts, TEMA did meet the
required March 31, 2011, matching amount but did not know they had met the grant
requirement. Therefore, TEMA should provide better financial monitoring to ensure that
matching amounts are recorded and coded correctly in the financial system.

Timely Compliance with Grant Requirements

TEMA did not have adequate policies and procedures to identify and meet all PSIC grant
requirements in a timely manner.

TEMA did not meet NEPA requirements before expending grant funds. The NEPA review process
helps evaluate a project’s impact on the environment, historic properties, and threatened or
endangered species. A majority of the subprojects identified in TEMA’s IJ 1 were completed
before receipt of NTIA's Finding of No Significant Impact (FONSI) approvals. Of the 26 projects
we tested, 21 expended funds and were completed before receiving NEPA approval. The PSIC
handbook states that “environmental compliance must occur before the expenditure of grant
funds takes place.” TEMA explained that the NEPA requirement was a nontraditional
requirement. The SAA stated that other grants monitored by the state have exclusions, which
do not require NEPA approval before fund expenditure. TEMA did eventually receive NEPA
approval in November 2009 and January 2010. However, TEMA violated the grant
requirements for as long as 4 months. TEMA should establish policies and procedures to
identify all grant requirements at the beginning of the grant.

TEMA did not file timely After Action Reports. TEMA submitted three After Action Reports (AARs)
late. AARs document the results of exercises conducted using PSIC grant funds and include



FINAL REPORT NO. OIG-13-016-A                                                                17
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

recommendations and improvements. The PSIC handbook states that AARs “must be
submitted to DHS within 60 days following completion of the exercise.” TEMA conducted
three exercises with one in February 2010, one in March 2010, and one in April of 2010;
however, two AARs were not completed and submitted until October 2010, 4 and 6 months
late, respectively. Without timely reporting, DHS does not have accurate information to
monitor the progress of the PSIC projects. We recommend that TEMA develop internal
controls to identify and meet all grant requirements timely.

TEMA did not pass through funds within the 60-day time frame. TEMA did not pass through funds
within 60 days of receiving the IJ approval. According to the PSIC handbook, “states [are]
required to pass through 80 percent of their PSIC allocation to local or tribal governments and
to pass through those funds within 60 days of the IJ approval.” TEMA received its IJ approval in
December 2007 but was unable to obtain signed contracts from its subrecipients to distribute
the funds within the 60-day window. TEMA did not receive some signed agreements from
subrecipients until September 2008 and others as late as February 2009, which exceeded the
60-day window by 7 to 13 months. While the funds were ultimately passed through to the
subrecipients, TEMA was not compliant with PSIC grant requirements during that time. Many
other PSIC recipients have been identified with this same noncompliance and have cited the
unique requirements of this grant as the cause. The confusion about the unique grant
requirements among the recipients can be efficiently and effectively remedied by NTIA who is
responsible for monitoring recipient compliance with all grant requirements. Therefore, we
recommend NTIA establish policies and procedures for grant management controls that ensure
recipient compliance with, and understanding of, the grant requirements. In addition, an
appropriate corrective action plan should be developed by recipients to ensure compliance
before further grant/project progress is allowed to proceed.

Subrecipient Monitoring

TEMA did not adequately monitor subrecipients in accordance with federal requirements and
internal policies and procedures. TEMA is required to monitor the subrecipient’s progress on-
site, reviewing OMB Circular A-133 audits and ensuring maintenance of equipment inventory
records.

TEMA did not adequately document reviews of subrecipients. TEMA did not prepare or maintain
documentation of its on-site reviews of subrecipients. The PSIC Program Guidance and Application
Kit states that “SAA monitoring will be accomplished through a combination of office-based and
on-site monitoring visits.” TEMA informed us that the on-site and desk reviews were
performed; however, written documentation was not always prepared. Without adequate
documentation of reviews, TEMA cannot ensure that these activities were performed. TEMA
should develop and maintain documentation of reviews to support the subrecipient monitoring
performed.

TEMA did not review A-133 reports to ensure subrecipients properly coded PSIC funds. TEMA did not
report PSIC expenditures correctly for 2009 or 2010. The PSIC handbook states that “in
accordance with OMB Circular A-133, grantees and subrecipients that expend $500,000 or
more in federal funds in a fiscal year are required to submit an organization-wide financial and
compliance audit.” Instead of coding PSIC expenditures on the Schedule of Expenditures of


FINAL REPORT NO. OIG-13-016-A                                                                   18
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

Federal Awards (SEFA) to Catalog of Federal Domestic Assistance number 11.555, the TEMA
funds were coded to number 97.124, which is for DHS’ Interoperable Communications and
Training Project. As a result, expenditures for the PSIC grant were underreported on the
TEMA A-133 report for FY 2009 and FY 2010, and DHS’ Interoperable Communications and
Training Project expenditures were overreported for FY 2009 and FY 2010. TEMA should
develop internal controls to ensure that all amounts included on the SEFA are accurately
reported, including coding expenditures to the correct grant.

TEMA did not adequately address equipment-security issues. We identified equipment purchased
with PSIC funds housed in a facility that did not have restricted access or a security system.
Regulations require a control system to ensure adequate safeguards to prevent loss, damage, or
theft of the property. Although the facility was manned by a guard, the individual was not at
their post during our inspection. Without adequate security measures in place, there is a higher
risk of theft or abuse of the property. We recommend that TEMA improve its physical security
measures over PSIC property.




FINAL REPORT NO. OIG-13-016-A                                                                 19
U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL


Appendix E: Georgia Emergency Management
Agency
As part of its responsibility as the SAA, the Georgia Emergency Management Agency (GEMA)
administers various projects approved in its PSIC grant, as identified in its IJ. Table 8 identifies
GEMA’s submitted and approved investments.

Table 8: GEMA’s Submitted and Approved Investments
                                                                           Nonfederal
                                                          PSIC Funds         Match
               PSIC Investment Justification               Awarded         (Budgeted)          Total

  1. Buildout of Georgia Interoperability Network         $ 1,195,482       $ 298,871      $ 1,494,353
  2.- Enhancement of Regional Radio System                 19,607,187       4,901,797       24,508,984
  3. Delivery of Training and Exercises                     523,450             –               523,450
  4. Establishment of State Strategic                      1,960,327         490,082          2,450,409
  5. Statewide Interoperable Communication                  1,265,568           –            1,265,568
   M&A                                                        759,340        189,835           949,175
   Total                                                 $ 25,311,354      $5,880,585      $31,191,939

We analyzed GEMA’s progress toward completing the approved investments within the
remaining grant period. As of September 30, 2012, GEMA had $58,622 in PSIC funds remaining,
having expended 99 percent of its grant funds. Table 9 shows the status of GEMA’s PSIC grant
as of September 30, 2012.

        Table 9: PSIC Funds Remaining as of September 30, 2012
                                      Drawdowns to       Remaining to Be      Percent Drawn
            State      Amount
                                          Date            Drawn Down              Down

        Georgia    $25,311,354             $25,252,732       $58,622               99.77
        Source: NTIA

Findings and Recommendations

Reporting

GEMA did not report match expenditures and submitted six financial reports late. The SAA is
required to track and report on the Biannual Strategy Implementation Report (BSIR) the 20
percent match requirement for each project that receives PSIC funds. Match expenditures are
not captured in GEMA’s database, which GEMA used to prepare the Financial Status Reports
(FSR). As a result, GEMA did not report match amounts. By not capturing matching
expenditures in its database, GEMA is unable to correctly report the match amount and cannot
adequately monitor the match amount. Also, late or incomplete reports do not allow for timely
and proper monitoring. We recommend that GEMA improve internal controls to ensure that
all reports produced are accurate and complete and comply with grant requirements.



FINAL REPORT NO. OIG-13-016-A                                                                             20
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

Compliance with Grant Requirements

GEMA did not receive NEPA approvals before commencing PSIC projects. The PSIC handbook
states that “environmental compliance must occur before the expenditure of grant funds takes
place.” Two of GEMA’s five construction projects had not received NEPA approval as of
August 2011. Additionally, one of these two unapproved projects, the Buildout of Georgia
Interoperability Network, was complete before receiving the approval. The NEPA review
process helps evaluate potential impacts of projects on the environment, historic properties,
and threatened or endangered species. Without receiving NEPA approval before expenditure,
recipients cannot ensure that planned projects will not have an environmental impact. Many
other PSIC recipients have been identified with this same noncompliance and have cited the
unique requirements of this grant as the cause. Therefore, we recommend NTIA establish
policies and procedures for grant management controls that ensure recipient compliance with,
and understanding of, the grant requirements. In addition, an appropriate corrective action plan
should be developed by recipients to ensure compliance before further grant/project progress
is allowed to proceed.

Subrecipient Monitoring

GEMA did not monitor subrecipient compliance with A-133 reporting. The PSIC handbook
requires recipients and subrecipients to follow OMB Circular A-133 requirements, which
include proper SEFA reporting. The Director of Audits and Accounts stated that GEMA did not
receive A-133 reports regularly from subrecipients. GEMA’s subrecipient agreements require
the subrecipient to comply with A-133 requirements. However, GEMA does not have policies
and procedures in place to ensure compliance. Two subrecipients and the state of Georgia
failed to correctly code and report PSIC expenditures on the SEFA—one of the three did not
report PSIC expenditures correctly for 3 years. GEMA cannot ensure its subrecipients are
meeting grant requirements without proper monitoring. Therefore, we recommend GEMA
develop and implement internal controls to ensure that it collects and reviews applicable A-133
reports.




FINAL REPORT NO. OIG-13-016-A                                                                  21
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


Appendix F: Indiana Department of Homeland
Security
As part of its responsibility as the SAA, Indiana Department of Homeland Security (IDHS)
administers various projects approved as part of its PSIC grant, as identified in its IJ. Table 10
identifies IDHS submitted and approved investments.

  Table 10: IDHS’ Submitted and Approved Investments
                                                               PSIC Funds    Nonfederal Match
                PSIC Investment Justification                   Awarded        (Budgeted)              Total
   1 - Enhance current and future system infrastructure        $ 4,835,153         $ 213,408         $5,048,561
   2 - Increase operational capabilities                        11,633,549             4,065,300    $15,698,849
   3 - Strategic technology reserve                               858,407             –                $858,407
    State match                                                         -                 105,375     $105,375
                                                                                                      $665,628
    Statewide planning                                            665,628             –
    M&A                                                           298,998             –               $298,998

    Total                                                      $18,291,735            $4,384,083    $22,675,818

We analyzed IDHS’ progress toward completing the approved investments within the remaining
grant period. As of September 30, 2012, IDHS had expended 100 percent of its PSIC grant
funds. Table 11 shows the status of IDHS’ PSIC grant as of September 30, 2012.

         Table 11: PSIC Funds Remaining as of September 30, 2012
                                                                   Remaining to Be        Percent Drawn
              State        Amount          Drawdowns to Date
                                                                    Drawn Down                Down

            Indiana      $18,291,735              $18,291,735                    $0                 100.00
            Source: NTIA

Findings and Recommendations

Reporting

IDHS does not track PSIC expenditures in its financial system by the BSIR cost category. PSIC
recipients are required to report detailed expenditure data by BSIR cost category. Instead,
IDHS classified all expenditures as Acquisitions. Because expenditures were not tracked by the
required cost categories, the recipient was at risk for exceeding spending limits established for
different individual cost categories. Without accurate, detailed expenditure information NTIA is
not able to adequately understand and determine the current status of the recipient’s financial
progress.

Additionally, IDHS did not file three FSRs within the required 30-day time period. Obligations
and expenditures must be reported through the FSR, which is due within 30 days of the end of
each calendar quarter. A report must be submitted for every quarter the award is active,
including partial calendar quarters, as well as for periods where no grant activity occurs. Fund


FINAL REPORT NO. OIG-13-016-A                                                                                     22
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL

drawdowns can be withheld if these reports are delinquent. IDHS should develop procedures
to ensure that all reports required by the PSIC grant are accurate, complete, and timely.

Compliance with Grant Requirements

IDHS did not comply with NEPA requirements timely. The NEPA review process helps evaluate a
project’s impact on the environment, historic properties, and threatened or endangered
species. All of the subprojects identified in IDHS IJs expended funds prior to receiving NEPA
FONSI approval. The PSIC handbook requires that compliance occurs before the expenditure
of grant funds takes place. IDHS explained that the NEPA requirement was “a non-traditional
requirement.” The SAA stated other grants monitored by the state have “category exclusions”
that don't require NEPA approval prior to fund expenditure. While IDHS eventually received
NEPA approval, IDHS was in violation of grant requirements during the period of time that the
projects proceeded without NEPA approval. Many other PSIC recipients have been identified
with this same noncompliance and have cited the unique requirements of this grant as the
cause. The confusion about the unique grant requirements among the recipients can be
efficiently and effectively remedied by NTIA who is responsible for monitoring recipient
compliance with all grant requirements. Therefore, we recommend NTIA establish policies and
procedures for grant management controls that ensure recipient compliance with, and
understanding of, the grant requirements. In addition, an appropriate corrective action plan
should be developed by recipients to ensure compliance before further grant/project progress
is allowed to proceed.

IDHS did not pass through funds within the 60-day time frame. IDHS did not pass through funds
within 60 days of receiving IJ approval. The PSIC handbook requires states to pass through 80
percent of their PSIC allocation to local or tribal governments within 60 days of IJ approval.
IDHS received its IJ approval in September 2007. However, it did not receive signed
agreements from its subrecipients so it could distribute the funds until October 2008, 10
months after the 60-day window. IDHS stated that it was unable to obtain the signed contracts
from subrecipients within the 60-day window. Many other PSIC recipients have been identified
with this same noncompliance and have cited the unique requirements of this grant as the
cause. The confusion about the unique grant requirements among the recipients can be
efficiently and effectively remedied by NTIA who is responsible for monitoring recipient
compliance with all grant requirements. Therefore, we recommend NTIA establish policies and
procedures for grant management controls that ensure recipient compliance with, and
understanding of, the grant requirements. In addition, an appropriate corrective action plan
should be developed by recipients to ensure compliance before further grant/project progress
is allowed to proceed.

Cost-Match Monitoring

IDHS’ matching amount contained items that did not meet PSIC grant requirements. PSIC grant
requirements require recipients to provide matching funds; however, the grant requirements
state that matching funds must be in addition to, and therefore supplement, existing funds that
have been used for the same purpose. The budgeted match provided by IDHS consisted of
costs for the maintenance of the interoperable communications system. The cost of this


FINAL REPORT NO. OIG-13-016-A                                                                23
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

contract had previously been paid for by the state of Indiana through local funds. As a result, a
majority of the costs claimed as match by IDHS are unallowable. In response to our finding,
IDHS identified additional projects to meet the matching requirement. We recommend that
IDHS request formal approval from FEMA and NTIA for the new matching projects.




FINAL REPORT NO. OIG-13-016-A                                                                       24
U.S. DEPARTMENT OF COMMERCE                                                            OFFICE OF INSPECTOR GENERAL


Appendix G: Colorado Governor’s Office of
Homeland Security
As part of its responsibility as the SAA, the Colorado Governor’s Office of Homeland Security
(GOHS) administers various projects approved in its PSIC grant, as identified in its IJ. Table 12
identifies GOHS’ submitted and approved investments.

Table 12: GOHS’ Submitted and Approved Investments
                                                                                           Nonfederal
                                                                           PSIC Funds        Match
                       PSIC Investment Justification                        Awarded        (Budgeted)         Total
1. Digital Trunked Radio System (DTRS) statewide infrastructure –
Backup                                                                      $ 942,104       $1,609,492      $ 2,551,595
2. ­ DTRS statewide infrastructure – Development/Enhancement                 3,015,802        377,624         3,393,426
3. Statewide system of System non-DTR infrastructure equipment               1,718,916        249,669         1,968,585
4. Colorado All Hazards Region's end user communication                      5,502,318       1,593,451        7,095,770
5. Colorado's statewide mobile communications suite                          1,110,352         –             $1,110,352
6. Interoperability planning, training, and exercise for Colorado              340,300         –              $340,300
7. DTRS end user equipment                                                   1,018,267         –             1,018,267
8. Technical training, planning, and coordination                              286,479         –               286,479
 M&A                                                                           402,100         –               402,100
 Total                                                                     $14,336,638      $3,830,236      $18,166,874


We analyzed GOHS’ progress toward completing the approved investments within the
remaining grant period. As of September 30, 2012, GOHS had expended 100 percent of its
PSIC grant funds. Table 13 shows the status of GOHS’ PSIC grant funds as of September 30,
2012.

           Table 13: PSIC Funds Remaining as of September 30, 2012
                                                Drawdowns to         Remaining to Be     Percent Drawn
               State           Amount
                                                    Date              Drawn Down             Down

            Colorado     $14,336,638                   $14,336,638                $0               100.00
            Source: NTIA

Findings and Recommendations

Compliance with Grant Requirements

GOHS did not ensure that (1) NEPA requirements were met before expenditure of grant funds
and (2) PSIC funds were passed through to subrecipients within the 60-day window required by
the grant requirements.



FINAL REPORT NO. OIG-13-016-A                                                                                         25
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

GOHS did not meet NEPA requirements before expending grant funds. For example, GOHS did not
obtain NEPA approval before commencing construction on the Holly Tower. The PSIC
handbook requires environmental compliance to occur before the expenditure of grant funds.
To comply with NEPA, GOHS must provide information on the project’s environmental impact
before expending funds. GOHS stated that missing the NEPA requirement was an oversight.
According to GOHS, the NEPA requirement was a nontraditional requirement; other awards
have exclusions, which remove the requirement for NEPA approval. GOHS ultimately received
NEPA approval only after changes to the initial Holly Tower plan were made to meet
environmental standards. Many other PSIC recipients have been identified with this same
noncompliance and have cited the unique requirements of this grant as the cause. The
confusion about the unique grant requirements among the recipients can be efficiently and
effectively remedied by NTIA who is responsible for monitoring recipient compliance with all
grant requirements. Therefore, we recommend NTIA establish policies and procedures for
grant management controls that ensure recipient compliance with, and understanding of, the
grant requirements. In addition, an appropriate corrective action plan should be developed by
recipients to ensure compliance before further grant/project progress is allowed to proceed.

GOHS did not pass through funds within the 60-day time frame. GOHS did not pass through funds
within the 60 days of IJ approval. The PSIC handbook requires states to pass through 80
percent of their PSIC allocation to local or tribal governments within 60 days of the IJ approval.
GOHS received its IJ approval in May2008. However, GOHS did not receive a signed
memorandum of understanding from Arapahoe County, its largest subrecipient, until
September 2008, one month after the 60-day deadline. GOHS was unable to obtain signed
contracts from its subrecipients within the 60-day window, so GOHS was ultimately not in
compliance with grant requirements for this one-month period. Many other PSIC recipients
have been identified with this same noncompliance and have cited the unique requirements of
this grant as the cause. The confusion about the unique grant requirements among the
recipients can be efficiently and effectively remedied by NTIA who is responsible for monitoring
recipient compliance with all grant requirements. Therefore, we recommend NTIA establish
policies and procedures for grant management controls that ensure recipient compliance with,
and understanding of, the grant requirements. In addition, an appropriate corrective action plan
should be developed by recipients to ensure compliance before further grant/project progress
is allowed to proceed.




FINAL REPORT NO. OIG-13-016-A                                                                   26
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


Appendix H: Washington, D.C., Homeland
Security and Emergency Management Agency
As part of its responsibility as the SAA, the Homeland Security and Emergency Management
Agency (HSEMA) administers various projects approved in its PSIC grant, as identified in its IJ.
Table 14 identifies HSEMA’s submitted and approved investments.

Table 14: HSEMA’s Submitted and Approved Investments
                                                                                     Nonfederal
                                                                   PSIC Funds            Match
                   PSIC Investment Justification                    Awarded          (Budgeted)     Total
1. Interagency communication standard operating procedures            $ 4,134,197    $2,626,305   $ 6,760,502
2. Data exchange hub and National Region fiber optic                     1,802,026       –          1,802,026
3. Hospital microwave interoperable network                               849,818        –           849,818
4. Video interoperability for public safety                              4,544,362       –          4,544,362
 Statewide planning                                                       527,569        –           527,569
 Total                                                                $11,857,972    $2,626,305   $14,484,277


We analyzed HSEMA’s progress toward completing the approved investments within the
remaining grant period. As of September 30, 2012, HSEMA had spent a majority of its PSIC
funds. HSEMA had $77 in PSIC funds remaining to be expended. Table 15 shows the status of
the four investments as of September 30, 2012.

 Table 15: HSEMA Funds as of September 30, 2012
                                                       Drawdowns to         Remaining to Be      Percent
              State                    Amount
                                                           Date              Drawn Down        Drawn Down

   District of Columbia                 $11,857,972        $11,857,895                   $77         99.99
   Source: NTIA

Findings and Recommendations

Unallowable Costs

HSEMA recorded $39,242 in district-wide planning costs in February 2009, well after the
December 3, 2007 deadline. The grant required that district-wide planning costs be incurred
during the period of April 1–December 3, 2007. Therefore, HSEMA used grant funds for an
unallowable purpose. Although past the original December 3, 2007 deadline, HSEMA has
requested permission from NTIA to transfer $39,242 to a different cost category. We
recommend that HSEMA continue to work with NTIA to obtain a transfer of these costs.




FINAL REPORT NO. OIG-13-016-A                                                                                27
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

Reporting

HSEMA did not file the June 2011 BSIR until September 2011, almost two months late. The
report is due within 30 days of the end of each six month reporting period. The BSIR reports
on total expenditures for all grants and provides a standardized format for reporting financial
data. Without timely BSIR reporting, NTIA and other stakeholders cannot adequately monitor
HSEMA’s financial progress on the PSIC grant. We recommend that HSEMA improve controls
for reporting to ensure that all reports are accurate and are submitted timely.

Compliance with Grant Requirements

HSEMA did not meet NEPA requirements before expending grant funds. HSEMA did not receive
NEPA approvals before commencing PSIC projects. The PSIC handbook requires environmental
compliance before the expenditure of grant funds takes place. The NEPA review process helps
evaluate potential effects of projects on the environment, historic properties, and threatened or
endangered species. However, all five of the transactions we selected for testwork did not
receive the necessary NEPA approval before expenditure of funds. For one project, NEPA
approval was not received until almost 2 years after funds had been expended. Therefore,
recipients cannot ensure that planned projects will not have an environmental impact. Many
other PSIC recipients have been identified with this same noncompliance and have cited the
unique requirements of this grant as the cause. The confusion about the unique grant
requirements among the recipients can be efficiently and effectively remedied by NTIA who is
responsible for monitoring recipient compliance with all grant requirements. Therefore, we
recommend NTIA establish policies and procedures for grant management controls that ensure
recipient compliance with, and understanding of, the grant requirements. In addition, an
appropriate corrective action plan should be developed by recipients to ensure compliance
before further grant/project progress is allowed to proceed.

HSEMA did not provide exercise activities/training. During the inspection of equipment purchased
for PSIC, two HSEMA staff members were not proficient in the use of the software and
equipment. PSIC grant requirements require that public safety agencies understand how to use
the interoperable communications equipment, both technically and operationally, and that
exercises and drills take place to ensure familiarity with the communications system. Exercises
implemented with PSIC grant funds should be performance-based and directly related to the
grant activities and the interoperable communications system. Without proper training and
drills, equipment users may not be able to properly operate equipment in an emergency. We
recommend that HSEMA provide additional training to staff members responsible for operating
the PSIC equipment.

Subrecipient Monitoring

During our inspection of PSIC inventory controlled by subrecipients, we noted that property
items did not have an asset tag number or barcode on each item. Federal regulations require
recipients to maintain property records that include a description of the property, a serial
number, or some other unique identification number. The property items have a sticker
identifying the equipment as “DHS funded equipment,” but no unique number for tracking


FINAL REPORT NO. OIG-13-016-A                                                                  28
U.S. DEPARTMENT OF COMMERCE                                     OFFICE OF INSPECTOR GENERAL

information was included. Without an identification number, equipment cannot be properly
tracked or recorded in the property system. We recommend that HSEMA develop an asset-
tracking system that complies with federal regulations.




FINAL REPORT NO. OIG-13-016-A                                                              29
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL


Appendix I: Illinois Emergency Management
Agency
As part of its responsibility as the SAA, the Illinois Emergency Management Agency (IEMA)
administers various projects approved in its PSIC grant, as identified in its IJ. Table 16 identifies
IEMA’s submitted and approved investments.

Table 16: IEMA’s Submitted and Approved Investments
                                                                              Nonfederal
                                                               PSIC Funds       Match
                   PSIC Investment Justification                Awarded       (Budgeted)       Total
1. Expansion of 700/800 MHz interoperability platform          $34,727,979     $9,122,859    $43,850,838
2. Procurement of STARCOM21 equipment to support 700              1,186,212       363,079      1,549,291
3. Enhancement of state ITECS and unified command system            499,991       125,000        624,991
 State match                                                        –           2,000,000      2,000,000
 M&A                                                                     81        –                  81
 Total                                                         $36,414,263    $11,610,938    $48,025,201

We analyzed IEMA’s progress toward completing the approved investments within the
remaining grant period. As of September 30, 2012, IEMA had expended a majority of its PSIC
funds. IEMA had expended 99 percent of its PSIC funds and had $2,712 in remaining funds.
Table 17 shows the status of IEMA’s PSIC grant as of September 30, 2012.

        Table 17: PSIC Funds Remaining as of September 30, 2012
                                                            Remaining to Be      Percent Drawn
             State        Amount      Drawdowns to Date
                                                             Drawn Down              Down

          Illinois     $36,414,263            $36,411,551              $2,712               99.99
          Source: NTIA

Findings and Recommendations

Unallowable Costs

During our review, we identified $131,834 of statewide planning cost incurred after December
3, 2007. The PSIC handbook required statewide costs to be incurred during the period of April
1, 2007, through December 3, 2007. IEMA, however, recorded statewide planning costs as late
as September 2010, 3 years after the 2007 deadline. The SAA believed that statewide planning
costs were allowable grant expenses regardless of the time they occurred. Although past the
original December 3, 2007 deadline, IEMA requested permission to transfer the $131,834 to a
different cost category. IEMA received NTIA approval in November 2011. We have no
additional recommendations for this issue at this time as IEMA received permission from NTIA.

Reporting

We noted that the nonfederal match amount on IEMA’s June 2011 FSR was underreported by
$639,085. FSR requires the recipient to report the total outlays for both the recipient share


FINAL REPORT NO. OIG-13-016-A                                                                         30
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

and the federal share of funds. However, IEMA reported only the minimum amount required by
the PSIC grant rather than the actual amount incurred. This resulted in the FSR being
understated by $639,085. In addition, the state did not code expenditures for the PSIC grant
for 2008 on the SEFA. Therefore, expenditures are not properly reported on the A-133 report.
Without accurate reporting, NTIA and FEMA cannot adequately monitor grant progress. We
recommend that IEMA develop policies and procedures to ensure that data reflected in financial
reports are complete and accurate.

Compliance with Grant Requirements

IEMA did not have adequate policies and procedures to identify and meet all PSIC grant
requirements timely.

IEMA did not meet NEPA requirements before expending grant funds. Four of the six projects
selected for testing incurred expenditures before receiving NEPA FONSI approval. The PSIC
handbook states, “Environmental compliance must occur before the expenditure of grant funds
takes place.” In accordance with the SAA, other grants monitored by the state have exclusions,
which do not require NEPA approval. IEMA explained that the NEPA requirement was a
nontraditional requirement. While IEMA eventually received NEPA approval in June 2010, it did
not comply with grant terms timely. One project was noncompliant for almost 2 years before
receiving NEPA approval. Many other PSIC recipients have been identified with this same
noncompliance and have cited the unique requirements of this grant as the cause. The
confusion about the unique grant requirements among the recipients can be efficiently and
effectively remedied by NTIA who is responsible for monitoring recipient compliance with all
grant requirements. Therefore, we recommend NTIA establish policies and procedures for
grant management controls that ensure recipient compliance with, and understanding of, the
grant requirements. In addition, an appropriate corrective action plan should be developed by
recipients to ensure compliance before further grant/project progress is allowed to proceed.

IEMA did not pass through funds within the 60-day time frame. IEMA did not pass through funds
within 60 days of receiving IJ approval. The PSIC handbook requires states to pass through 80
percent of their PSIC allocation to local or tribal governments within 60 days of the IJ approval.
IEMA received their IJ approval in December 2007. We reviewed IJ 1 and noted that all 15
projects identified in the IJ did not have signed memorandums of understanding (MOUs) within
60 days. The dates for the signed MOUs ranged from April 2008 to May 2011, which exceeded
the 60-day window by a few months to over 3 years. IEMA claimed it was unable to obtain
signed contracts from its subrecipients within 60 days, so funds were not available to
subrecipients in the time frame stated in the grant requirements. Many other PSIC recipients
have been identified with this same noncompliance and have cited the unique requirements of
this grant as the cause. The confusion about the unique grant requirements among the
recipients can be efficiently and effectively remedied by NTIA who is responsible for monitoring
recipient compliance with all grant requirements. Therefore, we recommend NTIA establish
policies and procedures for grant management controls that ensure recipient compliance with,
and understanding of, the grant requirements. In addition, an appropriate corrective action plan
should be developed by recipients to ensure compliance before further grant/project progress
is allowed to proceed.



FINAL REPORT NO. OIG-13-016-A                                                                   31
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

IEMA did not complete AARs within 60 days. IEMA submitted all AARs late. AARs document the
results of exercises, which include recommendations and improvements that were conducted
using the PSIC grant funds. In accordance with the PSIC handbook, AARs, “must be submitted
to DHS within 60 days following completion of the exercise.” IEMA conducted one exercise
every month from March through June of 2009. However, the AARs were not completed and
submitted until August and September 2009. Without timely reporting, stakeholders do not
have accurate information to monitor the progress of the PSIC projects. IEMA should develop
policies and procedures to identify and meet all grant requirements, including deadlines for filing
reports.

Subrecipient Monitoring

IEMA’s grant manual and subrecipient agreements did not have a provision related to
supplanting. PSIC grant requirements state that grant funds cannot be used to supplant, or
replace, any other funds that have been budgeted or funded for the same purpose. Without
stated provisions on supplanting, IEMA cannot ensure that subrecipients are aware of that
requirement and comply. We recommend IEMA establish a policy and procedure for
monitoring subrecipient compliance with supplanting guidance.




FINAL REPORT NO. OIG-13-016-A                                                                    32
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


Appendix J: Maryland Emergency Management
Agency
As part of its responsibility as the SAA, Maryland Emergency Management Agency (MEMA)
administers various projects approved in its PSIC grant, as identified in its IJ. Table 18 identifies
MEMA’s submitted and approved investments.

  Table 18: MEMA’s Submitted and Approved Investments
                                                                                  Nonfederal
                                                                 PSIC Funds         Match
                PSIC Investment Justification                     Awarded         (Budgeted)                Total

   1. State and local communications partnership: Tower            $ 8,200,000    $1,852,500            $10,052,500
   2. CMARC, MESIN, IPIX, PSINET, 700 MHz system
   upgrade                                                           9,032,611     1,743,465            10,776,076
   3. State Interoperability Executive Committee (SIEC)               800,000              –                 800,000
   4. Data Exchange Hub and National Capital Region                  4,700,000             1,034,824       5,734,824
    M&A                                                               201,982                  52,122        254,104

    Total                                                         $22,934,593     $4,682,911            $27,617,504


We analyzed MEMA’s progress toward completing the approved investments within the
remaining grant period. As of September 30, 2012, MEMA had expended 100 percent of its
PSIC funds. Table 19 below shows the status of MEMA’s PSIC grant as of September 30, 2012.

      Table 19: PSIC Funds Remaining as of September 30, 2012
                                                Drawdowns to        Remaining to Be            Percent Drawn
             State              Amount
                                                    Date             Drawn Down                    Down

        Maryland                $22,934,593        $22,934,593                        $0          100.00
        Source: NTIA

Findings and Recommendations

Reporting

MEMA did not file required financial reports timely or accurately. Although the June BSIR
report is due 30 days after the end of the period, MEMA filed the report in December 2011. In
total, MEMA filed four FSRs after the 30-day deadline. The June 30, 2011, BSIR had also not
been filed at the time of our fieldwork in September 2011. Without timely reporting, NTIA and
DHS cannot monitor grant progress. We recommend that MEMA develop policies and
procedures to ensure that all financial reports are submitted timely.




FINAL REPORT NO. OIG-13-016-A                                                                                          33
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

Compliance with Grant Requirements

MEMA did not pass through all funds within 60 days of receiving the IJ approval. PSIC guidance
requires states to pass through 80 percent of their PSIC allocation to local or tribal
governments within 60 days of the IJ approval. MEMA received their IJ approval in June 2006
but did not receive signed agreements from 6 of its 26 subrecipients until after the 60-day
window. As a result, MEMA did not pass through funds according to the time frame established
in the grant agreement. Many other PSIC recipients have been identified with this same
noncompliance and have cited the unique requirements of this grant as the cause. The
confusion about the unique grant requirements among the recipients can be efficiently and
effectively remedied by NTIA who is responsible for monitoring recipient compliance with all
grant requirements. Therefore, we recommend NTIA establish policies and procedures for
grant management controls that ensure recipient compliance with, and understanding of, the
grant requirements. In addition, an appropriate corrective action plan should be developed by
recipients to ensure compliance before further grant/project progress is allowed to proceed.

Cost-Match Monitoring

MEMA is not updating its match amounts on the BSIR. Each public safety agency receiving PSIC
funds is required to meet and document the 20 percent statutory match requirement for each
project. MEMA plans to update the match amount once the grant is completed; however, this
does not comply with reporting requirements, and the match amount reported on the BSIR is
understated. NTIA and DHS cannot adequately monitor grant progress without accurate and
timely information. We recommend that MEMA improve internal controls over reporting to
ensure that reports are submitted accurately and timely.




FINAL REPORT NO. OIG-13-016-A                                                                34
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL


Appendix K: Ohio Emergency Management
Agency
As part of its responsibility as the SAA, the Ohio Emergency Management Agency (OEMA)
administers various projects approved in its PSIC grant, as identified in its IJ. Table 20 identifies
OEMA’s submitted and approved investments.

    Table 20: OEMA’s Submitted and Approved Investments
                                                                                Nonfederal
                                                              PSIC Funds          Match
                 PSIC Investment Justification                 Awarded          (Budgeted)      Total
      1. Interoperable communications vehicle enhancement       $ 176,000         $ 44,000     $ 220,000
      2. Expansion/upgrade to existing MARCS Interoperable       5,337,753         1,334,439    6,672,192
         800
      3. Northwest Ohio Regional Radio Project                    11,506,37        2,876,592       14,382,96
      4. Henry County ( Rural northwest, Ohio Incident             383,220            95,805        479,025
          Command
      5. Stark Count and Canton City 800 MHz Radio System         2,704,000          676,000       3,380,000
          Command
      6. Delaware County, City of Dublin, City of                 1,529,000          382,250       1,911,250
     Worthington
      7. Lake County Interoperable Communication Project          3,919,910          979,978       4,899,888
      8. Cuyahoga multiagency radio communication system          2,852,250          713,063       3,565,313
      9. Meigs County incident command enhancement                   50,400           12,600          63,000
     System
     10. Carroll County incident command                           778,433           194,608       973,041
      M&A                                                          140,000            35,000       175,000
      Total                                                      $29,377,33       $7,344,335   $36,721,672

We analyzed OEMA’s progress toward completing the approved investments within the
remaining grant period. As of September 30, 2012, OEMA had expended a majority of its PSIC
funds. OEMA had drawn down 99 percent of its PSIC funds and had $157,682 remaining. Table
21 shows the status of OEMA’s PSIC funds as of September 30, 2012.

              Table 21: PSIC Funds Remaining as of September 30, 2012
                                        Drawdowns to         Remaining to Be       Percent Drawn
               State        Amount
                                            Date              Drawn Down               Down

             Ohio         $29,377,337       $29,219,655              $157,682          99.46
             Source: NTIA




FINAL REPORT NO. OIG-13-016-A                                                                             35
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


Findings and Recommendations

Reporting

OEMA’s financial report data were not consistent. The PSIC grant required submission of
quarterly FSRs detailing total outlays for each quarter. Additionally, BSIRs are required each
January and July for the previous 6 months’ activities. For the period ending June 30, 2011,
OEMA reported total expenditures in the FSR of $26,907,064, which matched its general
ledger. However, for the same time period, OEMA reported total expenditures in its BSIR of
$29,224,594, a difference of $2,317,530 (calculated). According to the SAA, the state of Ohio
does not process invoices received within the last 3 weeks of its fiscal year end, June 30, until
after the beginning of the new fiscal year. The FSR for the period ending June 30, 2011, was
completed using total expenditures from the general ledger before processing year-end
invoices, while the BSIR was prepared for the period ending June 30, 2011, was completed using
total expenditures from the SAA’s tracking spreadsheet, which included year-end invoices. This
resulted in the tracking spreadsheet including approximately $2,317,530 in expenditures that
were not yet included in the general ledger until July 2011. Inaccurate or inconsistent financial
reporting by the SAA does not provide the federal government an accurate representation of
the recipient’s progress in completing the grant. We recommend that OEMA develop policies
and procedures to ensure that all financial reports are accurate.

Compliance with Grant Requirements

OEMA did not have adequate policies and procedures to identify and meet all PSIC grant
requirements timely.

OEMA did not meet NEPA requirements before expending grant funds. A majority of OEMA’s
projects incurred expenditures before receiving NEPA FONSI approval. The PSIC handbook
states, “Environmental compliance must occur before the expenditure of grant funds takes
place.” OEMA explained that the NEPA requirement was a nontraditional requirement.
According to the SAA, other grants monitored by the state have category exclusions, which do
not require NEPA approval. The NEPA review process helps evaluate a project’s potential
impact on the environment, historic properties, and threatened or endangered species. While
OEMA eventually received NEPA approval in for all projects, it did not comply with grant terms
timely. Six of the 10 projects had incurred expenditures before receiving NEPA approval.
OEMA should establish policies and procedure to identify and meet all grant requirements at
the beginning of the grant.

OEMA did not pass through funds within the 60-day time frame. OEMA did not pass through funds
within 60 days of the IJ approval. In accordance with the PSIC handbook, “States [are] required
to pass through 80 percent of their PSIC allocation to local or tribal governments and to pass
through those funds within 60 days of the IJ approval.” OEMA stated that it was unable to
obtain signed contracts from its subrecipients within the 60-day window. OEMA received its IJ
approval in September 2007. However, OEMA received signed agreements from all
subrecipients in May 2008 through September 2008, which exceeded the 60-day window by 6
to 10 months. Therefore, funds were not made available to subrecipients in the time frame


FINAL REPORT NO. OIG-13-016-A                                                                  36
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

established by the PSIC handbook. Many other PSIC recipients have been identified with this
same noncompliance and have cited the unique requirements of this grant as the cause. The
confusion about the unique grant requirements among the recipients can be efficiently and
effectively remedied by NTIA who is responsible for monitoring recipient compliance with all
grant requirements. Therefore, we recommend NTIA establish policies and procedures for
grant management controls that ensure recipient compliance with, and understanding of, the
grant requirements. In addition, an appropriate corrective action plan should be developed by
recipients to ensure compliance before further grant/project progress is allowed to proceed.

Subrecipient Monitoring

OEMA did not monitor subrecipients in accordance with federal requirements. The PSIC
Application Kit requires SAA monitoring through a combination of office-based and on-site
monitoring visits and even provides tools for monitoring. OEMA did not prepare or maintain
documentation of its on-site and desk reviews of subrecipients. OEMA stated that the on-site
reviews and desk reviews were performed but that written documentation was not always
prepared. Without adequate documentation of on-site and desk reviews, no assurance exists
that the reviews were adequate or performed timely. We recommend that OEMA develop and
maintain documentation of its on-site visits to subrecipients.

Cost-Match Monitoring

OEMA did not provide sufficient matching to the federal funds it was provided. The PSIC grant
requires states to provide at least 20 percent match of federal funds received by the state. The
DHS Financial Management Guide states, “matching funds must be in addition to, and therefore
supplement, funds that would otherwise be made available for the slated purpose.” A majority
of the original match provided by OEMA were costs for the maintenance of Ohio’s
interoperable communications system. However, before the PSIC grant, the cost of this
contract had been paid for by the state of Ohio through local funds. OEMA is working with
FEMA on an extension to the grant, to allow additional time to gather documentation showing
compliance, or implement additional projects necessary for compliance, with the matching
requirement. The cost of the maintenance contract is unallowable as a match because it was
paid for with state/local funds and was not an additional or supplemental expenses. As of
January 2012, OEMA has not identified sufficient matching expenditures to comply with PSIC’s
20 percent matching requirement. We recommend OEMA work with FEMA and NTIA to
resolve the matching issue to FEMA and NTIA’s satisfaction.




FINAL REPORT NO. OIG-13-016-A                                                                   37
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


Appendix L: Iowa Homeland Security and
Emergency Management Division
As part of its responsibility as the SAA, the Iowa Homeland Security and Emergency
Management Division (HSEMD) administers various projects approved in its PSIC grant, as
identified in its IJ. Table 22 identifies HSEMD’s submitted and approved investments.

    Table 22: HSEMD’s Submitted and Approved Investments
                                                         PSIC Funds      Nonfederal Match
                 PSIC Investment Justification            Awarded          (Budgeted)              Total
      1. Strategic technology reserve                     $ 1,083,578          $ 270,895        $ 1,354,473
      2. Statewide Interoperable Communication plan         1,890,200           –                 1,890,200
      3. Hardin County                                        374,056              93,515           467,571
      4. Central Iowa Interoperability Improvement          1,600,000             400,000         2,000,000
         Project
      5. Johnson County/ Scott County                      4,628,422             1,157,106       5,785,528
      6. Linn County                                         324,838                81,210         406,048
      7. Plymouth County                                      30,320                 7,580          37,900
      8. Polk County Regional Communication System           182,450             –                 182,450
      9. Story County emergency communications               358,400                89,600         448,000
     10. Woodbury County-Security Institute                  300,000                75,000         375,000
      M&A                                                    163,710                40,925         204,635
      Total                                              $10,935,974           $ 2,215,831     $13,151,805

We analyzed HSEMD’s progress toward completing the approved investments within the
remaining grant period. As of September 30, 2012, Iowa had expended a majority of its PSIC
funds. Iowa had expended 99 percent of its PSIC funds and had $77,960 in PSIC funds
remaining. Table 23 shows the status of HSEMD’s PSIC grant as of September 30, 2012.

            Table 23: PSIC Funds Remaining as of September 30, 2012
                                        Drawdowns to        Remaining to Be          Percent
                State       Amount
                                            Date             Drawn Down            Drawn Down

             Iowa         $10,935,974     $ 10,858,014                  $ 77,960             99.29
             Source: NTIA



Findings and Recommendations

Reporting

HSEMD did not submit all financial reports timely. The PSIC handbook requires FSRs on
obligations and expenditures to be submitted within 30 days after the end of each quarter.
However, HSEMD submitted two FSR reports 3 days late, the periods ending September 30,
2009, and December 31, 2010. Without timely reporting, stakeholders do not have accurate
information to monitor the progress of the PSIC projects. We recommend HSEMD develop
policies and procedures to ensure that all grant requirements are met, including reporting
deadlines.


FINAL REPORT NO. OIG-13-016-A                                                                                 38
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

Compliance with Grant Requirements

HSEMD did not pass through funds within 60 days of the IJ approval. The PSIC handbook
requires states to pass through 80 percent of their PSIC allocation to local or tribal
governments within 60 days of IJ approval. HSEMD’s SAA received its IJ approval in December
2008. However, HSEMD did not receive signed agreements from subrecipients until after the
60-day window. One subrecipient agreement was not signed until June 2011, almost 2½ years
after the IJ was approved. Many other PSIC recipients have been identified with this same
noncompliance and have cited the unique requirements of this grant as the cause. The
confusion about the unique grant requirements among the recipients can be efficiently and
effectively remedied by NTIA who is responsible for monitoring recipient compliance with all
grant requirements. Therefore, we recommend NTIA establish policies and procedures for
grant management controls that ensure recipient compliance with, and understanding of, the
grant requirements. In addition, an appropriate corrective action plan should be developed by
recipients to ensure compliance before further grant/project progress is allowed to proceed.

Subrecipient Monitoring

HSEMD did not conduct adequate monitoring of its subrecipients. The PSIC Application Kit
states, “SAA monitoring will be accomplished through a combination of office-based and on-site
monitoring visits.” Additionally, the PSIC handbook states, “the SAA should be familiar with,
and periodically monitor, its subrecipients’ financial operations, records, systems and
procedures.” HSEMD performed two site visits and three closeout reports for its eight
subrecipients during the PSIC grant period of performance. However, a majority of HSEMD’s
subrecipient monitoring occurred at closeout which precluded HSEMD from making or
recommending any improvements to the subrecipient’s performance. Without adequate and
timely on-site monitoring and desk reviews, HSEMD cannot ensure that subrecipients are
complying with grant requirements. We recommend that HSEMD provide timely monitoring of
ongoing subrecipients.




FINAL REPORT NO. OIG-13-016-A                                                               39
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


Appendix M: Oklahoma Office of Homeland
Security
As part of its responsibility as the SAA, the Oklahoma Office of Homeland Security (OKOHS)
administers various projects approved in its PSIC grant, as identified in its IJ. Table 24 identifies
OKOHS’ submitted and approved investments.

      Table 24: OKOHS’ Submitted and Approved Investments
                                                                            Nonfederal
                                                        PSIC Funds            Match
                 PSIC Investment Justification           Awarded            (Budgeted)         Total
        1. Strategic technology reserve                   $ 1,274,923         $ 200,000     $ 1,474,923
        2. Statewide Interoperability Communication         10,318,452         4,300,000     14,618,452
           Project
         M&A                                                     90,808            87,500       178,308
         Total                                              $11,684,183        $4,587,500   $16,271,683

We analyzed OKOHS’ progress toward completing the approved investments within the
remaining grant period. As of September 30, 2012, OKOHS had expended a majority of its
PSIC funds. OKOHS had expended 99.99 percent of its PSIC funds and had $136 in PSIC funds
remaining. OKOHS stated that it would complete the two approved investments by the
extension date of September 30, 2012. We noted no evidence to indicate that any of the
investments would not be completed by June 30, 2012. Table 25 shows the status of the
OKOHS’ PSIC grant as of September 30, 2012.

       Table 25: PSIC Funds Remaining as of September 30, 2012
                                         Drawdowns to        Remaining to Be       Percent Drawn
             State          Amount
                                             Date             Drawn Down               Down

        Oklahoma           $11,684,183       $ 11,684,047                 $ 136        99.99
        Source: NTIA



Findings and Recommendations

Reporting

OKOHS did not submit all financial reports timely. The PSIC handbook requires FSRs on
obligations and expenditures to be submitted 30 days after the end of each quarter. However,
OKOHS submitted its December 2009 FSR 3 days late. Without timely reporting, stakeholders
do not have accurate information to monitor the progress of the PSIC projects. We
recommend that OKOHS improve internal controls to ensure that reports are submitted
accurately and timely.




FINAL REPORT NO. OIG-13-016-A                                                                             40
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL

Compliance with Grant Requirements

OKOHS did not have adequate policies and procedures to identify and meet all PSIC grant
requirements timely.

OKOHS did not meet NEPA requirements before expending grant funds. OKOHS expended funds
for projects before receipt of NTIA's NEPA approvals. The PSIC handbook states,
“Environmental compliance must occur before the expenditure of grant funds takes place.”
OKOHS explained that the NEPA requirement was a nontraditional requirement. The SAA
stated that other grants monitored by the state have “category exclusions” that don't require
NEPA approval before fund expenditure. The NEPA review process helps evaluate a project’s
potential impact on the environment, historic properties, and threatened or endangered
species. While OKOHS eventually received NEPA approval in August 2010, it was not in
compliance for 20 months. Many other PSIC recipients have been identified with this same
noncompliance and have cited the unique requirements of this grant as the cause. The
confusion about the unique grant requirements among the recipients can be efficiently and
effectively remedied by NTIA who is responsible for monitoring recipient compliance with all
grant requirements. Therefore, we recommend NTIA establish policies and procedures for
grant management controls that ensure recipient compliance with, and understanding of, the
grant requirements. In addition, an appropriate corrective action plan should be developed by
recipients to ensure compliance before further grant/project progress is allowed to proceed.

OKOHS did not pass through funds to subrecipients within the time frame of the PSIC grant
requirements. OKOHS did not pass through funds within 60 days of IJ approval. The PSIC
handbook required states to pass through 80 percent of their PSIC allocation to local or tribal
governments within 60 days of IJ approval. OKOHS stated it was unable to obtain signed
contracts from subrecipients within 60 days. OKOHS did not receive signed agreements from
its 15 subrecipients until more than 60 days past its IJ approval. Many other PSIC recipients
have been identified with this same noncompliance and have cited the unique requirements of
this grant as the cause. The confusion about the unique grant requirements among the
recipients can be efficiently and effectively remedied by NTIA who is responsible for monitoring
recipient compliance with all grant requirements. Therefore, we recommend NTIA establish
policies and procedures for grant management controls that ensure recipient compliance with,
and understanding of, the grant requirements. In addition, an appropriate corrective action plan
should be developed by recipients to ensure compliance before further grant/project progress
is allowed to proceed.

Subrecipient Monitoring

OKOHS did not review subrecipient A-133 reports for findings that may impact the PSIC grant
or to ensure that PSIC expenditures were coded properly. Part of an adequate monitoring
system includes the review of audit reports received by subrecipients for any items that may
impact the grant. Additionally, the PSIC handbook states, “Recipients are also responsible for
ensuring that subrecipient audit reports, when applicable, are submitted…and for resolving any
audit findings.” OKOHS did not have adequate policies and procedures to identify and monitor
subrecipients that met the OMB Circular A-133 reporting requirements. At the time of our


FINAL REPORT NO. OIG-13-016-A                                                                   41
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

audit, OKOHS had received five reports from three subrecipients. However, OKOHS had not
reviewed the five reports for findings that may impact the ability of subrecipients to manage
their awards. Additionally, OKOHS did not know if any additional subrecipients met the A-133
reporting requirements. We recommend that OKOHS develop policies and procedures to
ensure that A-133 reports are received and reviewed for applicable subrecipients.




FINAL REPORT NO. OIG-13-016-A                                                               42
Appendix N: Arizona Department of Homeland Security




Arizona Department of Homeland Security –
PSIC Performance Audit
April 2012
Submitted to:
Mr. Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Submitted by:
Bert Nuehring
Crowe Horwath LLP
1325 G Street NW, Suite 500
Washington, D.C. 20005-3136
Direct 954.489.7433
Main 202.624.5555
Fax 202.624.8858
Bert.nuehring@crowehorwath.com




                                                             43
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012




Table of Contents
Executive Summary ............................................................................................................................... 2
 
  Overview .............................................................................................................................................. 2
 
  Results ................................................................................................................................................. 2
 

Background ............................................................................................................................................ 4
 

Objectives, Scope and Methodology ................................................................................................... 6
 

Findings and Recommendations ......................................................................................................... 8
 
   1.  Allowable Costs........................................................................................................................... 8
 
   2.  Matching .................................................................................................................................... 10
 
   3.  Subrecipient Monitoring ............................................................................................................ 11
 
   4.  Cash Management .................................................................................................................... 11
 

Other Matters ........................................................................................................................................ 12
 
  National Environmental Policy Act (NEPA) ....................................................................................... 12
 




                                                                www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                                                                  44
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                            1




April 19, 2012


To: Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Re: Arizona Department of Homeland Security – PSIC performance audit.


As requested by the Department of Commerce, Office of the Inspector General, we have conducted a
performance audit on the Arizona Department of Homeland Security (AZDOHS) and its administration of
the Public Safety Interoperable Communications (PSIC) grant, award number 2007-GS-H7-0027, for the
period from October 1, 2007 through September 30, 2011. The report contains a summary of results
followed by background, objectives, scope, methodology, findings and recommendations.

AZDOHS’s management has responsibility for establishing and maintaining internal control and
complying with applicable laws and regulations. Internal control is a process designed to provide
reasonable, but not absolute, assurance regarding the reliability of financial reporting, effectiveness and
efficiency of operations, and compliance with applicable laws and regulations. We gained an
understanding of the overall internal controls, automated and manual, sufficient to plan the performance
audit. We considered significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk exists that some material misstatements or material non-compliance may not be
detected, even though the audit is properly planned and performed in accordance with applicable
standards. An audit is not designed to detect errors or fraud that is immaterial to the performance audit
objectives.

During the course of our work we noted 8 findings relating to subrecipient monitoring, matching, allowable
costs and cash management. These findings are detailed further in the attached report.




Crowe Horwath LLP


Cc:        Patty McBarnette, Audit Director
           Belinda Riley, Audit Supervisor
           Laura Murphy, Audit Team Leader




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                              45
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                             2




Executive Summary
Overview
Our performance audit scope included PSIC grant activity administered by the Arizona Department of
Homeland Security (AZDOHS) from October 1, 2007 through September 30, 2011. In conducting this
performance audit we reviewed supporting documentation in conjunction with conducting interviews of
AZDOHS staff having direct knowledge of PSIC grant. The results are summarized briefly below and are
discussed in further detail in the body of this report.
This performance audit consisted of field work at the State of Arizona’s SAA, AZDOHS. We conducted
tests of procedures of the recipients’ compliance with laws and regulations, terms and conditions of the
award, federal cost principles, and progress in achieving approved project goals.
AZDOHS’s management has responsibility for establishing and maintaining internal control and
complying with applicable laws and regulations. Internal control is a process designed to provide
reasonable, but not absolute, assurance regarding the reliability of financial reporting, effectiveness and
efficiency of operations, and compliance with applicable laws and regulations. We gained an
understanding of the overall internal controls, automated and manual, sufficient to plan the performance
audit. We considered significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk that some material misstatements or material non-compliance may not be detected
exists, even though the audit is properly planned and performed in accordance with applicable standards.
An audit is not designed to detect error or fraud that is immaterial to the performance audit objectives.

Results
The following provides a summary of the findings and recommendations reported within this document.
Allowable Costs
     	    M&A Costs - Four out of four M&A transactions selected for testing (totaling to $4,978) included
           costs that were unallowable under the PSIC grant regulations. We recommend that AZDOHS
           implement a review process in place to analyze costs against the PSIC Grant Allowable Cost
           Matrix to ensure that only allowable costs, as listed in the Matrix, are charged to the PSIC grant.
     	    Time Studies - There was no underlying support to corroborate allocation of employee time to the
           PSIC grant. Additionally, not all grants managed by AZDOHS have an administration portion.
           Therefore, payroll and non-payroll costs were only charged to grants that have an administration
           allowance which result in costs being charged to the PSIC grant that are not benefiting the PSIC
           grant and thus could be deemed unallowable. Since documentation could not be provided to
           support the allocation of administrative costs to the PSIC grant, questioned costs would range
           from $0 up to the amount of administrative expenses charged to the grant of $531,391 through
           September 30, 2011. We recommend that AZDOHS update its procedures to incorporate a
           process of preparing times studies on a regular basis.


                                             www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                               46
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                              3




     	    Reimbursement Review Checklist - One out of 12 subrecipient invoices selected for testing did
           not have a reimbursement review checklist. The reimbursement review checklist is the control
           used by AZDOHS to document their review of subrecipient invoices. Therefore, the
           aforementioned reimbursement, in the amount of $3,492, did not have proper documentation to
           support that it was reviewed by AZDOHS. We recommend that AZDOHS implement a process to
           ensure that a reimbursement review checklist is completed and the completion of this checklist is
           verified prior to issuing a payment to the subrecipient.

Matching
     	 Grant Agreements - During our review of subrecipient grant agreements, we noted that four out of
           six subrecipient grant agreements selected for testing did not include the required match
           percentage for that subrecipient. Additionally, the agreements did not explicitly notify the
           subrecipients that there was a matching requirement. We recommend that AZDOHS ensure that
           all grant agreements with subrecipients contain the required federal requirements including any
           amount that the subrecipient is required to match.
     	    Matching Funds - During our review of the subrecipient monitoring procedures of AZDOHS, it was
           noted that AZDOHS did not verify that monies used by subrecipients to meet the match
           requirement were coming from non-federal sources. We recommend that AZDOHS, as part of
           their on-site monitoring of subrecipients test to ensure that matching funds are not coming from
           other federal sources.

Subrecipient Monitoring
          Audit Report Review - We noted that one of the three sampled subrecipients' audit reports
           contained audit findings for the years 2008 and 2009. These findings were not directly related to
           the PSIC grant, however, there was no documentation in the file to support that these findings
           were analyzed to determine if they could have an impact on the PSIC grant. AZDOHS should
           update its Audit Review Checklist to ensure that the review of all findings as well as the impact of
           those findings on the PSIC grant is documented.

Cash Management
          Cash Advances - It was noted during our cash management testing that the PSIC cash account
           held balances ranging from $1 to $3,000. We recommend that AZDOHS update its procedures to
           incorporate a process whereby the drawdowns and payments to the subrecipients are reconciled.
           Further, this tracking mechanism should calculate interest on the funds in situations where there
           is an advance drawdown resulting in excess funds. This will help to ensure that receipt and
           disbursement of Federal money is properly managed by complying with the Cash Management
           Investment Act (CMIA).
     	    Internal Deposit Slips - During our cash management testing, we noted that for 6 out of 8
           drawdowns selected for testing, AZDOHS did not complete an approved internal deposit slip prior
           to completing drawdowns from FEMA. The internal deposit slips were completed and approved a
           day or two after AZDOHS had requested a drawdown from the federal government. AZDOHS
           should enforce the written policy and ensure that internal documentation is completed and
           approved prior to completing federal drawdowns.

More details on the findings can be found in the Findings and Recommendations section of this report




                                             www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                47
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                           4




Background
The Digital Television and Public Safety Act of 2005 authorized the U.S. Department of Commerce’s
National Telecommunications and Information Administration (NTIA), in consultation with the Department
of Homeland Security (DHS), to establish and implement a $1 billion one-time, formula based, matching
grant program to assist public safety agencies in the acquisition of, deployment of, or training for the use
of interoperable communications systems that can utilize reallocated public safety spectrum for radio
communications. The Call Home Act of 2006 subsequently directed NTIA to make the grant awards by
September 30, 2007. The Implementing Recommendations of the 9/11 Commission Act of 2007 later
expanded the allowable costs under the award to include planning and coordination costs and
established a strategic technology reserve fund (STR) for deployable communications equipment in the
event of an emergency or disaster. Public law 111-96 extended the period for performance of any
investment approved under the Program by one year, but not later than September 30, 2011, except that
the Assistant Secretary of Commerce for Communications and Information may extend, on a case-by-
case basis, the period of performance for any investment approved under the Program as of that date for
a period of not more than 2 years, but not later than September 30, 2012. The PSIC program was
extended through September 30, 2012 for those Grantees who applied for and were granted extensions
for the allowable period of performance.
The PSIC program made available $968,385,000 in grants for the period of October 1, 2007 through
September 30, 2010 to the 50 States, the District of Columbia, Puerto Rico, American Samoa, Guam,
Northern Mariana Islands, and the U.S. Virgin Islands.
PSIC grant recipients were required to submit a State Communications Interoperable Plan (SCIP) and an
Investment Justification (IJ). The SCIP must address locally-driven interoperable communications
capabilities among local and tribal government entities and authorized nongovernmental organizations.
The IJ detailed individual interoperable communications projects that achieve meaningful and measurable
improvements in interoperability and fill interoperability gaps identified in the statewide plans.
The Governor of each State and Territory designated a State Administrative Agency (SAA) to apply and
administer the funds under the PSIC grant program. The SAA is the sole eligible applicant for PSIC grant
funds and the entity to which PSIC funds are awarded. The SAA has overall responsibility for ensuring
that Investments are implemented as approved and administered in compliance with PSIC program
requirements. The SAA is required to pass-through no less than 80 percent of the total award amount to
local or tribal governments or authorized nongovernmental public safety agencies. Overall, a 20 percent
match is required from non-federal sources for acquisition, deployment and management & administrative
costs of communications equipment.
AZDOHS serves as the SAA for the State of Arizona. AZDOHS works with state and local governments,
federal agencies and voluntary organizations to provide strategic direction and access to resources that
will enable all of the state’s homeland security stakeholders to achieve their collective goals.




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             48
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                       5



As part of AZDOHS’s responsibility as the SAA, AZDOHS administers various projects approved as part
of the PSIC grant application process. The table below identifies AZDOHS’s submitted and approved
Investments. Each State is required to make provision for a strategic technology reserve which is also
approved in the Investments noted below.

                                                                          Nonfederal
                                                         PSIC Funds         Match
           PSIC Investment Justification                  Aw arded        (budgeted)         Total
  1. Enhanc ing Regional 700/800 MHZ Systems            $ 13,226,809    $    9,862,453   $   23,089,262
  2. Update Statewide Microwave Backbone                    2,258,000          564,500        2,822,500
  3. Augmenting the State’s Strategic Tec h. Res erve       1,371,850          342,963        1,714,813
Statewide Planning                                            325,000              -            325,000
M&A                                                           531,391          132,848          664,239
Total                                                   $ 17,713,050    $ 10,902,764     $   28,615,814

As part of our work we analyzed AZDOHS’s progress toward completing the approved investments within
the remaining grant period. As of September 30, 2011, AZDOHS had $2,525,030 in PSIC funds
remaining to be expended. AZDOHS stated they will complete the seven approved investments by the
extension date of September 30, 2012. We noted no evidence to indicate that any of the investments
would not be completed by September 30, 2012. The table below shows the status of the seven
investments as of September 30, 2011.


                                                         PSIC Funds      PSIC Funds       PSIC Funds
           PSIC Investment Justification                  Aw arded        Expended         Remaining
1. Enhancing Regional 700/800 MHZ Systems               $ 13,226,809    $ 10,887,622     $    2,339,187
2. Update Statewide Microwave Backbone                      2,258,000        2,143,307          114,693
3. Augmenting the State’s Strategic Tech. Reserve           1,371,850       1,360,147            11,703
Statewide Planning                                            325,000          265,553           59,447
M&A                                                           531,391          531,391              -
Total                                                   $ 17,713,050    $ 15,188,020     $   2,525,030




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                         49
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                            6




Objectives, Scope and Methodology
In general, the objective of our performance audit is to determine whether grantees are administering
PSIC grant funds in accordance with federal requirements. In meeting this objective we will determine
whether; (1) costs incurred by grantees receiving PSIC funds from the Department of Commerce are
allowable and in accordance with grant requirements; (2) grantees are meeting matching share
requirements; (3) grant funds are being effectively managed; (4) grantees have appropriately acquired,
tested, and implemented PSIC equipment; (5) grantees are achieving the approved PSIC Investment
Justification goals; and (6) grantees are on track to complete interoperable communications investments
by September 30, 2011 or with an approved extension, by September 30, 2012.
This performance audit consisted of field work at the State of Arizona’s SAA, AZDOHS. We conducted
tests of procedures of the recipients’ compliance with laws and regulations, terms and conditions of the
award, federal cost principles, and progress in achieving approved project goals. We evaluated the use
and administration of PSIC funds from the beginning of the program to September 30, 2011.
Based on consultation with the Department of Commerce Office of Inspector General, state agencies
receiving PSIC grant funds directly from the SAA are to be treated as subrecipients for the purposes of
this performance audit.
As part of designing the performance audit tests to be performed, we considered the following documents
as they are applicable to AZDOHS and the subrecipients.
     a. 	 PSIC Grant Program Guidance and Application Kit, Revised August 16, 2007.
     b. 	 Public Safety Interoperable Communications Grant Program, Program Management Handbook,
          October 2009.
     c. 	 FEMA Information Bulletin No. 268, October 19, 2007.
     d. 	 Office of Grant Operations Financial Management Guide January 2006.
     e. 	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments.
     f. 	 OMB Circular A-102, Grants and Cooperative Agreements with State and Local Governments
          (codified at 15 C.F.R. Part 24).
     g. 	 OMB Circular A-133, Audits of States, Local Governments, and Non-profit Organizations.
     h. 	 OMB Circular A-133 Compliance Supplement, CFDA 11.555.
     i. 	 Department of Commerce Financial Assistance Standard Terms and Conditions, May 2007.
     j. 	 28 CFR Part 66, Uniform Administrative Requirements for Grants and Cooperative Agreements to
          State and Local Governments.
     k. 	 Latest approved State Communication Interoperability Plan (SCIP).
     l. 	 Original signed Grant agreement and Amendments.
     m. Approved Investment Justifications and Clarifications.
     n. 	 State Feedback Forms.
     o. O 	 rganizational Chart.
     p. 	 Written policies and procedures.

We reviewed key controls that had a direct and material effect on AZDOHS’s ability to comply with the
requirements of the PSIC grant as noted from the various guidance listed above. Specifically we
reviewed controls over:



                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                              50
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                         7



                      Activities Allowed or Unallowed
                      Allowable Costs
                      Cash Management
                      Equipment and Property Management
                      Matching
                      Period of Availability
                      Procurement, Suspension, and Debarment
                      Reporting
                      Subrecipient Monitoring
We assessed the risk associated with each of the compliance areas noted above and tested controls and
compliance with these requirements based on nonstatistical samples of AZDOHS transactions, generally
focusing on the highest dollar transactions and line items. Since we did not attempt to extrapolate
findings from sample analyses to all transactions, we believe our sampling methodology represented a
reasonable basis for the conclusions and recommendations included in our report.
We conducted interviews with individuals with direct knowledge and responsibility for the administration
and oversight of the PSIC grant activities. We analyzed supporting documentation provided to us by
AZDOHS to corroborate both control and compliance activities. Documents we analyzed included
subrecipient grant applications and reports, expenditure support, cash drawdowns, procurement policies
and procedures as well as documentation of subrecipient monitoring.
In addition, we tested the validity and reliability of computer-processed data supplied by AZDOHS by
directly testing data against supporting documentation. Based on our tests, we concluded the
computerized data were reliable for use in meeting our objective.




                                             www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                           51
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                              8




Findings and Recommendations
1. Allowable Costs
M&A Costs

Four out of four M&A transactions selected for testing included costs that were unallowable (totaling
$4,978) under the PSIC grant regulations. Three of the indirect costs related to the purchase of office
supplies and one related to the purchase of computers.

Per the PSIC Grant Allowable Cost Matrix, M&A allowable costs were restricted to Hiring of full- or part-
time staff/contractors/consultants for compliance with reporting, monitoring, and audit requirements and
associated travel and meeting expenses, overtime and backfill costs associated with PSIC, travel and
meeting related expenses.

AZDOHS did not have written procedures to ensure that only allowed costs were charged to the PSIC
grant.

As a result of these charges, the PSIC grant was over charged by $4,978 of unallowable costs that could
result in disallowance of such costs and recovery of disallowed costs by the Grantor.

Recommendation

We recommend that AZDOHS implement a review process to analyze costs against the PSIC Grant
Allowable Cost Matrix to ensure that only allowable costs as listed in the Matrix are charged to the PSIC
grant. We also recommend that AZDOHS discuss these costs with the appropriate federal agency to
determine an ultimate disposition.


Time Studies

There was no underlying support to support the allocation of employee time to the PSIC grant in
accordance with federal guidelines. Additionally, not all grants managed by AZDOHS have an
administration portion. Therefore, payroll and non-payroll costs were only charged to grants that have an
administration allowance. Therefore, hours incurred by employees on grants that do not have an
administrative allowance are changed to other grants that have an administrative allowance including the
PSIC grant.

OMB Circular A-87 (Cost Principles for State, Local and Tribal governments), Attachment B (Selected
Items of Costs) states:

     "8. Compensation for Personal Services

           (3) Is determined and supported as provided in subsection h.
                h. 	 Support of salaries and wages. These standards regarding time distribution are in
                     addition to the standards for payroll documentation.

           (4) Where employees work on multiple activities or cost objectives, a distribution of their salaries
               or wages will be supported by personnel activity reports or equivalent documentation which


                                             www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                52
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                            9



                 meets the standards in subsection (5) unless a statistical sampling system (see subsection
                 (6)) or other substitute system has been approved by the cognizant Federal agency.

           (5) Personnel activity reports or equivalent documentation must meet the following standards:
               (a) They must reflect an after-the-fact distribution of the actual activity of each employee,
               (b) They must account for the total activity, for which each employee is compensated,
               (c) They must be prepared at least monthly and must coincide with one or more pay periods,
                   and
               (d) They must be signed by the employee."

Since documentation could not be provided to support the allocation of administrative costs to the PSIC
grant, questioned costs would range from $0 up to the amount of administrative expenses charged to the
grant of $531,391 through September 30, 2011.

Recommendation

We recommend that AZDOHS update its procedures to incorporate a process of preparing times studies
on a regular basis in order to determine the proper allocation percentage to the PSIC and other grants.
Further, the process should also incorporate a review procedure whereby the time studies are reviewed
and approved by authorized personnel other than the preparer.


Reimbursement Review Checklist

One out of 12 subrecipient invoices selected for testing did not have reimbursement review checklist to
support the reimbursement by AZDOHS.

OMB Circular A-133;Subpart C.300 ("Auditee Responsibilities") states,

     "The auditee shall:
        (b) Maintain internal control over Federal programs that provides reasonable assurance that the
        auditee is managing Federal awards in compliance with laws, regulations, and the provisions of
        contracts or grant agreements that could have a material effect on each of its Federal programs."

AZDOHS did not implement internal control procedures to ensure that each reimbursement request was
supported by adequate documentation including documentation to show that the reimbursement request
was reviewed and approved by authorized signatories.

Lack of documentation to support a review of a subrecipient invoice could result in unallowable costs
submitted by the subrecipient being paid by AZDOHS. The payment of these costs by AZDOHS could
result in questioned costs, which could lead to disallowance under the PSIC grant requiring AZDOHS to
reimburse the amount of disallowance to the Federal government.

Recommendation

We recommend that AZDOHS implement a process whereby the sub-grantee files are audit-ready at any
given time. This would mean AZDOHS should have a review process in place to ensure that each of the
sub-grantee files are in order to ensure that adequate documentation exists in those files. PSIC Grant
Management Handbook (Tool 10 - PSIC Audit Compliance Checklist) provides a comprehensive list of



                                              www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                              53
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                              10



statutory, financial, and programmatic requirements that should be fulfilled in order to be compliant with
the PSIC Grant Program.

2. Matching
Grant Agreements

During our review of subrecipient grant agreements, we noted that four out of six subrecipient grant
agreements selected for testing did not include the required match amount or percentage for that
subrecipient. Additionally, the agreements did not explicitly notify the subrecipients that there was a
Matching requirement.

OMB Circular A-133; Subpart D--Federal Agencies and Pass-Through Entities Section 400
Responsibilities states:

  (d) 	 Pass-through entity responsibilities. A pass-through entity shall perform the following for the 

        Federal awards it makes:


        (2) 	 Advise subrecipients of requirements imposed on them by Federal laws, regulations, and the
              provisions of contracts or grant agreements as well as any supplemental requirements
              imposed by the pass-through entity.

Per inquiry with the grant director, the subgrantee agreements, prior to 2009, did not include the Match
amount or percentage as AZDOHS was not aware of the requirements. During our procedures, we did
note that grant agreements initiated after 2009 had a specific section for the match amount and
referenced the matching requirements.

Recommendation

We recommend that AZDOHS ensure that all grant agreements with subrecipients contain the required
federal requirements including any grant amount that the subrecipient is required to match.


Matching Funds

During our review of the subrecipient monitoring procedures of AZDOHS, it was noted that AZDOHS does
not verify that monies used by subrecipients to meet the match requirement were coming from non-
Federal sources.

OMB Circular A-102 states that matching amounts are not to be paid by the Federal Government under
another award, except where authorized by Federal statute to be allowable for cost sharing or matching.
Furthermore, OMB Circular A-133 states “that pass through entities shall monitor the activities of
subrecipients, as necessary, to ensure that Federal awards are used for authorized purposes in
compliance with laws, regulations, and the provisions of contracts or grant agreements and that
performance goals are achieved”.

Not performing on-site procedures to ensure that matching funds were being paid from an allowable
source could result in an allowable source being used to fund the match and thus result in a portion of the
match being unallowed and result in the grant program not meeting the matching requirement.



                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                 54
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                          11



Recommendation

We recommend that AZDOHS, as part of their on-site monitoring of subrecipients test to ensure that
matching funds are not coming from other federal sources. This can be accomplished by obtaining a
general ledger that details both Federal and non-Federal funds. AZDOHS could then review the ledger to
ensure that only non-federal funds are being used as matching funds on the PSIC grant project.


3. Subrecipient Monitoring
Audit Report Review

AZDOHS did not monitor subrecipients in accordance with federal requirements. We noted that one of
the three sampled subrecipients' audit reports contained audit findings for the years 2008 and 2009.
These findings were not directly related to the PSIC grant, however, there was no documentation in the
file to support that these findings were analyzed to determine if there was an impact on the PSIC grant.

OMB A-133, subpart D (Federal Agencies and Pass-through Entities); §____.400. (Responsibilities) d.
(Pass-through entity responsibilities) states: "A pass-through entity shall perform the following for the
Federal awards it makes: (5) Issue a management decision on audit findings within six months after
receipt of the subrecipient's audit report and ensure that the subrecipient takes appropriate and timely
corrective action."

Per AZDOHS, since the findings did not relate to PSIC grant, no follow up action was performed. In
addition, the audit review checklist that AZDOHS used to review audit reports did not include a section to
analyze findings not directly on the PSIC program to determine if they could have an impact on the PSIC
grant program.

Recommendation

AZDOHS should update the Audit Review Checklist to ensure that the review of all findings as well as the
impact of those findings on the PSIC grant is documented. Based on discussions with AZDOHS
Management they agreed to the recommendation of updating the Audit Review Checklist to ensure that
the review of all findings, as well as the impact of those findings on the PSIC grant is documented.


4. Cash Management
Cash Advances

It was noted during our cash management testing that the PSIC cash account held balances ranging from
$1 to $3,000 for up to two weeks after the drawdown from the federal government. Per the PSIC Program
Management Handbook, "PSIC grantees may elect to drawdown funds up to 30 days prior to expenditure
or disbursement; however, grantees should drawdown funds as close to expenditure as possible to
comply with the Cash Management Improvement Act (CMIA). CMIA requires that programs remain
interest-neutral (i.e., no interest will be gained or lost by either Federal or State governments as a result
of a Federal grant program). Interest is due to the State if it must use its own funds for program purposes
(because the Federal government has not released funding). Interest is due to the Federal government if
the State has held grant funds in an interest-bearing account prior to disbursement for program purposes,
and has accrued interest as a result of this action."


                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             55
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 19, 2012                                                                                        12




During discussion with AZDOHS, we noted that payments to subrecipients were not always on a
reimbursement basis. This is evident by the fact that balances existed in the grant cash account. Further,
it was noted that AZDOHS does not have procedures in place to ensure that the drawdown of funds from
the federal government comply with CMIA.

This is could lead to instances where AZDOHS draws down money in advance, resulting in an interest
liability on the funds held.

Recommendation

We recommend that AZDOHS update it procedures to incorporate a process whereby the drawdowns
and payments to the subrecipients are reconciled to ensure that all amounts of the drawdown are
properly paid to subrecipients. Further, this tracking mechanism should calculate interest on the funds in
situations where there is an advance drawdown. This will help to ensure that receipt and disbursement of
Federal money is managed in compliance with CMIA.


Support for Federal Drawdowns

AZDOHS did not follow its written procedures regarding the documentation necessary in order to
drawdown federal funds. Per AZDOHS’s drawdown procedures for Homeland Security agency, a deposit
slip was required to be completed and sent to the Accounting Manager for approval prior to the request
for funds issuance. After approval is obtained, the staff Accountant will then request the funds from the
federal payment system. During our cash management testing, we noted that for 6 out of 8 drawdowns
selected for testing, AZDOHS did not complete an approved internal deposit slip prior to completing
drawdowns from federal government. The internal deposit slips were completed and approved a day or
two after AZDOHS had requested a drawdown from the federal government.

Per AZDOHS, the reason that internal deposit slips were completed after the drawdown was that they
consisted of several drawdowns from different grants and the final approval was done prior to all
drawdowns but after PSIC drawdown was reviewed. Not completing the internal deposit slip prior to the
drawdown increases the likelihood that the amount of the drawdown differs from the approved amount.

Recommendation

AZDOHS should enforce its written policy and ensure that internal documentation is completed and
approved prior to completing federal drawdown requests.


Other Matters
National Environmental Policy Act (NEPA)
The PSIC Program Guidance and Application Kit, August 2007, required grantees to comply with the
terms of NEPA prior to expenditure of grant funds. We tested eight projects within AZDOHS’s three
approved Investment Justifications and noted six projects (75%) had incurred expenditures prior to NEPA
approval. The first expenditures under the projects ranged from 43 days to 369 days prior to obtaining
NEPA approval for the specific projects. Because AZDOHS obtained NEPA approval once requested by
NTIA, there is no remedial action that can be taken by AZDOHS. Accordingly, we make no
recommendation at this time.


                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                           56
Appendix O: Kansas Highway Patrol




Kansas Highway Patrol – PSIC Performance
Audit
April 2012
Submitted to:
Mr. Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Submitted by:
Bert Nuehring
Crowe Horwath LLP
1325 G Street NW, Suite 500
Washington, D.C. 20005-3136
Direct 954.489.7433
Main 202.624.5555
Fax 202.624.8858
Bert.nuehring@crowehorwath.com




                                                             57
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012




Table of Contents
Performance Audit Report

Summary ................................................................................................................................................. 1
 
   Results ............................................................................................................................................... 1
 

Background ............................................................................................................................................ 3
 

Objectives, Scope and Methodology ................................................................................................... 5
 
   Findings And Recommendations....................................................................................................... 6
 
   1.  Subrecipient Monitoring .............................................................................................................. 6
 
   2.  Reporting ..................................................................................................................................... 8
 
   3.  Subrecipient Grant Agreements.................................................................................................. 8
 
   4.  Reimbursements ......................................................................................................................... 9
 

Other Matters .......................................................................................................................................... 9
 
   Program Audit .................................................................................................................................... 9
 
   National Environmental Policy Act (NEPA) ....................................................................................... 9
 
   Pass-through of Funding ................................................................................................................. 10
 




                                                                www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                                                                 58
                                                                                Crowe Horwath LLP
                                                                                Independent Member Crowe Horwath International

                                                                                1325 G Street NW, Suite 500
                                                                                Washington D.C. 20005-3136
                                                                                Tel 202.624.5555
                                                                                Fax 202.624.8858
                                                                                www.crowehorwath.com


April 16, 2012


To: Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Re: Kansas Highway Patrol – PSIC performance audit.


As requested by the Department of Commerce, Office of the Inspector General, we have conducted a
performance audit on the Kansas Highway Patrol (KHP) and its administration of the Public Safety
Interoperable Communications (PSIC) grant, award number 2007-GS-H7-0027, for the period from
October 1, 2007 through September 30, 2011. The report contains a summary of results followed by
background, objectives, scope, methodology, findings and recommendations.

KHP’s management has responsibility for establishing and maintaining internal control and complying
with applicable laws and regulations. Internal control is a process designed to provide reasonable, but not
absolute, assurance regarding the reliability of financial reporting, effectiveness and efficiency of
operations, and compliance with applicable laws and regulations. We gained an understanding of the
overall internal controls, automated and manual, sufficient to plan the performance audit. We considered
significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk exists that some material misstatements or material non-compliance may not be
detected, even though the audit is properly planned and performed in accordance with applicable
standards. An audit is not designed to detect errors or fraud that is immaterial to the performance audit
objectives.

During the course of our work we noted findings relating to a lack of subrecipient monitoring, accurate
reporting and managerial review, subrecipient grant agreements and reimbursement controls. These
findings are detailed further in the attached report.



Crowe Horwath LLP



cc: 	   Patty McBarnette, Audit Director
        Belinda Riley, Audit Supervisor
        Laura Murphy, Audit Team Leader




                                                                                                                    59
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                          1




Summary
Our performance audit scope included PSIC grant activity administered by the Kansas Highway Patrol
(KHP) from October 1, 2007 through September 30, 2011. In conducting this performance audit we
reviewed supporting documentation in conjunction with interviews of KHP staff having direct knowledge of
PSIC grant activities and observations made to support our results, findings and recommendations. The
results are summarized briefly below and are discussed in further detail in the body of this report.
This performance audit consisted of field work at the State of Kansas’s State Administering Agency (SAA)
SAA, KHP. We conducted tests of procedures of the recipients’ compliance with laws and regulations,
terms and conditions of the award, federal cost principles, and progress in achieving approved project
goals.
KHP’s management has responsibility for establishing and maintaining internal control and complying
with applicable laws and regulations. Internal control is a process designed to provide reasonable, but not
absolute, assurance regarding the reliability of financial reporting, effectiveness and efficiency of
operations, and compliance with applicable laws and regulations. We gained an understanding of the
overall internal controls, automated and manual, sufficient to plan the performance audit. We considered
significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk that some material misstatements or material non-compliance may not be detected
exists, even though the audit is properly planned and performed in accordance with applicable standards.
An audit is not designed to detect error or fraud that is immaterial to the performance audit objectives.


Results
The following provides a summary of the findings and recommendations reported within this document.
     We noted that the KHP did not have a system in place to adequately monitor the subrecipients for
     implementing the PSIC Investments. We noted issues with no onsite monitoring performed during
     PSIC grant period, review of OMB Circular A-133 audits, and equipment. Accordingly, we
     recommend KHP establish a monitoring system to ensure subrecipient compliance with applicable
     federal requirements and to ensure that performance goals are being achieved.
     During our testing we noted three of five SF425 reports we tested did not have evidence of
     management review. We also noted one of the reports was submitted with incorrect information,
     since the report contained an overstatement of $35,169 of the recipient’s share of expenditures. We
     recommend KHP modify the current financial reporting policy to include a documented second level
     review of the financial reports prepared for submission.
     KHP grant agreements did not include all required information as set forth by OMB Circular A-133. In
     particular the agreements did not include the specific period of availability and the matching amount
     required by the PSIC grant. We recommend KHP modify the grant agreements utilized to include
     information regarding the period of availability and matching share of expenditures.



                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                            60
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                       2




     We noted that certain reimbursements did not have evidence of review and approval by a manager
     prior to reimbursement. Additionally, we noted that during the reimbursement process that equipment
     included on invoices submitted for reimbursement was not compared to the Authorized Equipment
     Listing (AEL). We recommend KHP modify the reimbursement policy to include a documented
     management level review of the payment requests prior to reimbursement and a validation of
     equipment submitted on invoices for reimbursement to is the AEL prior to payment to the
     subrecipient.




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                         61
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                            3




Background
The Digital Television and Public Safety Act of 2005 authorized the U.S. Department of Commerce’s
National Telecommunications and Information Administration (NTIA), in consultation with the Department
of Homeland Security (DHS), to establish and implement a $1 billion one-time, formula based, matching
grant program to assist public safety agencies in the acquisition of, deployment of, or training for the use
of interoperable communications systems that can utilize reallocated public safety spectrum for radio
communications. The Call Home Act of 2006 subsequently directed NTIA to make the grant awards by
September 30, 2007. The Implementing Recommendations of the 9/11 Commission Act of 2007 later
expanded the allowable costs under the award to include planning and coordination costs and
established a strategic technology reserve fund (STR) for deployable communications equipment in the
event of an emergency or disaster. Public law 111-96 extended the period for performance of any
investment approved under the Program by one year, but not later than September 30, 2011, except that
the Assistant Secretary of Commerce for Communications and Information may extend, on a case-by-
case basis, the period of performance for any investment approved under the Program as of that date for
a period of not more than 2 years, but not later than September 30, 2012. The PSIC program was
extended through September 30, 2012 for those Grantees who applied for and were granted extensions
for the allowable period of performance. Kansas did not seek an extension and therefore the PSIC grant
period ended September 30, 2011.
The PSIC program made available $968,385,000 in grants for the period of October 1, 2007 through
September 30, 2010 to the 50 States, the District of Columbia, Puerto Rico, American Samoa, Guam,
Northern Mariana Islands, and the U.S. Virgin Islands.
PSIC grant recipients were required to submit a State Communications Interoperable Plan (SCIP) and an
Investment Justification (IJ). The SCIP must address locally-driven interoperable communications
capabilities among local and tribal government entities and authorized nongovernmental organizations.
The IJ detailed individual interoperable communications projects that achieve meaningful and measurable
improvements in interoperability and fill interoperability gaps identified in the statewide plans.
The Governor of each State and Territory designated a State Administrative Agency (SAA) to apply and
administer the funds under the PSIC grant program. The SAA is the sole eligible applicant for PSIC grant
funds and the entity to which PSIC funds are awarded. The SAA has overall responsibility for ensuring
that Investments are implemented as approved and administered in compliance with PSIC program
requirements. The SAA is required to pass-through no less than 80 percent of the total award amount to
local or tribal governments or authorized nongovernmental public safety agencies. Overall, a 20 percent
match is required from non-federal sources for acquisition, deployment and management & administrative
costs of communications equipment.
KHP serves as the SAA for the State of Kansas. Established by the State of Kansas in 1933, KHP
reports to the Governor. KHP works with state and local governments, federal agencies and voluntary
organizations to provide protection of life and property through active enforcement of traffic, criminal, and
other laws of the State of Kansas, and by supporting homeland security initiatives.




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                              62
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                             4



As part of KHP’s responsibility as the SAA, KHP administers various projects approved as part of the
PSIC grant application process. The table below identifies KHP’s submitted and approved Investments.
Each State is required to make provision for a strategic technology reserve which is also approved in the
Investments noted below.

                                                                               Nonfederal
                                                             PSIC Funds          Match
               PSIC Investment Justification                  Awarded          (budgeted)                Total

 1. State Interoperability Planning                          $      533,358   $                     $     533,358
 2. Statewide Interoperability System
 Enhancements and User Equipment                                  8,963,653        2,240,913            11,204,566
 3. Strategic Technology Reserve: Upgrade of
 Statewide Mobile Response Emergency
 Communications Units and Regional Response
 Teams                                                              826,157            206,539           1,032,696
 4. Interzone Connection Between P25 Trunked
 Radio Systems                                                      344,000             86,000            430,000

 Total                                                       $ 10,667,169     $    2,533,452        $ 13,200,621


As part of our work we analyzed KHP’s progress in closing out the PSIC grant. As of September 30,
2011, KHP had expended all grant funds intended and closed the PSIC grant with $12,044 which was
then deobligated. The table below shows the status of the seven investments as of September 30, 2011.


                                                    PSIC Funds Awarded as           PSIC Funds
                PSIC Investment Justification            of Closeout*                Expended
            1. State Interoperability Planning         $      533,358              $    533,358
            2. Statewide Interoperability System
            Enhancements and User Equipment                       8,642,739             8,642,739
            3. Strategic Technology Reserve:
            Upgrade of Statewide Mobile
            Response Emergency
            Communications Units and Regional
            Response Teams                                        1,301,096             1,301,096
            4. Interzone Connection Between P25
            Trunked Radio Systems                                 $177,932                177,932
            Total                                        $       10,655,125        $    10,655,125

          * The amounts in the column are reflective of two budget modification approved during the
            grant period.




                                            www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                               63
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                            5




Objectives, Scope and Methodology
In general, the objective of our performance audit is to determine whether grantees are administering
PSIC grant funds in accordance with federal requirements. In meeting this objective we will determine
whether; (1) costs incurred by grantees receiving PSIC funds from the Department of Commerce are
allowable and in accordance with grant requirements; (2) grantees are meeting matching share
requirements; (3) grant funds are being effectively managed; (4) grantees have appropriately acquired,
tested, and implemented PSIC equipment; (5) grantees are achieving the approved PSIC Investment
Justification goals; and (6) grantees are on track to complete interoperable communications investments
by September 30, 2011 or with an approved extension, by September 30, 2012. However, KHP did not
request an extension for the PSIC grant as they completed investments by September 30, 2011.

This performance audit consisted of field work at the State of Kansas’s SAA, KHP. We conducted tests of
procedures of the recipients’ compliance with laws and regulations, terms and conditions of the award,
federal cost principles, and progress in achieving approved project goals. We evaluated the use and
administration of PSIC funds from the beginning of the program to September 30, 2011.
Based on consultation with the Department of Commerce Office of Inspector General, state agencies
receiving PSIC grant funds directly from the SAA are to be treated as subrecipients for the purposes of
this performance audit.
As part of designing the performance audit test to be performed, we considered the following documents
as they are applicable to KHP and the subrecipients.
     a. 	 PSIC Grant Program Guidance and Application Kit, Revised August 16, 2007.
     b. 	 Public Safety Interoperable Communications Grant Program, Program Management Handbook,
          October 2009
     c. 	 FEMA Information Bulletin No. 268, October 19, 2007.
     d. 	 Office of Grant Operations Financial Management Guide January 2006. See
     e. 	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
     f. 	 OMB Circular A-102, Grants and Cooperative Agreements with State and Local Governments
          (codified at 15 C.F.R. Part 24).
     g. 	 OMB Circular A-133, Audits of States, Local Governments, and Non-profit Organizations.
     h. 	 OMB Circular A-133 Compliance Supplement, CFDA 11.555, released March, 2008.
     i. 	 Department of Commerce Financial Assistance Standard Terms and Conditions, May 2007.
     j. 	 28 CFR Part 66, Uniform Administrative Requirements for Grants and Cooperative Agreements to
          State and Local Governments.
     k.	 28 CFR Part 70, Uniform Administrative Requirements for Grants and Agreements (Including
          Subawards) with Institutions of Higher Education, Hospitals, and other Non-profit Organizations.
     l. 	 Latest approved State Communication Interoperability Plan (SCIP)
     m. 	 Original signed Grant and Amendments
     n. A 	 pproved Investment Justifications and Clarifications
     o. 	 State Feedback Forms
     p. O 	 rganizational Chart
     q. 	 State of Kansas policies and procedures




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                              64
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                            6



We reviewed key controls that had a direct and material effect on KHP’s ability to ensure compliance with
the requirements of the PSIC grant as noted from the various guidance listed above. Specifically we
reviewed controls associated with:
          Allowable Costs
          Activities Allowed
          Cash Management
          Equipment and Property Management
          Matching Level of Effort
          Period of Availability
          Procurement, Suspension, and Debarment
          Subrecipient Monitoring
          Reporting
We assessed the risk associated with each of the compliance areas noted and tested controls and
compliance with these requirements based on nonstatistical samples of KHP and subrecipient
transactions, generally focusing on the highest dollar transactions and line items. Since we did not
attempt to extrapolate findings from sample analyses to all transactions, we believe our sampling
methodology represented a reasonable basis for the conclusions and recommendations included in our
report.
We conducted interviews with individuals with direct knowledge and responsibility for the administration
and oversight of the PSIC grant activities. We analyzed supporting documentation provided to us by KHP
to corroborate both control and compliance activities. Documents we analyzed included subrecipient
grant applications and reports, expenditure support, cash drawdowns, procurement policies and
procedures as well as documentation of subrecipient monitoring.
In addition, we verified the validity and reliability of computer-processed data supplied by KHP by directly
testing data against supporting documentation. Based on our tests, we concluded the computerized data
was reliable for use in meeting our objectives.



Findings And Recommendations
1. Subrecipient Monitoring
KHP did not monitor subrecipients in accordance with federal requirements and with internal policies and
procedures. KHP was required to perform onsite monitoring to review OMB Circular A-133 audits of
subrecipients and to ensure maintenance of equipment inventory records of its subrecipients.
Onsite Monitoring Program
KHP had agreements with 4 subrecipients and 2 state agencies to implement the approved PSIC
Investments. KHP administers the PSIC program on a reimbursement basis and therefore, subrecipients
must submit proof of payment prior to reimbursement from KHP. KHP uses the reimbursement requests
as a basis for drawdowns from KHP.
According to the revised August 16, 2007, Public Safety Interoperable Communications Grant Program
Guidance and Application Kit page 35, KHP is “responsible for monitoring award activities, to include


                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                              65
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                           7



subawards, to provide reasonable assurance that the PSIC award is administered in compliance with
requirements.” It further states, “In addition, the SAA is responsible for monitoring
subrecipients/subgrantee awards.”
Although the subrecipients were responsible for implementing the PSIC grant activity the State, thru KHP,
was responsible for monitoring the relevant activities to ensure compliance with applicable federal
requirements and to ensure that performance goals were being achieved. (Title 15, Code of Federal
Regulations, §24.40) The regulation further required grantees to monitor subrecipient performance under
each program, function, or activity of the grant.
KHP, during the period of the PSIC grant, had monitoring policies and procedures but did not perform
those procedures. According to KHP personnel, KHP did not have the available staff to perform the
monitoring procedures. Without a implemented monitoring plan in place there is an increased risk of
PSIC funds not being spent in accordance with the grant requirements and for program goals to not be
met.
Because monitoring did not occur during the PSIC funding period KHP cannot be sure:
     The actual payment of invoices was made by the subrecipient prior to submission of a reimbursement
     request to KHP. When subrecipients submit invoices for reimbursement to KHP they did not require
     proof of payment to support that the invoices had been paid prior to the request for reimbursement. In
     this instance monitoring visits could have substantiated payment by the subrecipient had occurred
     prior to reimbursement by KHP.
     The performance data submitted was accurate.
     The equipment was actually purchased and was being used for the intended purpose. KHP’s
     monitoring policies and procedures require verification of the purchase, use and implementation of
     the equipment purchased. However, because no onsite visits were completed verification was not
     performed.

OMB Circular A-133 Audit Review
Part of an adequate monitoring system includes the review of audit reports received by subrecipients for
any items that may impact the PSIC grant. KHP did not have policies and procedures for annually
identifying, gathering, and reviewing the Office of Management and Budget (OMB) Circular A-133 audits,
also known as the Single Audit Act reports from subrecipients who receive greater than $500,000 or
more. Without a monitoring system in place the potential exists for findings which impact PSIC grant
administration to go undetected and not corrected.
According to OMB Circular A-133, the pass-through entity (KHP) is responsible for reviewing for audit
findings and issuing a decision on audit findings that effect the PSIC grant within six months after receipt
of the subrecipient’ s audit report and ensuring that the subrecipient takes appropriate and timely
corrective action.
Equipment Inventory
KHP did not ensure subrecipients maintained adequate equipment inventory records for equipment
purchased with PSIC funds. We noted the inventory records did not include the percentage of Federal
participation being utilized when the equipment was purchased.
According to Title 44 CFR part 13.32 (d)(1), property records were to include the following information
about individual equipment items; a description (including serial number or other identification number),
source, allowed to purchase under FEMA guidelines, who holds title, acquisition date and cost,
percentage of Federal participation in the cost, location, condition, and any ultimate disposition data
including, the date of disposal and sales price or method used to determine current fair market value.


                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             66
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                          8



Recommendation
We recommend KHP establish a monitoring system to ensure subrecipient compliance with applicable
federal requirements and to ensure that performance goals are being achieved. As part of the overall
monitoring program, we recommend KHP modify its policies and procedures to identify, gather, and
review Single Audit reports and to ensure compliance with to Title 44 CFR part 13.32 (d)(1), property
inventory records.


2. Reporting
During our testing we noted three of five SF425 reports tested had no evidence of management review.
We also noted one of the reports without a documented review was submitted with incorrect information.
The report contained an overstatement of $35,169 of the recipient’s share of expenditures. This error
effected only reporting and did not affect the amount of cash drawdowns. According to KHP personnel,
the individual who prepared this report is no longer with the organization, therefore, they were unsure why
the reviews were not documented and why the error in reporting occurred.
According to the Public Safety Interoperable Communication Grant Program, Program Management
Handbook, (Handbook), “Reporting provides an effective way for both the SAA and the Federal
government to monitor grant recipient progress against the Investments” Internal control best practices
include a review of all documents by an individual not associated with the documents preparation and at
the reviewer should be least one level above the individual responsible for preparation of the report.
Recommendation
We recommend KHP modify the current financial reporting policy to include a documented second level
review of the financial reports prepared for submission and to determine if an amended report filing is
necessary for the error noted.


3. Subrecipient Grant Agreements
KHP utilized 6 subrecipients to administer the PSIC grant program activities. Each subrecipient signed a
grant agreement at the beginning of the grant period. These grant agreements did not include all of the
information required to be provided to subrecipients by the SAA. In particular the agreements did not
include the specific period of availability and the matching amount required for the PSIC grant.
According to OMB Circular A-133 pass-through entities are required to “Advise subrecipients of
requirements imposed on them by Federal laws, regulations, and the provisions of contracts or grant
agreements as well as any supplemental requirements imposed by the pass-through entity.” This would
include providing subrecipients with such information as the period of availability of funds and any
matching requirement placed on the subgrantee.
Recommendation
We recommend KHP modify the grant agreements with its subrecipients to include information regarding
the period of availability and matching share of expenditures in accordance OMB Circular A-133.




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                            67
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                          9




4. Reimbursements
We noted that all eight reimbursements tested did not have evidence that they had been reviewed and
approved by a manager prior to reimbursement. A single individual at KHP both prepared and approved
the request for payment to subrecipient. Good internal control practices dictate that proper segregation of
duties exist to minimize the risk of fraud and error. In order to achieve the proper segregation of duties,
reimbursement requests should be reviewed and approved by management separate from the individual
responsible for preparing the document. The review and approval of the reimbursements should be
documented.
Additionally, we noted that during the reimbursement process equipment on invoices submitted for
reimbursement was not checked against the Authorized Equipment Listing (AEL). KHP personnel stated
that during the reimbursement process they performed a review of the invoices for unallowable items but
they did not check back against the AEL. By not checking the invoiced equipment against the AEL there
was the potential for unallowable equipment purchases.
Recommendation
We recommend KHP modify the reimbursement policy to include a documented management level
review of the payment requests prior to reimbursement. In addition, we recommend a review of
equipment submitted on invoices for reimbursement is validated with the AEL prior to payment to the
subrecipient.



Other Matters
Program Audit
KHP has completed the PSIC grant and is in the process of completing the close out reporting. The
findings above should be addressed on a go forward basis for grant administration practices in general.
KHP administration of the PSIC grant was not audited by NTIA during the grant administration period.
However, since August 2011 KHP was the subject of an audit of the Homeland Security Program, a
programmatic review of the State Homeland Security Program (SHSP): FY 06 – 10; Buffer Zone
Protection Program (BZPP): FY 07 – 10; Interoperable Emergency Communication Grant Program
(IECGP): FFY 08 – 10, and a monitoring visit of the Emergency Operations Center (EOC) and Emergency
Management Performance Grants (EMPG). According to KHP, as they obtained feedback from the
above engagements they began to implement recommendations from these to overall grant
administration, including the PSIC program. However, the recommendations were of limited benefit to the
PSIC because of the completion of the program at September 30, 2011.

National Environmental Policy Act (NEPA)
The PSIC Program Guidance and Application Kit, August 2007, required grantees to comply with the
terms of NEPA prior to expenditure of grant funds. We tested six projects within KHP’s four approved
Investment Justifications and noted all six projects (100%) had incurred expenditures prior to NEPA
approval. The first expenditures under the projects ranged from 187 days to 879 days prior to obtaining
NEPA approval for the specific projects. Because KHP obtained NEPA approval once requested by NTIA
and KHP has since completed the all PSIC projects, there is no remedial action that can be taken by
KHP. Accordingly, we make no recommendation at this time.




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                            68
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                       10




Pass-through of Funding
The PSIC Program Guidance and Application Kit, August 2007, required that grantees pass-through at
least 80% of PSIC funding to subgrantees within 60 days after the approval of the Investment
Justifications. We selected seven subgrantee agreements and noted three agreements were issued
greater than 60 days after the IJs were approved. The number of days beyond the 60-day limit ranged
from 111 to 286 days. Because the condition that caused these instances of non-compliance only existed
at the 60-day time limit in the early stage of the grant, there is no remedial action that can be taken by
KHP. Accordingly, we make no recommendation at this time.




                                         www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                          69
Appendix P: Kentucky Office of Homeland Security




Kentucky Office of Homeland Security –
PSIC Performance Audit
April 17, 2012
Submitted to:
Mr. Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Submitted by:
Bert Nuehring
Crowe Horwath LLP
1325 G Street NW, Suite 500
Washington, D.C. 20005-3136
Direct 954.489.7433
Main 202.624.5555
Fax 202.624.8858
Bert.nuehring@crowehorwath.com




                                                             70
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012




Table of Contents
Summary ................................................................................................................................................. 1
 
  Results ................................................................................................................................................. 1
 

Background ............................................................................................................................................ 3
 

Objectives, Scope and Methodology ................................................................................................... 5
 

Findings and Recommendations ......................................................................................................... 7
 
   Allowable Costs ................................................................................................................................... 7
 
   Equipment and Property Management ................................................................................................ 9
 
   Reporting ........................................................................................................................................... 10
 
   Subrecipient Monitoring ..................................................................................................................... 11
 

Other Matters ........................................................................................................................................ 12
 
  National Environmental Policy Act (NEPA) ....................................................................................... 12
 




                                                                www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                                                                  71
                                                                                  Crowe Horwath LLP
                                                                                  Independent Member Crowe Horwath International

                                                                                  1325 G Street NW, Suite 500
                                                                                  Washington D.C. 20005-3136
                                                                                  Tel 202.624.5555
                                                                                  Fax 202.624.8858
                                                                                  www.crowehorwath.com



April 17, 2012


To: Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Re: Kentucky Office of Homeland Security – PSIC performance audit.


As requested by the Department of Commerce, Office of the Inspector General, we have conducted a
performance audit of the Kentucky Office of Homeland Security (KOHS) and its administration of the
Public Safety Interoperable Communications (PSIC) grant, award number 2007-GS-H7-0027, for the
period from October 1, 2007 through September 30, 2011. The report contains a summary of results
followed by background, objectives, scope, methodology, findings and recommendations.

KOHS’s management has responsibility for establishing and maintaining internal control and complying
with applicable laws and regulations. Internal control is a process designed to provide reasonable, but not
absolute, assurance regarding the reliability of financial reporting, effectiveness and efficiency of
operations, and compliance with applicable laws and regulations. We gained an understanding of the
overall internal controls, automated and manual, sufficient to plan the performance audit. We considered
significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk exists that some material misstatements or material non-compliance may not be
detected, even though the audit is properly planned and performed in accordance with applicable
standards. An audit is not designed to detect errors or fraud that is immaterial to the performance audit
objectives.

During the course of our work we noted 7 compliance findings relating to allowable costs, equipment and
property management, reporting and subrecipient monitoring. These findings are detailed further in this
attached report.




Crowe Horwath LLP


Cc:     Patty McBarnette, Audit Director
        Belinda Riley, Audit Supervisor
        Laura Murphy, Audit Team Leader




                                                                                                                      72
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                           1




Summary
Our performance audit scope included PSIC grant activity administered by the KOHS from October 1,
2007 through September 30, 2011. In conducting this performance audit we reviewed supporting
documentation in conjunction with conducting interviews of KOHS staff having direct knowledge of the
PSIC grant. The results are summarized briefly below and are discussed in further detail in the body of
this report.
This performance audit consisted of field work at the State of Kentucky’s State Administering Agency
(SAA), KOHS. We conducted tests of procedures of the recipients’ compliance with laws and regulations,
terms and conditions of the award, federal cost principles, and progress in achieving approved project
goals.
KOHS’s management has responsibility for establishing and maintaining internal control and complying
with applicable laws and regulations. Internal control is a process designed to provide reasonable, but not
absolute, assurance regarding the reliability of financial reporting, effectiveness and efficiency of
operations, and compliance with applicable laws and regulations. We gained an understanding of the
overall internal controls, automated and manual, sufficient to plan the performance audit. We considered
significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk that some material misstatements or material non-compliance may not be detected
exists, even though the audit is properly planned and performed in accordance with applicable standards.
An audit is not designed to detect error or fraud that is immaterial to the performance audit objectives.

Results
The following provides a summary of the findings and recommendations reported within this document.
Allowable Costs
     	    Unallowable Costs - KOHS reimbursed a subrecipient for supplies purchased totaling $1001.12.
           The grant agreement with KCTCS only included capital items and as such materials and supplies
           were not approved under the grant budget. We recommend that KOHS perform a review of
           actual costs versus the budget on each and every PSIC request for reimbursement submitted by
           subrecipients.
     	    Time Studies - There was no underlying support to corroborate allocation of employee time to the
           PSIC grant. Additionally, KOHS allocates all administrative costs only to grants that allow for
           administrative cost recovery. Therefore, payroll and non-payroll costs were only charged to
           grants that have an administration allowance which result in costs being charged to the PSIC
           grant that may not have benefitted the PSIC grant and thus could be deemed unallowable. Since
           documentation could not be provided to support the allocation of administrative costs to the PSIC
           grant, questioned costs would range from $0 up to the amount of administrative expenses
           charged to the grant of $169,252 through September 30, 2011. We recommend that KOHS



                                            www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             73
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                               2



           update its procedures to incorporate a process such as preparing time studies on a regular basis,
           to ensure administrative costs are properly allocated.

     	    Supporting Documentation for Subrecipient Invoices - KOHS did not maintain proper supporting
           documentation for 4 out the 6 subrecipient reimbursement requests tested. Specifically,
           documentation such as a copy of a cleared check and/or payroll source documents (e.g. payroll
           vouchers) to provide proof of payment was not included with the reimbursement request. We
           recommend that KOHS ensure that all reviews of subrecipient reimbursement requests include a
           review to ensure proper documentation supporting the proof of payment is included prior to
           processing the reimbursement request. If proper documentation to support is not included,
           KOHS should not process the reimbursement for payment until the proper documentation is
           received.

Equipment and Property Management
          Equipment Monitoring Procedures - The policies and procedures for KOHS's subrecipient
           monitoring did not require the staff to verify that subgrantees maintained adequate equipment
           inventory lists. In addition, Subrecipient equipment inventory lists did not include all of the
           information required under federal regulations. We recommend that the KOHS ensure
           subrecipient equipment inventory records contain the required information in accordance with
           Title 44 CFR 13.32 (d) (1).

Reporting
          Report Reviews - KOHS did not perform an independent review of the information contained in
           the BSIR or the SF425 reports prior to submission. The individual preparing the reports from the
           source documents entered the data into the online reporting systems and also submitted the
           reports to the Federal government. To ensure the reasonableness of the data in the reports as
           well as other steps to help management gain assurance the information is correct prior to
           submission of the reports, we recommend KOHS revise their procedures for preparing and
           submitting fiscal and programmatic reports to include a review from an independent person with
           the appropriate skills within the organization.
          Timeliness and Accuracy of Reports – KOHS did not complete all of its required reports on a
           timely and accurate basis. One of eight reports (2 BSIRs, 2 CAPRs and 4 SF425s) we tested
           was not filed by the deadline. In addition, two of 8 reports tested that contained financial
           information contained incorrect amounts in the reports. The Required Recipient Share amount
           was incorrect on all 4 of the SF425 reports tested. We recommend KOHS implement
           management control procedures to ensure reports are submitted in a timely and in an accurate
           manner.

Subrecipient Monitoring
          Subrecipient Grant Agreements - During our testing of subrecipient grant agreements, we noted
           that 3 out of 3 grant agreements selected for testing did not include the Catalog of Federal
           Domestic Assistance (CFDA) number or the name of the federal awarding agency. We
           recommend that KOHS ensure that the CFDA number and federal awarding agency are clearly
           identified in all grant agreements in accordance with OMB Circular A-133.

More details on the findings can be found in the Findings and Recommendations section of this report.




                                             www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                 74
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                           3




Background
The Digital Television and Public Safety Act of 2005 authorized the U.S. Department of Commerce’s
National Telecommunications and Information Administration (NTIA), in consultation with the Department
of Homeland Security (DHS), to establish and implement a $1 billion one-time, formula based, matching
grant program to assist public safety agencies in the acquisition of, deployment of, or training for the use
of interoperable communications systems that can utilize reallocated public safety spectrum for radio
communications. The Call Home Act of 2006 subsequently directed NTIA to make the grant awards by
September 30, 2007. The Implementing Recommendations of the 9/11 Commission Act of 2007 later
expanded the allowable costs under the award to include planning and coordination costs and
established a strategic technology reserve fund (STR) for deployable communications equipment in the
event of an emergency or disaster. Public law 111-96 extended the period for performance of any
investment approved under the Program by one year, but not later than September 30, 2011, except that
the Assistant Secretary of Commerce for Communications and Information may extend, on a case-by-
case basis, the period of performance for any investment approved under the Program as of that date for
a period of not more than 2 years, but not later than September 30, 2012. The PSIC program was
extended through September 30, 2012 for those Grantees who applied for and were granted extensions
for the allowable period of performance.
The PSIC program made available $968,385,000 in grants for the period of October 1, 2007 through
September 30, 2010 to the 50 States, the District of Columbia, Puerto Rico, American Samoa, Guam,
Northern Mariana Islands, and the U.S. Virgin Islands.
PSIC grant recipients were required to submit a State Communications Interoperable Plan (SCIP) and an
Investment Justification (IJ). The SCIP must address locally-driven interoperable communications
capabilities among local and tribal government entities and authorized nongovernmental organizations.
The IJ detailed individual interoperable communications projects that achieve meaningful and measurable
improvements in interoperability and fill interoperability gaps identified in the statewide plans.
The Governor of each State and Territory designated a State Administrative Agency (SAA) to apply and
administer the funds under the PSIC grant program. The SAA is the sole eligible applicant for PSIC grant
funds and the entity to which PSIC funds are awarded. The SAA has overall responsibility for ensuring
that Investments are implemented as approved and administered in compliance with PSIC program
requirements. The SAA is required to pass-through no less than 80 percent of the total award amount to
local or tribal governments or authorized nongovernmental public safety agencies. Overall, a 20 percent
match is required from non-federal sources for acquisition, deployment and management & administrative
costs of communications equipment.
KOHS serves as the SAA for the State of Kentucky. KOHS works with state and local governments,
federal agencies and voluntary organizations to provide strategic direction and access to resources that
will enable all of the state’s homeland security stakeholders to achieve their collective goals.




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             75
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                        4



As part of KOHS’s responsibility as the SAA, KOHS administers various projects approved as part of the
PSIC grant application process. The table below identifies KOHS’s submitted and approved Investments.
Each State is required to make provision for a strategic technology reserve which is also approved in the
Investments noted below.

                                                                          Nonfederal
                                                         PSIC Funds         Match
             PSIC Investment Justification                Aw arded        (budgeted)         Total
  1. Louisville Metro Mutual Aid Enhancement Projec t   $   2,520,000   $      630,000   $    3,150,000
  2. Kentucky Mobile Communication Centers                  1,634,275                         1,634,275
  3. Kentucky Strategic Voice Mutual Aid System            11,067,928                        11,067,928
  Statewide Plan                                                  -          3,221,406        3,221,406
  M&A                                                         183,422                           183,422
Total                                                   $ 15,405,625    $    3,851,406   $   19,257,031

As part of our work we analyzed KOHS’s progress toward completing the approved investments within
the remaining grant period. As of September 30, 2011, KOHS had $2,851,841 in PSIC funds remaining
to expend. KOHS stated they will complete the three approved investment by the extension date of
September 30, 2012. We noted no evidence to indicate that any of the investments would not be
completed by September 30, 2012. The table below shows the status of the three investments as of
September 30, 2011.


                                                         PSIC Funds      PSIC Funds      PSIC Funds
            PSIC Investment Justification                 Aw arded        Expended       Remaining
  1. Louisville Metro Mutual Aid Enhancement Project    $   2,520,000   $    2,439,823 $       80,177
  2. Kentucky Mobile Communication Centers                  1,634,275        1,544,142         90,133
  3. Kentucky Strategic Voice Mutual Aid System            11,067,928        8,400,567      2,667,361
  Statewide Plan                                                  -                -              -
  M&A                                                         183,422          169,252         14,170
Total                                                   $ 15,405,625    $ 12,553,784 $      2,851,841




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                          76
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                            5




Objectives, Scope and Methodology
In general, the objective of our performance audit is to determine whether grantees are administering
PSIC grant funds in accordance with federal requirements. In meeting this objective we will determine
whether; (1) costs incurred by grantees receiving PSIC funds from the Department of Commerce are
allowable and in accordance with grant requirements; (2) grantees are meeting matching share
requirements; (3) grant funds are being effectively managed; (4) grantees have appropriately acquired,
tested, and implemented PSIC equipment; (5) grantees are achieving the approved PSIC Investment
Justification goals; and (6) grantees are on track to complete interoperable communications investments
by September 30, 2011 or with an approved extension, by September 30, 2012.
This performance audit consisted of field work at the State of Kentucky SAA, KOHS. We conducted tests
of procedures of the recipients’ compliance with laws and regulations, terms and conditions of the award,
federal cost principles, and progress in achieving approved project goals. We evaluated the use and
administration of PSIC funds from the beginning of the program to September 30, 2011.
Based on consultation with the Department of Commerce Office of Inspector General, state agencies
receiving PSIC grant funds directly from the SAA are to be treated as subrecipients for the purposes of
this performance audit.
As part of designing the performance audit tests to be performed, we considered the following documents
as they are applicable to KOHS and the subrecipients.
     a. 	 PSIC Grant Program Guidance and Application Kit, Revised August 16, 2007.
     b. 	 Public Safety Interoperable Communications Grant Program, Program Management Handbook,
          October 2009.
     c. 	 FEMA Information Bulletin No. 268, October 19, 2007.
     d. 	 Office of Grant Operations Financial Management Guide January 2006.
     e. 	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments.
     f. 	 OMB Circular A-102, Grants and Cooperative Agreements with State and Local Governments
          (codified at 15 C.F.R. Part 24).
     g. 	 OMB Circular A-133, Audits of States, Local Governments, and Non-profit Organizations.
     h. 	 OMB Circular A-133 Compliance Supplement, CFDA 11.555.
     i. 	 Department of Commerce Financial Assistance Standard Terms and Conditions, May 2007.
     j. 	 28 CFR Part 66, Uniform Administrative Requirements for Grants and Cooperative Agreements to
          State and Local Governments.
     k. 	 Latest approved State Communication Interoperability Plan (SCIP).
     l. 	 Original signed Grant agreement and Amendments.
     m. Approved Investment Justifications and Clarifications.
     n. 	 State Feedback Forms.
     o. O 	 rganizational Chart.
     p. 	 Written policies and procedures.

We reviewed key controls that had a direct and material effect on KOHS’s ability to comply with the
requirements of the PSIC grant as noted from the various guidance listed above. Specifically we
reviewed controls over:



                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                              77
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                          6



                      Activities Allowed or Unallowed
                      Allowable Costs
                      Cash Management
                      Equipment and Property Management
                      Matching
                      Period of Availability
                      Procurement, Suspension, and Debarment
                      Reporting
                      Subrecipient Monitoring
We assessed the risk associated with each of the compliance areas noted above and tested controls and
compliance with these requirements based on nonstatistical samples of KOHS transactions, generally
focusing on the highest dollar transactions and line items. Since we did not attempt to extrapolate
findings from sample analyses to all transactions, we believe our sampling methodology represented a
reasonable basis for the conclusions and recommendations included in our report.
We conducted interviews with individuals with direct knowledge and responsibility for the administration
and oversight of the PSIC grant activities. We analyzed supporting documentation provided to us by
KOHS to corroborate both control and compliance activities. Documents we analyzed included
subrecipient grant applications and reports, expenditure support, cash drawdowns, procurement policies
and procedures as well as documentation of subrecipient monitoring.
In addition, we tested the validity and reliability of computer-processed data supplied by KOHS by directly
testing data against supporting documentation. Based on our tests, we concluded the computerized data
were reliable for use in meeting our objective.




                                             www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                            78
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                            7




Findings and Recommendations
Allowable Costs
Unallowable Costs

KOHS reimbursed the Kentucky Community and Technical College System (KCTCS) for supplies
purchased totaling $1001 that were used for the mobile communication trailers. These office expense
included telephone charges, vehicle maintenance costs, office rental, furniture and general office
supplies.

KOHS's budget for the PSIC 07 subgrant did not include a line item for supplies. In addition, section VII,
Allowable and Disallowable Cost Guidance, of the PSIC Program Guidance and Application Kit states
that the PSIC Grant Program covers the acquisition of, deployment of, and training for the use of
interoperable communications systems that use or enable interoperability with communications systems
that can use the reallocated public safety spectrum in the 700 MHz frequency band for radio
communication.

Per discussion with the Grant Manager, KOHS believes that supplies expenses are allowable for the
completion and implementation of communication trailers as the communication trailer could not function
without these items. Though we agree that the trailer would require these items to operate, the grant
budget was for the capital purchase of the trailer itself and not the on-going operations of the trailer. In
addition, the Grant Manager stated that the KOHS Grant Management Policies and Procedures -
Subrecipient Grant Reimbursement, the Reimbursement checklist does not require the grant manager to
reference the grant budget to ensure all expenditures were included in the budget.

Although the KOHS’s Grant Management Policies and Procedures do not require a check against the
budget, we would expect this to be performed as part of KOHS’s review of allowability of costs. Not
reviewing actual costs against the budget could result in subrecipients receiving reimbursements for
expenses that were not in the approved PSIC budget and thus could be deemed unallowable.

Since supplies were not approved in the grant budget, we would question the $1,001 expended on
supplies and charged to the PSIC grant.

Recommendation

We recommend that KOHS amend their Request for Reimbursement checklist to include a budget to
actual analysis of expenditures to ensure they are allowable under the grant budget. Furthermore, we
recommend that KOHS perform this review on all PSIC request for reimbursement submitted by
subrecipients.


Time Studies

There was no underlying support to corroborate allocation of employee time to the PSIC grant.
Additionally, not all grants managed by KOHS have an administration portion. Therefore, payroll and
non-payroll costs are only charged to grants that have an administration allowance. Therefore, hours
incurred by employees on grants that do not have an administrative allowance are changed to other
grants that have an administrative allowance including the PSIC grant.


                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                              79
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                                  8




OMB Circular A-87 (Cost Principles for State, Local and Tribal governments), Attachment B (Selected
Items of Costs) states:


     "8. Compensation for Personal Services

           (3) Is determined and supported as provided in subsection h.

                 h. Support of salaries and wages. These standards regarding time distribution are in addition
                    to the standards for payroll documentation.

                       (4) Where employees work on multiple activities or cost objectives, a distribution of their
                           salaries or wages will be supported by personnel activity reports or equivalent
                           documentation which meets the standards in subsection (5) unless a statistical
                           sampling system (see subsection (6)) or other substitute system has been approved
                           by the cognizant Federal agency.

                       (5) Personnel activity reports or equivalent documentation must meet the following
                           standards:
                           (a) They must reflect an after-the-fact distribution of the actual activity of each
                               employee,
                           (b) They must account for the total activity, for which each employee is
                               compensated,
                           (c) They must be prepared at least monthly and must coincide with one or more pay
                               periods, and
                           (d) They must be signed by the employee."

Since documentation could not be provided to support the allocation of administrative costs to the PSIC
grant, questioned costs would range from $0 up to the amount of administrative expenses charged to the
grant of $169,252 through September 30, 2011.

Recommendation

We recommend that KOHS update its procedures to incorporate a process of preparing times studies on
a monthly basis. Further, the process should also incorporate a review procedure whereby the time
studies are reviewed and approved by authorized personnel other than the preparer.


Supporting Documentation for Subrecipient Invoices

KOHS did not maintain proper supporting documentation for 4 out the 6 subrecipient reimbursement
requests tested to comply with federal requirements and internal policies and procedures. Specifically,
documentation such as a copy of a cancelled check and/or payroll source documents (e.g. payroll
vouchers) to provide proof of payment was not included with the reimbursement request.

KOHS stated that they operate on a reimbursement basis for the PSIC grant. Without documentation to
support payment from the subrecipients, we could not verify that the payments were on the
reimbursement basis. Furthermore, Title 2 of the Code of Federal Regulations (CFR) Part 215 Appendix



                                                 www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                    80
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                              9



A - General Principles for Determining Allowable Costs, section C-1 states that “to be allowable under
Federal awards, costs must meet the following criteria…(j) Be adequately documented”.

Per discussion with KOHS and review of the KOHS Grant Management Policies and Procedures -
Subrecipient Grant Reimbursement, subrecipients are required to attached invoice(s), purchase order(s),
timesheets, etc., identifying the goods or services purchased, cancelled checks or other official banking
documentation verifying that payment has actually been made by the Second Party, and documentation
that the local procurement process has been followed. However, though this section states the general
supporting documentation for most items, it does not list specific source documents required to support
subrecipient payroll.
Not having the specific source documents required for reimbursement listed in the policies and
procedures increases the likelihood that the State could reimburse a subrecipient prior to that
subrecipient paying for the cost (i.e. on the advance basis).

Recommendation

We recommend that KOHS ensure that all reviews of subrecipient reimbursement requests include a
review to ensure proper documentation to support of the cost is included prior to processing the
reimbursement request.


Equipment and Property Management
Equipment Monitoring Procedures

The policies and procedures for KOHS's subrecipient monitoring did not require the grant staff to verify
that subgrantees were maintaining adequate equipment inventory lists to comply with Federal
requirements. In addition, Subrecipient equipment inventory lists received by KOHS did not include all the
information required under federal regulations. Specifically, we selected ten equipment items from
subrecipients and requested the subrecipient listings obtained by KOHS to ensure that the listing
contained all of the federal required components. Based on our testing, we noted the following:
          All 10 items of equipment were missing the condition and the percentage of federal ownership,
          8 out of the 10 items were missing the cost and the acquisition date,
          4 out of the 10 items were missing the location of the asset.
44 CFR part 13.32 (d) (1) requires that SAAs keep property records with the following information about
the equipment: description (including serial number or other identification number), source, who holds
title, acquisition date and cost, percentage of Federal participation in the cost, location, condition, and any
ultimate disposition data including, the date of disposal and sales price or method used to determine
current fair market value.
KOHS indicated that it has had difficulty obtaining the information from subrecipients, even though it is
listed as a requirement in the grant agreements. Furthermore, it was stated by the grant manager that
the policies for subrecipient monitoring were written without requirements to verify the property control
information was available from the subrecipients. Therefore, KOHS did not check the equipment listings
from subrecipients for this information.
Not having adequate procedures to ensure that subrecipients are properly tracking and maintaining
equipment could result in costs related to the purchase of those equipment items being questioned.
Specifically, without the required data elements in the subrecipient equipment control lists, it would be
difficult to track equipment purchased with federal funds and ensure the items were being used for their


                                            www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                81
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                              10



federally-funded purpose. Additionally, upon disposition of the items, without appropriate documentation
of percentage of federal participation, it is possible the federal government would not be properly notified
of the disposal.
Recommendation

We recommend KOHS maintain adequate property controls procedures to ensure inventory listings
maintained by subrecipients include all federally required elements outlined in Title 44 CFR 13.32 (d) (1).
Verifying that the subrecipients are capturing the proper information in their property control records could
be documented during on-site visits during the course of the project or by requiring the property control
information to be submitted along with the corresponding requests for reimbursement.

Reporting
Report Reviews

KOHS did not perform an independent review of the information contained in the BSIR or the SF425
reports prior to submission. The individual preparing the reports from the source documents entered the
data into the online reporting systems and also submitted the reports to the Federal government.

Prudent business practices include having internally prepared reports reviewed by management
personnel with knowledge of the information that should be contained within the reports. Per KOHS
personnel, KOHS policies did not require a review of the financial or programmatic reports because the
information is thoroughly checked prior to filling out the reports (normally online) and it is not feasible with
the current workload to have an additional person review all the programmatic and fiscal reports prior to
submission.

By not having a management review of the reports prior to their submission, there is an increased risk of
inaccurate data being submitted to the Federal government.

Recommendation

To ensure the reasonableness of the data in the reports as well as other steps to help management gain
assurance the information is correct prior to submission of the reports, we recommend KOHS revise their
procedures for preparing and submitting fiscal and programmatic reports to include a review from an
independent person with the appropriate skills within the organization.


Timeliness and Accuracy of Reports

During our procedures over reporting, we noted the following exceptions:
    	 One of 8 reports (2 BSIRs, 2 CAPRs and 4 SF425s) tested was not filed by the deadline.
        Specifically, a SF425 report was submitted on November 2, 2011, which is 3 days after the
        deadline of 10/30/11.
    	 Two of 6 reports tested contained an incorrect amount in the report. Specifically the December
        31, 2010 SF425 had a Recipient Share of Expenditures of $0.31. However, support
        documentation showed this amount as $21,155,757.90. In addition, the June 2011 BSIR
        contained an expended amount of $4,503,160.00 for Investment Justification number 3 - KSP
        Project. However, the supporting documentation from the accounting system showed
        expenditures of $6,022,835.84.


                                            www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                 82
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                          11



     	    The Required Recipient Share amount was incorrect on all 4 of the SF425 reports tested.
           Specifically, the amounts reported on the SF425 ($3,081,125 for recipient share) did not equal
           25% of the federal award amount (should have been $3,851,406.25 = $15,405,625 x 25%).
           Although the Required Recipient Share was reported as less than the proper amount, it did not
           result in improper requests for reimbursement or incorrect reporting of actual expenditure
           amounts.

The incorrect amounts appeared to be caused by data entry errors by the KOHS staff preparing the
reports. According to KOHS personnel, one report was not filed timely due to a temporary increase in
workload which caused the employee to not be able to complete and submit the report on time. Related
to the incorrect Required Recipient Share amounts, KOHS personnel stated they believed the reports to
reflect the amount on the original award letter from Commerce.

Accurate reporting is necessary for the users of the reported information to be able to make appropriate
decisions based on that information. For timely reporting, according to the Public Safety Interoperable
Communication Grant Program, Program Management Handbook, (Handbook), “Reporting provides an
effective way for both the SAA and the Federal government to monitor grant recipient progress against
the Investments.” The Handbook further notes the BSIR is due on the 30th of January and July. For the
timely reporting of the SF425s, the FFR instructions state that the quarterly reporting periods will be the
quarters that end with 3/31, 6/30, 9/30 and 12/31. The quarterly SF425 reports are due within 30 days of
quarter end.

By not filing an SF425 timely, KOHS may not have allowed the federal oversight agency to have
adequate time in which to make decisions or take action related to the information in the report. By
reporting incorrect amounts, KOHS may cause the federal oversight agency to make improper decisions
based on the incorrect data. This could also lead the federal oversight agency to question the costs of the
PSIC program.

Recommendation

We recommend KOHS implement procedures to have someone at an appropriate level within the
organization (other than the person who prepared the reports) review the reports for accuracy and
reasonableness prior to their submission. This review should be documented. Additionally, we
recommend KOHS put into place a system to remind staff and management of due dates for federal
reports.



Subrecipient Monitoring
Subrecipient Grant Agreements

During our testing of subrecipient grant agreements, we noted that 3 out of 3 grant agreements selected
for testing did not include the Catalog of Federal Domestic Assistance (CFDA) number or the name of the
federal awarding agency as required by OMB Circular A-133.

Subpart D--Federal Agencies and Pass-Through Entities paragraph 400(d)(1) - Pass-through entity
responsibilities - of the Office of Management and Budget (OMB) Circular A-133 - Audits of State and
Local Governments states that "A pass-through entity shall perform the following for the Federal awards it



                                            www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             83
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 17, 2012                                                                                          12



makes: (1) Identify Federal awards made by informing each subrecipient of CFDA title and number,
award name and number, award year, if the award is R&D, and name of Federal agency.”

Not providing this information to a subrecipient is a violation of OMB Circular A-133 and could result in
inaccurate reporting by the subrecipient of their federal grant expenditures.

Recommendation

We recommend that the department ensure that the CFDA number and federal awarding agency is
clearly identified in all grant agreements in accordance with OMB Circular A-133.


Other Matters
National Environmental Policy Act (NEPA)
The PSIC Program Guidance and Application Kit, August 2007, required grantees to comply with the
terms of NEPA prior to expenditure of grant funds. We tested all 7 projects within KOHS’s 3 Investment
Justifications and noted 1 project (14%) had incurred expenditures prior to NEPA approval. The first
expenditures under the project were made 163 days prior to obtaining NEPA approval for the project.
Because the project did eventually receive NEPA approval, there is no remedial action that can be taken
by KOHS. Accordingly, we make no recommendation at this time.




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             84
Appendix Q: South Carolina Law Enforcement Division




South Carolina Law Enforcement Division –
PSIC Performance Audit
April 2012
Submitted to:
Mr. Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Submitted by:
Bert Nuehring
Crowe Horwath LLP
1325 G Street NW, Suite 500
Washington, D.C. 20005-3136
Direct 954.489.7433
Main 202.624.5555
Fax 202.624.8858
Bert.nuehring@crowehorwath.com




                                                             85
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012




Table of Contents
Performance Audit Report

Summary ................................................................................................................................................. 1
 
  Results ................................................................................................................................................. 1
 

Background ............................................................................................................................................ 3
 

Objectives, Scope and Methodology ................................................................................................... 5
 

Findings And Recommendations ......................................................................................................... 6
 
   1. Cash Management ......................................................................................................................... 6
 
   2. Allowable Costs .............................................................................................................................. 7
 
   3. Reporting ........................................................................................................................................ 7
 
   4. Subrecipient Monitoring .................................................................................................................. 8
 

Other Matters .......................................................................................................................................... 9
 
  Administrative Costs ............................................................................................................................ 9
 
  National Environmental Policy Act (NEPA) ....................................................................................... 10
 




                                                                www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                                                                  86
                                                                                  Crowe Horwath LLP
                                                                                  Independent Member Crowe Horwath International

                                                                                  1325 G Street NW, Suite 500
                                                                                  Washington D.C. 20005-3136
                                                                                  Tel 202.624.5555
                                                                                  Fax 202.624.8858
                                                                                  www.crowehorwath.com


April 18, 2012


To: Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Re: South Carolina Law Enforcement Division – PSIC performance audit.


As requested by the Department of Commerce, Office of the Inspector General, we have conducted a
performance audit on the South Carolina Law Enforcement Division (SLED) and its administration of the
Public Safety Interoperable Communications (PSIC) grant, award number 2007-GS-H7-0027, for the
period from October 1, 2007 through September 30, 2011. The report contains a summary of results
followed by background, objectives, scope, methodology, findings and recommendations.

SLED’s management has responsibility for establishing and maintaining internal control and complying
with applicable laws and regulations. Internal control is a process designed to provide reasonable, but not
absolute, assurance regarding the reliability of financial reporting, effectiveness and efficiency of
operations, and compliance with applicable laws and regulations. We gained an understanding of the
overall internal controls, automated and manual, sufficient to plan the performance audit. We considered
significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk exists that some significant misstatements or significant non-compliance may not be
detected, even though the audit is properly planned and performed in accordance with applicable
standards. An audit is not designed to detect errors or fraud that is insignificant to the performance audit
objectives.

During the course of our work we noted internal control findings related to cash management and
allowable costs as well as compliance findings related to reporting, property records for equipment, and
subrecipient monitoring. These findings are detailed further in this report.



Crowe Horwath LLP



Cc:     Patty McBarnette, Audit Director
        Belinda Riley, Audit Supervisor
        Laura Murphy, Audit Team Leader




                                                                                                                      87
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                           1




Summary
Our performance audit scope included PSIC grant activity administered by the South Carolina Law
Enforcement Division (SLED) from October 1, 2007 through September 30, 2011. In conducting this
performance audit we reviewed supporting documentation in conjunction with interviews of SLED staff
having direct knowledge of PSIC grant activities and observations made to support our results, findings
and recommendations. The results are summarized briefly below and are discussed in further detail in
the body of this report.
This performance audit consisted of field work at the State of South Carolina’s SAA, SLED. We
conducted tests of procedures of the recipients’ compliance with laws and regulations, terms and
conditions of the award, federal cost principles, and progress in achieving approved project goals.
SLED’s management has responsibility for establishing and maintaining internal control and complying
with applicable laws and regulations. Internal control is a process designed to provide reasonable, but not
absolute, assurance regarding the reliability of financial reporting, effectiveness and efficiency of
operations, and compliance with applicable laws and regulations. We gained an understanding of the
overall internal controls, automated and manual, sufficient to plan the performance audit. We considered
significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk that some significant misstatements or significant non-compliance may not be detected
exists, even though the audit is properly planned and performed in accordance with applicable standards.
An audit is not designed to detect error or fraud that is insignificant to the performance audit objectives.


Results
The following provides a summary of the findings and recommendations reported within this document.
	   We noted that SLED did not have a policy in place requiring documentation of a managerial review
     and approval of cash drawdown requests prior to submission to FEMA. We recommend SLED
     establish a policy to require a managerial review be documented on each cash drawdown request.

	   We tested controls over SLED’s determination of allowable costs and noted one instance in which a
     request for reimbursement was not supported by proof of payment and one instance in which
     managerial review was not documented on the request for payment We recommend SLED update
     their policies and procedures documents to include procedures:

           1. 	 defining required subrecipient documentation prior to reimbursement; and
           2. 	 requiring managerial review and documentation of the review prior to reimbursement.

	   SLED is required to submit biannual strategy implementation reports (BSIR) and SF425 (formerly
     SF269) reports in accordance with the PSIC Program Management Handbook. SLED was unable to


                                            www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             88
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                          2



     provide documentation that the BSIR reports were based on the underlying accounting records at the
     time the BSIRs were submitted. Also, we noted the SF425 reports were prepared on other than a
     cash basis. We recommend SLED establish procedures as necessary to ensure compliance with the
     PSIC Management Handbook and U.S. Department of Health and Human Services instructions.

	   Equipment inventory records maintained in the subgrantee files did not contain all the data elements
     as required by 44 CFR part 13.32 (d) (1). We recommend SLED require the necessary data
     elements be reported by subgrantees as well as maintain such information relative to any PSIC
     equipment purchases made by SLED.

	   During our testing of the PSIC grant activity we noted that during the audit period SLED did not
     conduct on-site monitoring visits or desk reviews; document the review of subrecipient A-133 audit
     reports; and did not ensure subrecipients maintained equipment inventory in accordance with
     applicable federal guidance. We recommend SLED establish a subrecipient monitoring system to
     ensure subrecipient compliance with applicable federal requirements and to ensure that performance
     goals are being achieved and modify its Single Audit report review policy to require the review of the
     State’s Single Audit report for all relevant findings and to document the review.




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                            89
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                           3




Background
The Digital Television and Public Safety Act of 2005 authorized the U.S. Department of Commerce’s
National Telecommunications and Information Administration (NTIA), in consultation with the Department
of Homeland Security (DHS), to establish and implement a $1 billion one-time, formula based, matching
grant program to assist public safety agencies in the acquisition of, deployment of, or training for the use
of interoperable communications systems that can utilize reallocated public safety spectrum for radio
communications. The Call Home Act of 2006 subsequently directed NTIA to make the grant awards by
September 30, 2007. The Implementing Recommendations of the 9/11 Commission Act of 2007 later
expanded the allowable costs under the award to include planning and coordination costs and
established a strategic technology reserve fund (STR) for deployable communications equipment in the
event of an emergency or disaster. Public law 111-96 extended the period for performance of any
investment approved under the Program by one year, but not later than September 30, 2011, except that
the Assistant Secretary of Commerce for Communications and Information may extend, on a case-by-
case basis, the period of performance for any investment approved under the Program as of that date for
a period of not more than 2 years, but not later than September 30, 2012. The PSIC program was
extended through September 30, 2012 for those Grantees who applied for and were granted extensions
for the allowable period of performance.
The PSIC program made available $968,385,000 in grants for the period of October 1, 2007 through
September 30, 2010 to the 50 States, the District of Columbia, Puerto Rico, American Samoa, Guam,
Northern Mariana Islands, and the U.S. Virgin Islands.
PSIC grant recipients were required to submit a State Communications Interoperable Plan (SCIP) and an
Investment Justification (IJ). The SCIP must address locally-driven interoperable communications
capabilities among local and tribal government entities and authorized nongovernmental organizations.
The IJ detailed individual interoperable communications projects that achieve meaningful and measurable
improvements in interoperability and fill interoperability gaps identified in the statewide plans.
The Governor of each State and Territory designated a State Administrative Agency (SAA) to apply and
administer the funds under the PSIC grant program. The SAA is the sole eligible applicant for PSIC grant
funds and the entity to which PSIC funds are awarded. The SAA has overall responsibility for ensuring
that Investments are implemented as approved and administered in compliance with PSIC program
requirements. The SAA is required to pass-through no less than 80 percent of the total award amount to
local or tribal governments or authorized nongovernmental public safety agencies. Overall, a 20 percent
match is required from non-federal sources for acquisition, deployment and management & administrative
costs of communications equipment.
SLED serves as the SAA for the State of South Carolina. SLED works with state and local governments,
federal agencies and voluntary organizations to provide resources and expertise in law enforcement and
investigation.




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             90
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                         4



As part of SLED’s responsibility as the SAA, the division administers various projects approved as part of
the PSIC grant application process. The table below identifies SLED’s submitted and approved original
Investment Justifications. Each State is required to make provision for a strategic technology reserve
which is also approved in the IJs noted below.

                                                                              Nonfederal
                                                         PSIC Funds             Match
               PSIC Investment Justification              Awarded             (budgeted)             Total

 1. Western Piedmont Interoperability Initiative          $  2,000,000               500,000      $ 2,500,000
 2. SC Dept. of Public Safety Communications                   107,520                26,880           134,400
 3. Georgetown County Simulcast Upgrade                      1,100,000               275,000         1,375,000
 4. Greenville County Simulcast Upgrade                      3,500,000               875,000         4,375,000
 5. Statewide Interoperability                                 700,000               183,325           883,325
 6. Jasper County Tower                                        608,000               142,000           750,000
 7. Charleston Consolidated 911 Dispatch                       500,000                     -           500,000
 8. Statewide Radio Interoperability                         3,500,007               875,002         4,375,009
 9. Strategic Technology Reserve                             1,045,502               261,375         1,306,877
 M&A                                                           404,979               101,245           506,224
 Statewide Planning                                             33,300                     -            33,300
 Total                                                    $ 13,499,308             3,239,827      $ 16,739,135

As part of our work we analyzed SLED’s progress toward completing the approved investments within the
remaining grant period. As of September 30, 2011, SLED had $1,735,221 in PSIC funds remaining to
expend. SLED stated they will complete the nine approved investments by the extension date of
June 30, 2012. We noted no evidence to indicate that any of the investments would not be completed by
June 30, 2012. The table below shows the status of the nine investments as of September 30, 2011.


                                                         PSIC Funds          PSIC Funds         PSIC Funds
               PSIC Investment Justification              Awarded             Expended          Remaining
 1. Western Piedmont Interoperability Initiative          $  2,116,800             1,702,369     $   414,431
 2. SC Dept. of Public Safety Communications                   307,520               307,520               -
 3. Georgetown County Simulcast Upgrade                      1,145,531               893,446         252,085
 4. Greenville County Simulcast Upgrade                      3,500,000             3,500,000               -
 5. Statewide Interoperability                                 733,300               170,984         562,316
 6. Jasper County Tower                                        608,000               555,765          52,235
 7. Charleston Consolidated 911 Dispatch                       140,650               140,650               -
 8. Statewide Radio Interoperability                         3,497,026             3,448,359          48,667
 9. Strategic Technology Reserve                             1,045,502             1,044,994             508
 M&A                                                           404,979                     -         404,979
 Statewide Planning                                                  -                     -               -
 Total                                                    $ 13,499,308            11,764,087     $ 1,735,221



                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                           91
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                            5




Objectives, Scope and Methodology
In general, the objective of our performance audit was to determine whether grantees are administering
PSIC grant funds in accordance with federal requirements. In meeting this objective we determined
whether; (1) costs incurred by grantees receiving PSIC funds from the Department of Commerce are
allowable and in accordance with grant requirements; (2) grantees are meeting matching share
requirements; (3) grant funds are being effectively managed; (4) grantees have appropriately acquired,
tested, and implemented PSIC equipment; (5) grantees are achieving the approved PSIC Investment
Justification goals; and (6) grantees are on track to complete interoperable communications investments
by September 30, 2011 or with an approved extension, by September 30, 2012.

This performance audit consisted of field work at the State of South Carolina’s SAA, SLED. We
conducted tests of procedures and of the recipients’ compliance with laws and regulations, terms and
conditions of the award, federal cost principles, and progress in achieving approved project goals. We
evaluated the use and administration of PSIC funds from the beginning of the program to September 30,
2011.
Based on consultation with the Department of Commerce Office of Inspector General, state agencies
receiving PSIC grant funds directly from the SAA are to be treated as subrecipients for the purposes of
this performance audit.
As part of designing the performance audit tests to be performed, we considered the following documents
as they are applicable to SLED and the subrecipients.
     a. 	 PSIC Grant Program Guidance and Application Kit, Revised August 16, 2007
     b. 	 Public Safety Interoperable Communications Grant Program, Program Management Handbook,
          October 2009
     c. 	 FEMA Information Bulletin No. 268, October 19, 2007
     d. 	 Office of Grant Operations Financial Management Guide January 2006
     e. 	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
     f. 	 OMB Circular A-102, Grants and Cooperative Agreements with State and Local Governments
          (codified at 15 C.F.R. Part 24)
     g. 	 OMB Circular A-133, Audits of States, Local Governments, and Non-profit Organizations
     h. 	 OMB Circular A-133 Compliance Supplement, CFDA 11.555, released March, 2008
     i. 	 Department of Commerce Financial Assistance Standard Terms and Conditions, May 2007
     j. 	 28 CFR Part 66, Uniform Administrative Requirements for Grants and Cooperative Agreements to
          State and Local Governments
     k.	 28 CFR Part 70, Uniform Administrative Requirements for Grants and Agreements (Including
          Subawards) with Institutions of Higher Education, Hospitals, and other Non-profit Organizations
     l. 	 Latest approved State Communication Interoperability Plan (SCIP)
     m. 	 Original signed Grant and Amendments
     n. A 	 pproved Investment Justifications and Clarifications
     o. 	 State Feedback Forms
     p. O 	 rganizational Chart
     q. 	 State of South Carolina policies and procedures.




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                              92
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                           6



We reviewed key controls that had a direct and significant effect on SLED’s ability to comply with the
requirements of the PSIC grant as noted from the various guidance listed above. Specifically we
reviewed controls associated with:
          Allowable Costs
          Activities Allowed
          Cash Management
          Equipment and Property Management
          Matching and Level of Effort
          Period of Availability
          Procurement, Suspension, and Debarment
          Subrecipient Monitoring
          Reporting
We assessed the risk associated with each of the compliance areas noted and tested controls over and
compliance with these requirements based on nonstatistical samples of SLED and subrecipient
transactions, generally focusing on the highest dollar transactions and line items. Since we did not
attempt to extrapolate findings from sample analyses to all transactions, we believe our sampling
methodology represented a reasonable basis for the conclusions and recommendations included in our
report.
We conducted interviews with individuals with direct knowledge and responsible for the administration
and oversight of the PSIC grant activities. We analyzed supporting documentation provided to us by
SLED to corroborate both control and compliance activities. Documents we analyzed included
subrecipient grant applications and reports, expenditure support, cash drawdowns, procurement policies
and procedures as well as documentation of subrecipient monitoring.
In addition, we tested the validity and reliability of computer-processed data supplied by SLED by directly
testing data against supporting documentation. Based on our tests, we concluded the computerized data
were reliable for use in meeting our objectives.




Findings And Recommendations
1. Cash Management
SLED provided copies of policies and procedures during the audit. However, upon reviewing those
policies and through discussion with staff, we noted there were no established procedures for
documentation of managerial review of cash drawdown requests prior to submission.
Although SLED has procedures in place to prepare the drawdown requests, prudent business practices
require someone at an appropriate level within the organization review and approve requests such as
cash drawdowns prior to their submission. SLED staff indicated that a manager did review the drawdown
requests but only provided verbal approval. In our compliance testing over cash drawdown requests, we
did not note any discrepancies in the supporting documentation. However, this issue is a weakness in the
internal control over the cash drawdown processing.



                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                             93
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                         7



Without procedures requiring written approval of cash drawdown requests, it is possible the requests
could be made without management’s knowledge or could lack sufficient documentation.
Recommendation
We recommend SLED update their cash drawdown procedures to include documentation of a
management review and approval of drawdown requests prior to submission.

2. Allowable Costs
We tested controls over SLED’s determination of allowable costs and noted one instance in which a
request for reimbursement was not supported by proof of payment and another instance in which
managerial review was not documented on the request for payment.
According to SLED personnel, subrecipient requests for reimbursement must include all invoices and
proof of payment prior to SLED providing reimbursement to the subrecipient and making cash drawdown
requests from FEMA. Sled personnel also stated the requests for payment are to have documentation of
a managerial review prior to providing reimbursement to the subrecipient. These procedures were not
documented as part of the SLED policy and procedures manual.
Per discussion with SLED staff, the two errors noted were due to an oversight in the process.
Recommendation
We recommend SLED update their policies and procedures documents to include procedures:

           1. defining required subrecipient documentation prior to reimbursement; and
           2. requiring managerial review and documentation of the review prior to reimbursement.

3. Reporting
Biannual Strategy Implementation Reports
SLED was unable to provide documentation that any of their biannual strategy implementation reports
(BSIR) were based on the underlying accounting records at the time the BSIRs were submitted.
According to the PSIC Handbook, “Reporting provides an effective way for both the SAA and the Federal
government to monitor grant recipient progress against the Investments.” SLED is required to submit the
BSIR semiannually on the 30th day of January and July. The BSIR report is designed to provide a status
of programmatic progress on a semi-annual basis.
SLED personnel stated the lack of supporting documentation for the BSIR was because the reports were
prepared based on information contained in SLED’s online grants management system on the date the
reports were prepared. This grants management system is updated each time a subrecipient provides
SLED with new information related to a grant and the previous information is overwritten. There is no
mechanism within the grants management system to review activity once changes have been made to
the system.
Standard Form 425
SLED staff prepared the SF 425 on a quarterly basis. On each of the reports cash disbursements were
made to equal cash receipts. SLED staff stated it was their understanding the Cash Disbursement
amount in box 10.b of the SF 425 should always match the cash receipt amount in box 10.a – Cash
Receipts, even if more cash had been disbursed than received. This was done to avoid having a
negative amount in box 10.c – Cash on Hand.



                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                           94
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                             8



The U.S. Department of Health and Human Services instructions for preparing the SF 425, page 26
states, Cash Disbursements are “the sum of actual cash disbursements for direct charges for goods and
services….and the amount of cash advances and payments made to subrecipients and contractors.”
Additionally, page 11 of the SF 425 instructions states the Cash on Hand amount “can be a negative
number.”
If programmatic reports (BSIR) cannot be traced back to any supporting documentation or if financial
reports (SF 425) contain information that is not based on underlying accounting data, it is possible the
reports could be incorrect causing management of SLED and the federal oversight agency to make
improper decisions based on that incorrect data.
Recommendation
We recommend SLED develop procedures to ensure an audit trail exists linking the BSIR reports to the
underlying data used to prepare the reports and SLED ensure the SF 425 reports are prepared in
accordance with U.S. Department of Health and Human Services instructions.


4. Subrecipient Monitoring
During our testing of the PSIC grant activity we noted that during the audit period SLED did not conduct
on-site subrecipient monitoring visits or desk reviews; document the review of subrecipient OMB Circular
A-133 audit reports; and did not ensure subrecipients maintained equipment inventory in accordance with
applicable federal guidance.
Monitoring Program
SLED has agreements with nine subrecipients and two state agencies to implement the approved PSIC 

Investments. SLED did not perform any onsite visits or desk reviews of PSIC subgrantee activity during 

the audit period. 

According to the revised August 16, 2007, Public Safety Interoperable Communications Grant Program 

Guidance and Application Kit page 35, SLED is “responsible for monitoring award activities, to include 

subawards, to provide reasonable assurance that the PSIC award is administered in compliance with 

requirements.” It further states, “In addition, the SAA is responsible for monitoring 

subrecipients/subgrantee awards.”

Although the subrecipients are responsible for implementing the PSIC grant activity the State, thru SLED, 

is responsible for monitoring the relevant activities to ensure compliance with applicable federal 

requirements and to ensure performance goals are being achieved. (Title 15, Code of Federal 

Regulations, §24.40) The regulation further requires grantees to monitor subrecipient performance under 

each program, function, or activity of the grant.

Without performing these monitoring activities, there is an increased risk of PSIC funds not being spent in 

accordance with the grant requirements and for program goals to not be met. We did note, however, that 

SLED performed an onsite review of all PSIC subgrantees after the audit period (through September 30, 

2011). 

Without adequate monitoring, SLED could not be sure performance data submitted was accurate or that 

equipment was being used for the intended purpose. 

According to SLED personnel, they understood having a second person review the subrecipients’ 

requests for reimbursement to qualify as a desk review. Additionally, they stated the previous

administration had established different priorities and had not allocated resources for onsite monitoring 

visits. 




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                               95
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                                  9



OMB Circular A-133 Audit Review
Part of an adequate monitoring system includes the review of audit reports received by subrecipients for
any items that may impact the PSIC grant. SLED has a policy and procedure for reviewing the Office of
Management and Budget (OMB) Circular A-133 audits, also known as the Single Audit reports, from
subrecipients. However, the policy did not require the review to be documented. Therefore, SLED was
unable to provide documentation that the required reviews had taken place. According to SLED
personnel, the required reviews were performed, but as long as no findings directly affecting PSIC activity
were noted in the Single Audit reports, there would be nothing to document. This was caused by an
oversight in the current policy which did not require the review to be documented regardless of the
existence of findings that might impact PSIC funds.

Equipment Inventory
SLED did not ensure subrecipients maintained adequate equipment inventory records for equipment
purchased with PSIC funds. We tested ten equipment items purchased with PSIC funds by five
subgrantees. We noted the following:
                 	    all items tested did not have the percentage of federal participation included as part of the
                       inventory record.
                 	    two items were missing the serial numbers.
                 	    two items were missing serial numbers, titles, acquisition dates, locations, and condition.
44 CFR part 13.32 (d) (1) requires that SAAs keep property records with the following information about
the equipment: description (including serial number or other identification number), source, who holds
title, acquisition date and cost, percentage of Federal participation in the cost, location, condition, and any
ultimate disposition data including, the date of disposal and sales price or method used to determine
current fair market value.
Even though SLED’s subgrantee agreements include a requirement that the equipment records should
contain all the data elements, the Division’s staff stated it was difficult to obtain the information from
subgrantees.
Recommendation
We recommend SLED:
     1. 	 establish a subrecipient monitoring system to ensure subrecipient compliance with Title 15 CFR
          §24.4 and Title 44 CFR §13.32 (d) (1).
     2. 	 modify its Single Audit report review policy to require the review of subgrantee Single Audit
          reports for all relevant findings and to document such review.
     3. 	 ensure compliance with to Title 44 CFR part 13.32 (d)(1), property inventory records.


Other Matters
Administrative Costs
During our audit period we noted SLED did not charge any administrative expenses to the PSIC grant.
However, during fieldwork, we noted that SLED had requested and received reimbursement for
administrative expenses equal to the full amount budgeted. SLED personnel stated the methodology
used to determine the administrative expenses charged to the PSIC grant was a proportional allocation
based on total grant dollars managed. The allocation was not based on actual level of effort to administer
each grant.


                                                 www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                    96
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 18, 2012                                                                                       10



Subsequent to audit fieldwork, SLED management began a process of documenting grant staffs’ actual
time spent working on various activities including grants administration. SLED plans to allocate personnel
services cost based on the proportion of effort of each grant staff’s time to each grant and task.
Once the new levels of effort are documented and administrative expenses are recalculated by SLED, the
division plans to submit a revised drawdown request, if necessary.

National Environmental Policy Act (NEPA)
The PSIC Program Guidance and Application Kit, August 2007, required grantees to comply with the
terms of NEPA prior to expenditure of grant funds. We tested one project within all nine of SLED’s
approved Investment Justifications (IJ) and noted eight of the IJ’s (89%) had projects which incurred
expenditures prior to NEPA approval. The first expenditures under the projects ranged from 38 days to
742 days prior to obtaining NEPA approval for the specific projects. Because SLED obtained NEPA
approval once requested by NTIA, there is no remedial action that can be taken by SLED. Accordingly,
we make no recommendation at this time.




                                         www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                          97
Appendix R: Virginia Department of Emergency
Management




Virginia Department of Emergency
Management – PSIC Performance Audit
April 2012
Submitted to:
Mr. Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Submitted by:
Bert Nuehring
Crowe Horwath LLP
1325 G Street NW, Suite 500
Washington, D.C. 20005-3136
Direct 954.489.7433
Main 202.624.5555
Fax 202.624.8858
Bert.nuehring@crowehorwath.com




                                                             98
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012




Table of Contents
Performance Audit Report

Summary ................................................................................................................................................. 1
 
  Results ................................................................................................................................................. 1
 

Background ............................................................................................................................................ 3
 

Objectives, Scope and Methodology ................................................................................................... 5
 

Findings And Recommendations ......................................................................................................... 6
 
   1. Subrecipient Monitoring ................................................................................................................... 6
 
   2. Reporting ......................................................................................................................................... 8
 
   3. Procurement .................................................................................................................................... 8
 

Other Matters .......................................................................................................................................... 9
 
  Matching .............................................................................................................................................. 9
 
  National Environmental Policy Act (NEPA) ......................................................................................... 9
 




                                                                www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                                                                  99
                                                                                  Crowe Horwath LLP
                                                                                  Independent Member Crowe Horwath International

                                                                                  1325 G Street NW, Suite 500
                                                                                  Washington D.C. 20005-3136
                                                                                  Tel 202.624.5555
                                                                                  Fax 202.624.8858
                                                                                  www.crowehorwath.com


April 16, 2012


To: Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW 7085
Washington, DC 20230

Re: Virginia Department of Emergency Management – PSIC performance audit.


As requested by the Department of Commerce, Office of the Inspector General, we have conducted a
performance audit on the Virginia Department of Emergency Management (VDEM) and its administration
of the Public Safety Interoperable Communications (PSIC) grant, award number 2007-GS-H7-0027, for
the period from October 1, 2007 through September 30, 2011. The report contains a summary of results
followed by background, objectives, scope, methodology, and findings and recommendations.

VDEM’s management has responsibility for establishing and maintaining internal control and complying
with applicable laws and regulations. Internal control is a process designed to provide reasonable, but not
absolute, assurance regarding the reliability of financial reporting, effectiveness and efficiency of
operations, and compliance with applicable laws and regulations. We gained an understanding of the
overall internal controls, automated and manual, sufficient to plan the performance audit. We considered
significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk exists that some significance misstatements or significant non-compliance may not be
detected, even though the audit is properly planned and performed in accordance with applicable
standards. An audit is not designed to detect errors or fraud that is insignificant to the performance audit
objectives.

During the course of our work we noted compliance findings relating to a lack of subrecipient monitoring,
timely and accurate reporting, and procurement policies. We also noted an item related to the tracking of
matching funds which is not considered as a finding but is included in this report for informational
purposes. The findings noted are detailed further in the attached report.



Crowe Horwath LLP



Cc:     Patty McBarnette, Audit Director
        Belinda Riley, Audit Supervisor
        Laura Murphy, Audit Team Leader




                                                                                                                     100
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                           1




Summary
Our performance audit scope included PSIC grant activity administered by the Virginia Department of
Emergency Management (VDEM) from October 1, 2007 through September 30, 2011. In conducting this
performance audit we reviewed supporting documentation in conjunction with conducting interviews of
VDEM staff having direct knowledge of PSIC grant. The results are summarized briefly below and are
discussed in further detail in the body of this report.
This performance audit consisted of field work at the State of Virginia’s SAA, VDEM. We conducted tests
of procedures of the recipients’ compliance with laws and regulations, terms and conditions of the award,
federal cost principles, and progress in achieving approved project goals.
VDEM’s management has responsibility for establishing and maintaining internal control and complying
with applicable laws and regulations. Internal control is a process designed to provide reasonable, but not
absolute, assurance regarding the reliability of financial reporting, effectiveness and efficiency of
operations, and compliance with applicable laws and regulations. We gained an understanding of the
overall internal controls, automated and manual, sufficient to plan the performance audit. We considered
significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk that some significant misstatements or significant non-compliance may not be detected
exists, even though the audit is properly planned and performed in accordance with applicable standards.
An audit is not designed to detect error or fraud that is insignificant to the performance audit objectives.


Results
The following provides a summary of the findings and recommendations reported within this document.
	   We noted that the VDEM did not have a system in place to adequately monitor the 15 subrecipients
     and 4 state agencies responsible for implementing the PSIC Investments. We recommend VDEM
     establish and maintain a risk based system of monitoring subrecipients.

	   VDEM is required to submit biannual strategy implementation report (BSIR) and SF425 (formerly
     SF269) reports in accordance with PSIC Program Management Handbook. We noted 4 of the 19
     reports tested did not comply with the requirements of the handbook. The non-compliance noted
     included untimely submission, reports not agreeing to underlying financial records, and a report not
     signed by a member of management prior to submission. We recommend VDEM establish further
     procedures as necessary to ensure compliance with the PSIC Management Handbook.

	   The State of Virginia State purchasing policy is followed by VDEM when procuring goods and
     services with grant funds. This policy does not include a requirement for an analysis to be conducted
     to determine whether a lease or a purchase would be the most economical and practical procurement
     for federally funded purchases. This type of lease/purchase analysis is required by 2 CFR 215.43.



                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                         101
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                          2



           We recommend that the State amend its procurement manual to include the requirements of
           2 CFR Part 215.43 to analyze the benefits of lease versus purchase procurements.

	   During the initial years of the PSIC grant VDEM did not require subrecipients to report matching funds
     or in kind activities on an ongoing basis. This was caused, in part, by confusion at VDEM due to
     conflicting instructions provided by NTIA. Since the fall of calendar year 2010, VDEM has required
     the reporting of match with each reimbursement request from the subrecipients.




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                        102
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                           3




Background
The Digital Television and Public Safety Act of 2005 authorized the U.S. Department of Commerce’s
National Telecommunications and Information Administration (NTIA), in consultation with the Department
of Homeland Security (DHS), to establish and implement a $1 billion one-time, formula based, matching
grant program to assist public safety agencies in the acquisition of, deployment of, or training for the use
of interoperable communications systems that can utilize reallocated public safety spectrum for radio
communications. The Call Home Act of 2006 subsequently directed NTIA to make the grant awards by
September 30, 2007. The Implementing Recommendations of the 9/11 Commission Act of 2007 later
expanded the allowable costs under the award to include planning and coordination costs and
established a strategic technology reserve fund (STR) for deployable communications equipment in the
event of an emergency or disaster. Public law 111-96 extended the period for performance of any
investment approved under the Program by one year, but not later than September 30, 2011, except that
the Assistant Secretary of Commerce for Communications and Information may extend, on a case-by-
case basis, the period of performance for any investment approved under the Program as of that date for
a period of not more than 2 years, but not later than September 30, 2012. The PSIC program was
extended through September 30, 2012 for those Grantees who applied for and were granted extensions
for the allowable period of performance.
The PSIC program made available $968,385,000 in grants for the period of October 1, 2007 through
September 30, 2010 to the 50 States, the District of Columbia, Puerto Rico, American Samoa, Guam,
Northern Mariana Islands, and the U.S. Virgin Islands.
PSIC grant recipients were required to submit a State Communications Interoperable Plan (SCIP) and an
Investment Justification (IJ). The SCIP must address locally-driven interoperable communications
capabilities among local and tribal government entities and authorized nongovernmental organizations.
The IJ detailed individual interoperable communications projects that achieve meaningful and measurable
improvements in interoperability and fill interoperability gaps identified in the statewide plans.
The Governor of each State and Territory designated a State Administrative Agency (SAA) to apply and
administer the funds under the PSIC grant program. The SAA is the sole eligible applicant for PSIC grant
funds and the entity to which PSIC funds are awarded. The SAA has overall responsibility for ensuring
that Investments are implemented as approved and administered in compliance with PSIC program
requirements. The SAA is required to pass-through no less than 80 percent of the total award amount to
local or tribal governments or authorized nongovernmental public safety agencies. Overall, a 20 percent
match is required from non-federal sources for acquisition, deployment and management & administrative
costs of communications equipment.
VDEM serves as the SAA for the State of Virginia. Established by the Commonwealth of Virginia and the
Emergency Services and Disaster Law of 2000, VDEM reports to the Secretary of Public Safety and the
Governor of Virginia. VDEM works with state and local governments, federal agencies and voluntary
organizations to provide resources and expertise in emergency management.




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                         103
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                        4



As part of VDEM’s responsibility as the SAA, VDEM administers various projects approved as part of the
PSIC grant application process. The table below identifies VDEM’s submitted and approved Investments.
Each State is required to make provision for a strategic technology reserve which is also approved in the
Investments noted below.

                                                                             Nonfederal
                                                         PSIC Funds            Match
               PSIC Investment Justification              Awarded            (budgeted)            Total

 1. Strategic Reserve                                    $   4,543,187      $      559,277     $ 5,102,464
 2. NOVA Data Interoperability                               4,985,641           1,200,544       6,186,185
 3. Technology Connectivity and Sustainability               5,064,700           1,178,709       6,243,409
 4. Comms Infrastructure & Nat'l Interop Channels            5,442,479           1,348,120       6,790,599
 5. Tactical Interoperability Solutions: State               3,424,701             790,322       4,215,023
 6. Tactical Interoperability Solutions: Locality               80,000              20,000         100,000
 7. Portable and Mobile Devices                              1,180,000             295,000       1,475,000
 Statewide Planning                                            282,117                   -         282,117
 M&A                                                             9,696               2,424          12,120

 Total                                                   $ 25,012,521       $    5,394,396     $ 30,406,917


As part of our work we analyzed VDEM’s progress toward completing the approved investments within
the remaining grant period. As of September 30, 2011, VDEM had $5,484,274 in PSIC funds remaining
to expend. VDEM stated they will complete the seven approved investment by the extension date of
September 30, 2012. We noted no evidence to indicate that any of the investments would not be
completed by September 30, 2012. The table below shows the status of the seven investments as of
September 30, 2011.


                                                                          PSIC Funds          PSIC Funds
     PSIC Investment Justification             PSIC Funds Awarded          Expended           Remaining
 1. Strategic Reserve                            $   4,543,187           $ 2,408,429         $ 2,134,758
 2. NOVA Date Interoperability                       4,985,641               4,466,936           518,705
 3. Technology Connectivity and
 Sustainability                                       5,064,700               3,251,789         1,812,911
 4. Comms Infrastructure & Nat'l
 Interop Channels                                     5,442,479               4,449,501           992,978
 5. Tactical Interoperability Solutions:
 State                                                3,424,701               3,399,778            24,923
 6. Tactical Interoperability Solutions:
 Locality                                                80,000                77,937              2,063
 7. Portable and Mobile Devices                       1,180,000             1,182,063             (2,063)
 Statewide Planning                                     282,117               282,117                  -
 M&A                                                      9,696                 9,696                  -
 Total                                           $   25,012,521          $ 19,528,246        $ 5,484,275


                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                      104
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                            5




Objectives, Scope and Methodology
In general, the objective of our performance audit is to determine whether grantees are administering
PSIC grant funds in accordance with federal requirements. In meeting this objective we will determine
whether; (1) costs incurred by grantees receiving PSIC funds from the Department of Commerce are
allowable and in accordance with grant requirements; (2) grantees are meeting matching share
requirements; (3) grant funds are being effectively managed; (4) grantees have appropriately acquired,
tested, and implemented PSIC equipment; (5) grantees are achieving the approved PSIC Investment
Justification goals; and (6) grantees are on track to complete interoperable communications investments
by September 30, 2011 or with an approved extension, by September 30, 2012.

This performance audit consisted of field work at the State of Virginia’s SAA, VDEM. We conducted tests
of procedures of the recipients’ compliance with laws and regulations, terms and conditions of the award,
federal cost principles, and progress in achieving approved project goals. We evaluated the use and
administration of PSIC funds from the beginning of the program to September 30, 2011.
Based on consultation with the Department of Commerce Office of Inspector General, state agencies
receiving PSIC grant funds directly from the SAA are to be treated as subrecipients for the purposes of
this performance audit.
As part of designing the performance audit test to be performed, we considered the following documents
as they are applicable to VDEM and the subrecipients.
     a. 	 PSIC Grant Program Guidance and Application Kit, Revised August 16, 2007.
     b. 	 Public Safety Interoperable Communications Grant Program, Program Management Handbook,
          October 2009.
     c. 	 FEMA Information Bulletin No. 268, October 19, 2007.
     d. 	 Office of Grant Operations Financial Management Guide January 2006.
     e. 	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments.
     f. 	 OMB Circular A-102, Grants and Cooperative Agreements with State and Local Governments
          (codified at 15 C.F.R. Part 24).
     g. 	 OMB Circular A-133, Audits of States, Local Governments, and Non-profit Organizations.
     h. 	 OMB Circular A-133 Compliance Supplement, CFDA 11.555, released March, 2008.
     i. 	 Department of Commerce Financial Assistance Standard Terms and Conditions, May 2007.
     j. 	 28 CFR Part 66, Uniform Administrative Requirements for Grants and Cooperative Agreements to
          State and Local Governments.
     k.	 28 CFR Part 70, Uniform Administrative Requirements for Grants and Agreements (Including
          Subawards) with Institutions of Higher Education, Hospitals, and other Non-profit Organizations.
     l. 	 Latest approved State Communication Interoperability Plan (SCIP).
     m. 	 Original signed Grant and Amendments.
     n. A 	 pproved Investment Justifications and Clarifications.
     o. 	 State Feedback Forms.
     p. O 	 rganizational Chart.
     q. 	 State of Virginia policies and procedures.




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                          105
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                         6



We reviewed key controls that had a direct and significant effect on VDEM’s ability to ensure compliance
with the requirements of the PSIC grant as noted from the various guidance listed above. Specifically we
reviewed controls over:
                      Allowable Costs
                      Activities Allowed
                      Cash Management
                      Equipment and Property Management
                      Matching Level of Effort
                      Period of Availability
                      Procurement, Suspension, and Debarment
                      Subrecipient Monitoring
                      Reporting
We assessed the risk associated with each of the compliance areas noted and tested controls and
compliance with these requirements based on nonstatistical samples of VDEM and subrecipient
transactions, generally focusing on the highest dollar transactions and line items. Since we did not
attempt to extrapolate findings from sample analyses to all transactions, we believe our sampling
methodology represented a reasonable basis for the conclusions and recommendations included in our
report.
We conducted interviews with individuals with direct knowledge and responsible for the administration
and oversight of the PSIC grant activities. We analyzed supporting documentation provided to us by
VDEM to corroborate both control and compliance activities. Documents we analyzed included
subrecipient grant applications and reports, expenditure support, cash drawdowns, procurement policies
and procedures as well as documentation of subrecipient monitoring.
In addition, we verified the validity and reliability of computer-processed data supplied by VDEM by
directly testing data against supporting documentation. Based on our tests, we concluded the
computerized data were reliable for use in meeting our objectives.



Findings And Recommendations
1. Subrecipient Monitoring
VDEM did not have a monitoring plan in place to monitor its subrecipients in accordance with applicable
requirements.
Onsite Monitoring Program
VDEM has agreements with 15 subrecipients and 4 state agencies to implement the approved PSIC
Investments. VDEM administers the PSIC program on a reimbursement basis and therefore,
subrecipients must submit proof of payment prior to reimbursement from VDEM. VDEM uses the
reimbursement requests as a basis for drawdowns from PSIC.
According to the revised August 16, 2007, Public Safety Interoperable Communications Grant Program
Guidance and Application Kit page 35, VDEM is “responsible for monitoring award activities, to include
subawards, to provide reasonable assurance that the PSIC award is administered in compliance with


                                                  www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                         106
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                        7



requirements.” It further states, “In addition, the SAA is responsible for monitoring
subrecipients/subgrantee awards.”
Although the subrecipients are responsible for implementing the PSIC grant activity the State, thru VDEM,
is responsible for monitoring the relevant activities to ensure compliance with applicable federal
requirements and to ensure that performance goals are being achieved. (Title 15, Code of Federal
Regulations, §24.40) The regulation further requires grantees to monitor subrecipient performance under
each program, function, or activity of the grant. VDEM did not have a comprehensive risk based
monitoring plan in place to monitor subrecipients receiving PSIC funds. Without a monitoring plan in
place there is an increased risk of PSIC funds not being spent in accordance with the grant requirements
and for program goals to not be met. VDEM has performed 1 on-site visit specific to the PSIC grant
activity since the inception of the grant. There have been 2 other subrecipient visits during the grant
period, however, these visits were not PSIC specific and documentation was not available to confirm what
procedures were performed or what findings resulted. Because a system of monitoring did not exist
VDEM cannot be sure:
     The actual payment of invoices was made by the subrecipient prior to submission of a reimbursement
     request to VDEM. When subrecipients submit invoices for reimbursement to VDEM they did not
     include valid supporting documentation to show that the invoices had been paid prior to the request
     for reimbursement. We noted that subrecipients have provided invoices stamped with “Paid” and
     ledger printouts from various accounting systems. Neither of these types of documentation provides
     adequate support that the invoice had actually been paid prior to submission of the reimbursement
     request. In this instance monitoring visits could substantiate payment by the subrecipient had
     occurred prior to reimbursement by VDEM.
     The performance data submitted was accurate.
     The equipment was actually purchased and was being used for the intended purpose.

According to VDEM personnel, budget constraints have forced the agency to administer all grants under
VDEM’s purview with reduced staffing and there is not adequate staffing capacity to actively perform on-
site monitoring activities.
OMB Circular A-133 Audit Review
Part of an adequate monitoring system includes the review of audit reports received by subrecipients for
any items that may impact the PSIC grant. VDEM has a policy and procedure for annually identifying,
gathering, and reviewing the Office of Management and Budget (OMB) Circular A-133 audits, also known
as the Single Audit reports from subrecipients who are non-state agencies. However, the policy did not
address the review of the Virginia State OMB Circular A-133 audit report for findings that may impact
those state agencies to which VDEM grants PSIC funds. Because the agencies were not included in the
policy, the State’s Single Audit reports were not reviewed for relevant findings. There were 3 state
agencies under the PSIC grant that expend greater than $500,000 annually. According to VDEM
personnel, this was caused by an oversight in the current policy.

Equipment Inventory
VDEM did not ensure subrecipients maintained adequate equipment inventory records for equipment
purchased with PSIC funds. We selected five subrecipient files and two equipment invoices submitted by
each to trace to equipment inventory records. One subrecipient file did not contain an equipment
inventory listing therefore we were unable to verify equipment purchased. For the remaining files tested
were noted only invoice totals were entered on the inventory records. Therefore, individual items
purchased could not be separately identified and it could not be determined if each item was properly
accounted for in the inventory records.



                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                      107
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                           8



According to Title 44 CFR part 13.32 (d)(1), property records are to include the following information
about individual equipment items; a description (including serial number or other identification number),
source, allowed to purchase under FEMA guidelines, who holds title, acquisition date and cost,
percentage of Federal participation in the cost, location, condition, and any ultimate disposition data
including, the date of disposal and sales price or method used to determine current fair market value.
Recommendation
We recommend VDEM establish a monitoring system to ensure subrecipient compliance with applicable
federal requirements and to ensure that performance goals are being achieved. In addition, we
recommend VDEM modify its policies to include a review of the State’s Single Audit report and to ensure
compliance with to Title 44 CFR part 13.32 (d)(1), property inventory records.

2. Reporting
VDEM did not file a BISR report in accordance with program requirements and could not be tied to
supporting documentation. In addition, an SF 425 did not contain evidence that it was reviewed by
management before the report was submitted.
According to the Public Safety Interoperable Communication Grant Program, Program Management
Handbook, (Handbook), “Reporting provides an effective way for both the SAA and the Federal
government to monitor grant recipient progress against the Investments.” VDEM is required to submit the
SF 425 (formerly SF 269) on report quarterly. The SF269/425 includes the amount of federal cash
drawdowns, federal expenditures, unobligated balances, and the recipients’ required matching share.
The Handbook further notes the BSIR is due semiannually on the 30th day of January and July. The BSIR
report is designed to provide a status of programmatic progress on a semi-annual basis.
We tested four of 16 SF 269/425 reports and two of 8 BSIR reports submitted by VDEM for the period
from October 1, 2007 thru September 30, 2011 and noted the following items:
     The BSIR prepared for the June 30, 2009 semi-annual period was filed on July 31, 2009, which was
     one day late. In addition, this BSIR could not be tied to support as the supporting worksheet is “saved
     over” each time the report is generated.
     We noted that the September 30, 2008, SF269/425was not signed by a management representative
     from VDEM. Management best practices would require each report to be reviewed and signed by a
     representative of management. Without a signature on the report it cannot be assumed the
     information was reviewed and approved by management prior to submission.

Recommendation
We recommend VDEM ensure SF269/425 reports tie to supporting financial records and are reviewed
and signed by VDEM management prior to submission to the Federal government. We further
recommend VDEM submit the BSIR reports by the due dates of January 30th and July 30th, as required
by the Handbook.


3. Procurement
VDEM did not have a written procurement policy or procedure related to conducting an analysis of lease
and purchase alternatives to determine which would be the most economical and practical procurement
for the Federal Government. The State of Virginia purchased a mobile command bus for approximately
$260,000 as part of the PSIC grant activity. The State of Virginia policy and procedure manual, Chapter
4, Section 18 discussed the purchasing requirements for rentals/leases and installment purchases. While


                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                         108
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                            9



this section of the policy did cover the purchasing procedures for rentals/leases and installment
purchases it did not discuss the requirement to perform an analysis between purchasing and
renting/leasing in order to make the most economical decision for federally funded purchases.
Title 2 of the Code of Federal Regulations (CFR) Part 215.43 states that "All recipients shall establish
written procurement procedures”. These procedures shall provide for, at a minimum, that paragraphs (a)
(1), (2) and (3) of this section apply". Paragraph (2) of the aforementioned reference states that "Where
appropriate, an analysis is made of lease and purchase alternatives to determine which would be the
most economical and practical procurement for the Federal Government".
Not having a written policy or procedure to conduct this analysis may result in the State using federal
funds to purchase assets that it would be more economical or practical to lease or vice versa.

Recommendation
We recommend that the State amend its procurement manual to include the requirements of 2 CFR Part
215.43 to state that an analysis will be performed, when appropriate, of lease and purchase alternatives
to determine which would be the most economical and practical procurement for the federal
government. The procedures should go on to state the required forms and approvals that would be
necessary to document this analysis.


Other Matters
Matching
VDEM did not track its fiscal matching on an on-going basis to determine that it was in compliance with
the grant requirements. VDEM was required to provide a 20 percent matching share from nonfederal
sources ($4,330,495 required based on the level of expenditures as of September 30, 2011) for
acquisition and deployment of communications equipment as well as management and administration
costs. The match is required and/or further defined by the Digital Television Transition and Public Safety
Act of 2005, Public Law 109-171, Section 3006, the PSIC Grant Program Guidance and Application Kit
and the special award conditions. According to the FEMA Information Bulletin 268, dated October 19,
2007, the matching requirement can be identified and allocated at either the investment level or at the
total PSIC grant level; therefore, individual investments can be under matched or over matched according
to the needs of the grantee.
According to VDEM personnel, during the initial years of the grant period, conflicting direction had been
received by VDEM from the NTIA regarding the reporting of match. It was the understanding of VDEM
personnel that it was not necessary to require subrecipients to report match with each request for
reimbursement. VDEM grant staff indicated that during 2010, NTIA provided clarification that it was
necessary to report match proportionate to the amount of federal funds being requested each quarter.
VDEM then changed its procedures to require subrecipients to report matching activity at the subrecipient
level in order to manage nonfederal match at the state level.
VDEM’s grant includes budgeted matching share of $5,394,395.81, which is comprised of both state
expenditures and subrecipient expenditures. In total, the documented match provided from nonfederal
sources as of September 30, 2011, was $5,479,132.41.

National Environmental Policy Act (NEPA)
The PSIC Program Guidance and Application Kit, August 2007, required grantees to comply with the
terms of NEPA prior to expenditure of grant funds. We tested all 23 projects within VDEM’s seven


                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                          109
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 16, 2012                                                                                    10



approved Investment Justifications and noted 20 projects (87%) had incurred expenditures prior to NEPA
approval. The first expenditures under the projects ranged from 43 days to 813 days prior to obtaining
NEPA approval for the specific projects. Because VDEM obtained NEPA approval once requested by
NTIA, there is no remedial action that can be taken by VDEM. Accordingly, we make no recommendation
at this time.




                                        www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                   110
Appendix S: Michigan Emergency Management
& Homeland Security Division




Michigan Emergency Management &
Homeland Security Division –
PSIC Performance Audit
April 2012
Submitted to:
Mr. Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Submitted by:
Bert Nuehring
Crowe Horwath LLP
1325 G Street NW, Suite 500
Washington, D.C. 20005-3136
Direct 954.489.7433
Main 202.624.5555
Fax 202.624.8858
Bert.nuehring@crowehorwath.com




                                                             111
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 27, 2012




Table of Contents
Performance Audit Report

Summary ................................................................................................................................................. 1
 
  Results ................................................................................................................................................. 1
 

Background ............................................................................................................................................ 2
 

Objectives, Scope and Methodology ................................................................................................... 6
 

Findings And Recommendations ......................................................................................................... 7
 
   1.  Reporting Policies and Procedures............................................................................................. 7
 
   2.  Cash Management ...................................................................................................................... 8
 
   3.  Equipment Inventory ................................................................................................................... 8
 
   4.  Payment Support ........................................................................................................................ 9
 

Other Matters .......................................................................................................................................... 9
 
  BSIR Reporting .................................................................................................................................... 9
 
  Pass-through of Funding ..................................................................................................................... 9
 




                                                                www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP


                                                                                                                                                              112
                                                                                  Crowe Horwath LLP
                                                                                  Independent Member Crowe Horwath International

                                                                                  1325 G Street NW, Suite 500
                                                                                  Washington D.C. 20005-3136
                                                                                  Tel 202.624.5555
                                                                                  Fax 202.624.8858
                                                                                  www.crowehorwath.com


April 27, 2012


To: Andrew Katsaros, Assistant Inspector General for Audit
Department of Commerce, Office of the Inspector General
1401 Constitution Ave. NW Room 7085
Washington, DC 20230

Re: Michigan Emergency Management & Homeland Security Division – PSIC performance audit.


As requested by the Department of Commerce, Office of the Inspector General, we have conducted a
performance audit on the Michigan Emergency Management & Homeland Security Division (MEMHSD)
and its administration of the Public Safety Interoperable Communications (PSIC) grant, award number
2007-GS-H7-0027, for the period from October 1, 2007 through September 30, 2011. The report
contains a summary of results followed by background, objectives, scope, methodology, findings and
recommendations.

MEMHSD’s management has responsibility for establishing and maintaining internal control and
complying with applicable laws and regulations. Internal control is a process designed to provide
reasonable, but not absolute, assurance regarding the reliability of financial reporting, effectiveness and
efficiency of operations, and compliance with applicable laws and regulations. We gained an
understanding of the overall internal controls, automated and manual, sufficient to plan the performance
audit. We considered significance and risk in determining the nature and extent of our audit procedures.

We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk exists that some significant misstatements or significant non-compliance may not be
detected, even though the audit is properly planned and performed in accordance with applicable
standards. An audit is not designed to detect errors or fraud that is insignificant to the performance audit
objectives.

During the course of our work we noted findings relating to financial report review, cash management,
equipment inventory, and evidence of payment prior to reimbursement to subrecipients. This report also
contains an Other Matter regarding MEMHSD’s preparation of the BSIR. These findings are detailed
further in the attached report.




Crowe Horwath LLP

cc:	    Patty McBarnette, Audit Director
        Belinda Riley, Audit Supervisor
        Laura Murphy, Audit Team Leader




                                                                                                                     113
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 26, 2012                                                                                            1




Summary
Our performance audit scope included Public Safety Interoperable Communications (PSIC) grant activity
administered by the Michigan Emergency Management & Homeland Security Division (MEMHSD) from
October 1, 2007 through September 30, 2011. In conducting this performance audit we reviewed
supporting documentation in conjunction with interviews of MEMHSD staff having direct knowledge of
PSIC grant activities and observations made to support our results, findings and recommendations. The
results are summarized briefly below and are discussed in further detail in the body of this report.
This performance audit consisted of field work at the State of Michigan’s State Administering Agency
(SAA), MEMHSD. We conducted tests of procedures of the recipients’ compliance with laws and
regulations, terms and conditions of the award, federal cost principles, and progress in achieving
approved project goals.
MEMHSD’s management has responsibility for establishing and maintaining internal control and
complying with applicable laws and regulations. Internal control is a process designed to provide
reasonable, but not absolute, assurance regarding the reliability of financial reporting, effectiveness and
efficiency of operations, and compliance with applicable laws and regulations. We gained an
understanding of the overall internal controls, automated and manual, sufficient to plan the performance
audit. We considered significance and risk in determining the nature and extent of our audit procedures.
We conducted this performance audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.
Because of inherent limitations of an audit, together with the inherent limitations of internal control, an
unavoidable risk exists that some significant misstatements or significant non-compliance may not be
detected, even though the audit is properly planned and performed in accordance with applicable
standards. An audit is not designed to detect errors or fraud that is insignificant to the performance audit
objectives.


Results
The following provides a summary of the findings and recommendations reported within this document.
     We noted that MEMHSD policies and procedures did not include a process requiring management
     review of PSIC Standard Financial Reports (SFR) prior to submission to the Federal government.
     We recommend MEMHSD modify the current financial reporting policy to include a second level
     review of the financial reports prepared for submission.
     On November 12, 2008, MEMHSD received $3,619,895 in PSIC funds as an advance for the
     purchase of equipment by a subgrantee. On November 18, 2008 $240,648 of the advance was
     returned to MEMHSD. However, MEMHSD did not return or adjust for the returned funds until
     February 13, 2009 or 88 days from the original date of receipt. SAA’s are allowed 30 days in which to
     spend or return PSIC funds after such time the SAA’s must calculate and pay potential interest owed
     to the Federal government. We recommend MEMHSD calculate interest due and pay the calculated
     amount due to Federal government for this time period.
     On a monthly basis MEMHSD reconciles the amount of PSIC funds drawndown to the amounts
     reimbursed to the subgrantees. We noted that the monthly reconciliations are performed at or near
     the end of the month following the month in which the drawdowns occurred. By not performing the


                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP
                                                                                                          114
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 26, 2012                                                                                            2



     reconciliation at or near the end of the month in which the drawdowns actually occurred, the potential
     exists for MEMHSD to not expend funds within 30 days of the drawdown date as required by PSIC
     guidance. We recommend MEMHSD establish procedures to perform the monthly PSIC
     reconciliation at current month end.
     MEMHSD did not ensure equipment inventory records for equipment purchased by subrecipients with
     PSIC funds contain the required fields including federal participation share, serial number, acquisition
     date, location, and condition noted. We recommend that the MEMHSD ensure subrecipient
     equipment inventory records contain the required information in accordance with Title 44 CFR part
     13.32 (d) (1).
     We selected sixteen disbursements and determined that eight did not have proof of payment included
     in the files. Without proof of payment MEMHSD cannot be assured reimbursements to subrecipients
     were for costs actually incurred. We recommend that the MEMHSD modify current procedures to
     require proof of payment from subrecipients for costs to be reimbursed.



Background
The Digital Television and Public Safety Act of 2005 authorized the U.S. Department of Commerce’s
National Telecommunications and Information Administration (NTIA), in consultation with the Department
of Homeland Security (DHS), to establish and implement a $1 billion one-time, formula based, matching
grant program to assist public safety agencies in the acquisition of, deployment of, or training for the use
of interoperable communications systems that can utilize reallocated public safety spectrum for radio
communications. The Call Home Act of 2006 subsequently directed NTIA to make the grant awards by
September 30, 2007. The Implementing Recommendations of the 9/11 Commission Act of 2007 later
expanded the allowable costs under the award to include planning and coordination costs and
established a strategic technology reserve fund (STR) for deployable communications equipment in the
event of an emergency or disaster. Public law 111-96 extended the period for performance of any
investment approved under the Program by one year, but not later than September 30, 2011, except that
the Assistant Secretary of Commerce for Communications and Information may extend, on a case-by-
case basis, the period of performance for any investment approved under the Program as of that date for
a period of not more than 2 years, but not later than September 30, 2012. The PSIC program was
extended through potentially, September 30, 2012 for those Grantees who applied for and were granted
extensions for the allowable period of performance.
The PSIC program made available $968,385,000 in grants for the period of October 1, 2007 through
September 30, 2010 to the 50 States, the District of Columbia, Puerto Rico, American Samoa, Guam,
Northern Mariana Islands, and the U.S. Virgin Islands.
PSIC grant recipients were required to submit a State Communications Interoperable Plan (SCIP) and an
Investment Justification (IJ). The SCIP must address locally-driven interoperable communications
capabilities among local and tribal government entities and authorized nongovernmental organizations.
The IJ detailed individual interoperable communications projects that achieve meaningful and measurable
improvements in interoperability and fill interoperability gaps identified in the statewide plans.
The Governor of each State and Territory designated a State Administrative Agency (SAA) to apply and
administer the funds under the PSIC grant program. The SAA is the sole eligible applicant for PSIC grant
funds and the entity to which PSIC funds are awarded. The SAA has overall responsibility for ensuring
that Investments are implemented as approved and administered in compliance with PSIC program
requirements. The SAA is required to pass-through no less than 80 percent of the total award amount to
local or tribal governments or authorized nongovernmental public safety agencies. Overall, a 20 percent



                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP
                                                                                                          115
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 26, 2012                                                                                     3



match is required from non-federal sources for acquisition, deployment and management & administrative
costs of communications equipment.
MEMHSD serves as the SAA for the State of Michigan. Established by the State of Michigan and the
Michigan Emergency Act of 1976, MEMHSD reports to the Governor of Michigan. MEMHSD works with
state and local governments, federal agencies and voluntary organizations to foster, promote, and
maintain partnerships to protect the state and homeland from all hazards.




                                        www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP
                                                                                                   116
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 26, 2012                                                                                     4



As part of MEMHSD’s responsibility as the SAA, MEMHSD administers various projects approved as part
of the PSIC grant application process. The table below identifies MEMHSD’s submitted and approved
Investments. Each State is required to make provision for a strategic technology reserve which is also
approved in the Investments noted below.

                                                                           Nonfederal
                                                        PSIC Funds           Match
               PSIC Investment Justification             Awarded           (budgeted)           Total
 1. Michigan Public Safety Communications
    System (MPSCS                                       $   2,406,485     $     601,625      $ 3,008,110
 2. Establish & Enhance Multi-Disciplined
    Interoperability in Southwestern & Central
    Michigan                                                7,721,632          1,916,275        9,637,907
 3. Enhance voice and data interoperability and
    provide critical communications functions in
    Southeast Michigan.                                     5,173,648          1,246,819        6,420,467
 4. Enhance and promote advanced
    interoperability in Northern Michigan by
    expanding the statewide network and ensuring
    regional interoperable communications.                  5,585,110          1,425,333        7,010,443
 5. Enhance voice and data interoperability
    between and within state agencies, as well as
    between state agencies and local jurisdictions.         1,382,419           377,715         1,760,134
 6. Establish a Robust Strategic Technological
    Reserve.                                                1,939,294           519,740         2,459,034


 Total                                                  $ 24,208,588      $    6,087,507     $ 30,296,095




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP
                                                                                                   117
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 26, 2012                                                                                    5



As part of our work we analyzed MEMHSD’s progress toward completing the approved investments within
the remaining grant period. As of September 30, 2011, MEMHSD had $5,760,375 in PSIC funds
remaining to expend. MEMHSD stated they will complete the six approved investment by the extension
date of September 30, 2012. We noted no evidence to indicate that any of the investments would not be
completed by September 30, 2012. The table below shows the status of the six investments as of
September 30, 2011.

                                                     PSIC Funds      PSIC Funds        PSIC Funds
            PSIC Investment Justification             Awarded         Expended         Remaining
 1. Michigan Public Safety Communications
    System (MPSCS                                    $   2,406,485   $   2,406,485     $              -
 2. Establish & Enhance Multi-Disciplined
    Interoperability in Southwestern & Central
    Michigan                                             7,721,632       6,275,761         1,445,871
 3. Enhance voice and data interoperability
    and provide critical communications
    functions in Southeast Michigan.                     5,173,648       4,587,657          585,991
 4. Enhance and promote advanced
    interoperability in Northern Michigan by
    expanding the statewide network and
    ensuring regional interoperable
    communications.                                      5,585,110       2,520,941         3,064,169
 5. Enhance voice and data interoperability
    between and within state agencies, as
    well as between state agencies and local
    jurisdictions.                                       2,032,419       1,803,740          228,679
 6. Establish a Robust Strategic
    Technological Reserve.                               1,939,294       1,503,629          435,665
 Total                                               $ 24,858,588    $ 19,098,213      $ 5,760,375

* PSIC Funds Awarded for Investment #5 have been increased by $650,000 to accurately reflect awards
  to State agencies and to be consistent with the modification approved by NTIA on April 12, 2011.




                                            www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP
                                                                                                  118
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 26, 2012                                                                                            6




Objectives, Scope and Methodology
In general, the objective of our performance audit is to determine whether grantees are administering
PSIC grant funds in accordance with federal requirements. In meeting this objective we will determine
whether; (1) costs incurred by grantees receiving PSIC funds from the Department of Commerce are
allowable and in accordance with grant requirements; (2) grantees are meeting matching share
requirements; (3) grant funds are being effectively managed; (4) grantees have appropriately acquired,
tested, and implemented PSIC equipment; (5) grantees are achieving the approved PSIC Investment
Justification goals; and (6) grantees are on track to complete interoperable communications investments
by September 30, 2011 or with an approved extension, by September 30, 2012.
This performance audit consisted of field work at the State of Michigan’s SAA, MEMHSD. We conducted
tests of procedures of the recipients’ compliance with laws and regulations, terms and conditions of the
award, federal cost principles, and progress in achieving approved project goals. We evaluated the use
and administration of PSIC funds from the beginning of the program to September 30, 2011.
Based on consultation with the Department of Commerce Office of Inspector General, state agencies
receiving PSIC grant funds directly from the SAA are to be treated as subrecipients for the purposes of
this performance audit.
As part of designing the performance audit test to be performed, we considered the following documents
as they are applicable to MEMHSD and the subrecipients.
     a. 	 PSIC Grant Program Guidance and Application Kit, Revised August 16, 2007.
     b. 	 Public Safety Interoperable Communications Grant Program, Program Management Handbook,
          October 2009.
     c. 	 FEMA Information Bulletin No. 268, October 19, 2007.
     d. 	 Office of Grant Operations Financial Management Guide January 2006.
     e. 	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments.
     f. 	 OMB Circular A-102, Grants and Cooperative Agreements with State and Local Governments
          (codified at 15 C.F.R. Part 24).
     g. 	 OMB Circular A-133, Audits of States, Local Governments, and Non-profit Organizations.
     h. 	 OMB Circular A-133 Compliance Supplement, CFDA 11.555, released March, 2008.
     i. 	 Department of Commerce Financial Assistance Standard Terms and Conditions, May 2007.
     j. 	 28 CFR Part 66, Uniform Administrative Requirements for Grants and Cooperative Agreements to
          State and Local Governments.
     k.	 28 CFR Part 70, Uniform Administrative Requirements for Grants and Agreements (Including
          Subawards) with Institutions of Higher Education, Hospitals, and other Non-profit Organizations.
     l. 	 Latest approved State Communication Interoperability Plan (SCIP)
     m. 	 Original signed Grant and Amendments
     n. A 	 pproved Investment Justifications and Clarifications
     o. 	 State Feedback Forms
     p. O 	 rganizational Chart
     q. 	 State of Michigan policies and procedures




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP
                                                                                                          119
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 26, 2012                                                                                           7



We reviewed key controls that had a direct and significant effect on MEMHSD’s ability to ensure
compliance with the requirements of the PSIC grant as noted from the various guidance listed above.
Specifically we reviewed controls associated with:
          Allowable Costs
          Activities Allowed
          Cash Management
          Equipment and Property Management
          Matching Level of Effort
          Period of Availability
          Procurement, Suspension, and Debarment
          Subrecipient Monitoring
          Reporting
We assessed the risk associated with each of the compliance areas noted and tested controls and
compliance with these requirements based on nonstatistical samples of MEMHSD and subrecipient
transactions, generally focusing on the highest dollar transactions and line items. Since we did not
attempt to extrapolate findings from sample analyses to all transactions, we believe our sampling
methodology represented a reasonable basis for the conclusions and recommendations included in our
report.
We conducted interviews with individuals with direct knowledge and responsible for the administration
and oversight of the PSIC grant activities. We analyzed supporting documentation provided to us by
MEMHSD to corroborate both control and compliance activities. Documents we analyzed included
subrecipient grant applications and reports, expenditure support, cash drawdowns, procurement policies
and procedures as well as documentation of subrecipient monitoring.
In addition, we verified the validity and reliability of computer-processed data supplied by MEMHSD by
directly testing data against supporting documentation. Based on our tests, we concluded the
computerized data were reliable for use in meeting our objectives.



Findings And Recommendations
1. Reporting Policies and Procedures
We noted that MEMHSD policies and procedures did not include a process requiring management review
of PSIC financial reports, including the SF269/425, prior to submission to the Federal government.
According to MEMHSD personnel, this was an oversight when preparing the procedures. Internal control
best practices include a review of all documents by an individual not associated with the documents
preparation and that the reviewer should be least one level higher than the individual responsible for
preparation of the report.
Recommendation
We recommend MEMHSD modify the current financial reporting procedures to include a second level
review of the financial reports prepared for submitted.




                                         www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP
                                                                                                         120
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 26, 2012                                                                                            8




2. Cash Management
Advance of funds
On November 12, 2008, MEMHSD received $3,619,895 in PSIC funds as an advance for the purchase of
equipment by a subgrantee. On November 18, 2008, $240,648 of the advance was returned to
MEMHSD by the subgrantee. However, MEMHSD did not return or adjust for the returned funds until
February 13, 2009 or 88 days from the original date of receipt.

Per PSIC Program Management Handbook, "PSIC grantees may elect to draw down funds up to 30 days
prior to expenditure or disbursement; however, grantees should draw down funds as close to expenditure
as possible to comply with the Cash Management Improvement Act (CMIA). CMIA requires that programs
remain interest-neutral (i.e., no interest will be gained or lost by either Federal or State governments as a
result of a Federal grant program). Interest is due to the Federal government if the State has held grant
funds in an interest-bearing account prior to disbursement for program purposes, and has accrued
interest as a result of this action."

According to MEMHSD personnel, during this time period a change in personnel occurred and the
needed adjustment for these funds went unnoticed.

Reconciliation process
On a monthly basis MEMHSD reconciles the amount of PSIC funds drawndown to the amounts
reimbursed to the subgrantees. Any difference noted becomes an adjustment to the PSIC drawdown
following the reconciliation. Adjustments are either an increase if reimbursements were greater than
amounts drawndown or decrease if reimbursements were less then amounts drawndown.

We noted that the monthly reconciliations are performed at or near the end of the month following the
month the drawdowns occurred. By not performing the reconciliation at or near the end of the month in
which the drawdowns actually occurred the potential exists for MEMHSD to have excess funds that have
not been expended or returned within 30 days of the drawdown date as required by PSIC Program
Management Handbook.

According to MEMHSD personnel the reconciliation is not performed until the state’s accounting system
has been fully closed and updated. They went on to say that the PSIC grant is the only grant
administered by MEMHSD that has a 30 day expenditure requirement.
Recommendation
We recommend MEMHSD:
   1. 	 Calculate the potential interest due to the Federal Government for the $240,648 of overdrawn
        funds and remit interest as is appropriate.
   2. 	 Establish procedures to perform the monthly PSIC reconciliation at current month end.

3. Equipment Inventory

MEMHSD does not ensure equipment inventory records for equipment purchased by subrecipients with
PSIC funds contain the required informational fields. We selected nine pieces of equipment from invoices
in subrecipient files to trace to inventory records. We noted four pieces did not have associated federal
share information included in the record and one piece of equipment did not have a serial number,
acquisition date, location, and condition noted in inventory. MEMHSD does not routinely keep equipment




                                           www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP
                                                                                                          121
Andrew Katsaros
Assistant Inspector General For Audit
Department of Commerce
April 26, 2012                                                                                         9



inventory records from subrecipients and therefore does not review the inventory records for
completeness of information.
Per Title 44 CFR part 13.32 (d) (1) the SAAs must maintain property records with information about the
individual pieces of equipment including such things as a description (including serial number or other
identification number), the source of funding, acquisition date and cost, and percentage of Federal
participation in the cost, location and condition, and any ultimate disposition data.
Recommendation
We recommend that the MEMHSD ensure subrecipient equipment inventory records contain the required
information in accordance with Title 44 CFR part 13.32 (d) (1).

4. Payment Support

MEMHSD administers the PSIC program on a reimbursement basis. We selected sixteen disbursements
and determined that eight did not have proof of payment by the subrecipient included in the files. Without
proof of payment MEMHSD cannot determine if reimbursements to subrecipients were for costs actually
incurred. According to MEMHSD personnel they do not require subrecipients to provide proof of payment
for PSIC funded activities.
Recommendation
We recommend that the MEMHSD modify current policy to require proof of payment from subrecipients
for costs reimbursed.


Other Matters
BSIR Reporting
MEMHSD December 2008 Biannual Strategy Implementation Report (BSIR) was submitted with an
approximate $240,649 in over reporting of expenditures caused by an oversight of the individual
responsible for preparing the report. This error was subsequently noted and corrected by MEMHSD
during the June 2009 BSIR process. MEMHSD was audited by the Michigan Office of Inspector General
and as part of that audit a finding was noted regarding the lack of supporting documentation for the BSIR.
MEMHSD changed their procedures and we noted no further differences between the amounts reported
on the BSIR and supporting documentation. Accordingly, we make no recommendation at this time.

Pass-through of Funding
The PSIC Program Guidance and Application Kit, August 2007, requires that grantees pass-through at
least 80% of PSIC funding to subgrantees within 60 days after the approval of the Investment
Justifications. We selected 16 subgrantee agreements and noted 15 agreements were issued greater
than 60 days after the IJs were approved. The number of days beyond the 60-day limit ranged from 33 to
250 days. Because the condition that caused these instances of non-compliance only existed at the 60-
day time limit in the early stage of the grant, there is no remedial action that can be taken by MEMHSD.
Accordingly, we make no recommendation at this time.




                                          www.crowehorwath.com


© Copyright 2012 Crowe Horwath LLP
                                                                                                       122
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


Appendix T: Potential Monetary Benefits from
This Assessment
                                     Questioned Costs         Funds Put to Better Use
               Unallowable costs         $190,317a                       $0
               a
               For a breakdown of unallowable costs by state, see table 2.




FINAL REPORT   NO. OIG-13-016-A                                                                         123
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL


Appendix U: Prior PSIC Reports Issued by OIG

Annual Assessments

Third Annual Assessment of the PSIC Grant Program, OIG-12-008-A, November 2011

Second Annual Assessment of the PSIC Grant Program, OIG-11-001-A, October 2010

First Annual Assessment of the PSIC Grant Program, DEN-19003, March 2009



State Audits

Audit of Texas PSIC Grant Award No. 2007-GS-H7-0044, OIG-11-007-A, November 2010

Audit of Massachusetts PSIC Grant Award No. 2007-GS-H7-0036, OIG-11-003-A, October 2010

Audit of California PSIC Grant Award No. 2007-GS-H7-0008, OIG-11-002-A, October 2010

Audit of Florida PSIC Grant Award No. 2007-GS-H7-0019, DEN-19886, September 2010

Audit of State of New York PSIC Grant Award No. 2007-GS-H7-0039, DEN-19674, August 2010

Audit of Arkansas PSIC Grant Award No. 2007-GS-H7-0012, DEN-19430, March 2010

Audit of Pennsylvania PSIC Grant Award No. 2007-GS-H7-0028, DEN-19429, March 2010

Audit of Nevada PSIC Grant Award No. 2007-GS-H7-0015, DEN-19431, September 2009

Audit of Louisiana PSIC Grant Award No. 2007-GS-H7-0014, DEN-19427, July 2009


01PSIC001128




FINAL REPORT   NO. OIG-13-016-A                                                           124
